<html>
<title> - HEARING WITH MICHAEL COHEN, FORMER ATTORNEY TO PRESIDENT DONALD TRUMP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 HEARING WITH MICHAEL COHEN, FORMER ATTORNEY TO PRESIDENT DONALD TRUMP

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

                           Serial No. 116-03

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                       http://www.house.gov/reform
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-230 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e594e517e5d4b4d4a565b524e105d515310">[email&#160;protected]</a>                                 
                   
             
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                          Peter Kenny, Counsel
          Elisa LaNier, Chief Clerk and Director of Operations

                      Contact Number: 202-225-5051
                        
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2019................................     1

                               Witnesses

Michael Cohen, Former Attorney to President Donald Trump
    Oral Statement...............................................     9
    Written Statement............................................    16

                            Index of Inserts

                                                                   Page
    Statement of Lynne Patton....................................    35
    Referral of Michael Cohen for Potential Violation............    39
    Common Cause Letter..........................................   108
    Dr. Darrell Scott Tweet......................................   154
    Bo Dietl Tweet...............................................   156
    Letter to Chairman Cummings..................................   158
    Cohen Sentencing Statement...................................   168
    State of New York Court Order on Cohen.......................   172

 
 HEARING WITH MICHAEL COHEN, FORMER ATTORNEY TO PRESIDENT DONALD TRUMP

                              ----------                              


                       Tuesday, February 27, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, 
Lawrence, Plaskett, Khanna, Gomez, Ocasio-Cortez, Pressley, 
Tlaib, Jordan, Amash, Gosar, Foxx, Massie, Meadows, Hice, 
Grothman, Comer, Cloud, Gibbs, Higgins, Norman, Roy, Miller, 
Green, Armstrong, and Steube.
    Chairman Cummings. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. The full committee hearing is 
convening to hear the testimony of Michael Cohen, former 
attorney to President Donald Trump.
    Mr. Meadows. Mr. Chairman, I have a point of order.
    Chairman Cummings. You'll state your point of order.
    Mr. Meadows. Rule 9(f) of the committee rules say that any 
testimony from your witness needs to be here 24 hours in 
advance. The committee and the chairman know well that at 
10:08, we received the written testimony, and then we received 
evidence this morning at 7:54.
    Now, if this was just an oversight, Mr. Chairman, I could 
look beyond it. But it was an intentional effort by this 
witness and his advisors to, once again, show his disdain for 
this body.
    With that, I move that we postpone this hearing.
    Chairman Cummings. I want to thank the gentleman.
    Let me say this, that we got the testimony late last night. 
We did. And we got it to you all pretty much the same time that 
we got it.
    I want to move forward with this hearing.
    Mr. Meadows. Mr. Chairman, with all due respect, Mr. 
Chairman, this is a violation of the rule. And if it was not 
intentional, I would not have a problem. I'm not saying it was 
intentional on your part. I'm saying it's intentional on his 
part, because Mr. Dean, last night on a cable news network, 
actually made it all very evident. John Dean. And I'll quote, 
Mr. Chairman. He said, ``As a former committee counsel in the 
House Judiciary Committee, and then a long-term witness, 
sitting alone at the table is important, quote, 'holding your 
statement as long as you can so the other side can't chew it up 
is important as well,' '' closed quote.
    And so it was advice that our witness got for this 
particular body. And, Mr. Chairman, when you were in the 
minority, you wouldn't have stood for it. And I can tell you 
that we should not stand for it as a body.
    Chairman Cummings. Let me say this----
    Mr. Jordan. Mr. Chairman----
    Chairman Cummings. Let me say this.
    Mr. Jordan. Mr. Chairman----
    Chairman Cummings. Yes. Katie Hill.
    Ms. Hill. I move to table.
    Mr. Jordan. Mr. Chairman.
    Chairman Cummings. Is there a second?
    Mr. Jordan. Mr. Chairman. I was asked to be recognized 
before the motion.
    Chairman Cummings. The vote is on tabling the motion.
    Mr. Jordan. Do you know who had this material before all 
the members of the committee?
    Chairman Cummings. Excuse me.
    Mr. Jordan. CNN had it before we did.
    Chairman Cummings. Sir.
    Mr. Jordan. CNN had the exhibits before we did.
    Well, I just want to be recognized.
    Chairman Cummings. Yes, well, the vote is on tabling the 
motion to postpone.
    All in favor say aye.
    All opposed say no. The ayes have it.
    Mr. Meadows. And I appeal the ruling of the chair.
    Yes, I can assure you it's in the rules. I appeal the 
ruling of the chair.
    Mr. Hice. Do the rules matter, Mr. Chairman?
    Chairman Cummings. I recognize the gentlelady.
    Ms. Hill. Move to waive the rules.
    Chairman Cummings. There's a motion to table.
    Ms. Hill. Move to table.
    Chairman Cummings. The vote is----
    Mr. Meadows. Well, she made two motions. What's the motion?
    Chairman Cummings. The vote is on tabling----
    Ms. Hill. I move to table the appeal to the ruling of the 
chair.
    Chairman Cummings. The vote is on that.
    All in favor say aye.
    All opposed say no.
    The ayes have it.
    Mr. Meadows. I ask for a recorded vote, Mr. Chairman.
    Chairman Cummings. Very well.
    The clerk will call the roll.
    The Clerk. Mr. Cummings?
    Chairman Cummings. Yes.
    The Clerk. Mr. Cummings votes yes.
    Ms. Maloney?
    Ms. Maloney. Yes.
    The Clerk. Ms. Maloney votes yes.
    Ms. Norton?
    Ms. Norton. Yes.
    The Clerk. Ms. Norton votes yes.
    Mr. Clay?
    Mr. Clay. Yes.
    The Clerk. Mr. Clay votes yes.
    Mr. Lynch?
    Mr. Lynch. Yes.
    The Clerk. Mr. Lynch votes yes.
    Mr. Cooper?
    Mr. Cooper. Yes.
    The Clerk. Mr. Cooper votes yes.
    Mr. Connolly?
    Mr. Connolly. Yes.
    The Clerk. Mr. Connolly votes yes.
    The Clerk. Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. Yes.
    The Clerk. Mr. Krishnamoorthi votes yes.
    Mr. Raskin?
    Mr. Raskin. Yes.
    The Clerk. Mr. Raskin votes yes.
    Mr. Rouda?
    Mr. Rouda. Yes.
    The Clerk. Mr. Rouda votes yes.
    Ms. Hill?
    Ms. Hill. Yes.
    The Clerk. Ms. Hill votes yes.
    Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Yes.
    The Clerk. Ms. Wasserman Schultz votes yes.
    Mr. Sarbanes?
    Mr. Sarbanes. Yes.
    The Clerk. Mr. Sarbanes votes yes.
    Mr. Welch. Yes.
    The Clerk. Mr. Welch votes yes.
    Ms. Speier?
    Ms. Speier. Yes.
    The Clerk. Ms. Speier votes yes.
    Ms. Kelly?
    Ms. Kelly. Yes.
    The Clerk. Ms. Kelly votes yes.
    Mr. DeSaulnier?
    Mr. DeSaulnier. Yes.
    The Clerk. Mr. DeSaulnier votes yes.
    Mrs. Lawrence?
    Mrs. Lawrence. Yes.
    The Clerk. Mrs. Lawrence votes yes.
    Ms. Plaskett?
    Ms. Plaskett. Yes.
    The Clerk. Ms. Plaskett votes yes.
    Mr. Khanna?
    Mr. Khanna. Yes.
    The Clerk. Mr. Khanna votes yes.
    Mr. Gomez?
    Mr. Gomez. Yes.
    The Clerk. Mr. Gomez votes yes.
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Yes.
    The Clerk. Ms. Ocasio-Cortez votes yes.
    Ms. Pressley?
    Ms. Pressley. Yes.
    The Clerk. Ms. Pressley votes yes.
    Ms. Tlaib?
    Ms. Tlaib. Yes.
    The Clerk. Ms. Tlaib votes yes.
    Mr. Jordan?
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Mr. Amash?
    Mr. Amash. No.
    The Clerk. Mr. Amash votes no.
    Mr. Gosar?
    Mr. Gosar. No.
    The Clerk. Mr. Gosar votes no.
    Ms. Foxx?
    Ms. Foxx. No.
    The Clerk. Ms. Foxx votes no.
    Mr. Massie?
    Mr. Massie. No.
    The Clerk. Mr. Massie votes no.
    Mr. Meadows?
    Mr. Meadows. No.
    The Clerk. Mr. Meadows votes no.
    Mr. Hice?
    Mr. Hice. No.
    The Clerk. Mr. Hice votes no.
    Mr. Grothman?
    Mr. Grothman. No.
    The Clerk. Mr. Grothman votes no.
    Mr. Comer?
    Mr. Comer. No.
    The Clerk. Mr. Comer votes no.
    Mr. Cloud?
    Mr. Cloud. No.
    The Clerk. Mr. Cloud votes no.
    Mr. Gibbs?
    Mr. Gibbs. No.
    The Clerk. Ms. Gibbs votes no.
    Mr. Higgins?
    [No response.]
    The Clerk. Mr. Norman?
    Mr. Norman. No.
    The Clerk. Mr. Norman votes no.
    Mr. Roy?
    Mr. Roy. No.
    The Clerk. Mr. Roy votes no.
    Mrs. Miller?
    Mrs. Miller. No.
    The Clerk. Mrs. Miller votes no.
    Mr. Green?
    Mr. Green. No.
    The Clerk. Mr. Green votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    The Clerk. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    The Clerk. Mr. Steube votes no.
    On this vote, we have 24 yeses, 17 noes.
    Chairman Cummings. OK. The motion to table is agreed to.
    Let me say this: You've made it clear that you do not want 
the American people to hear what Mr. Cohen has to say. But the 
American people have a right to hear him, so we're going to 
proceed. The American people can judge his credibility for 
themselves.
    Now----
    Mr. Jordan. Mr. Chairman.
    Chairman Cummings. Yes.
    Mr. Jordan. We did not say that. We just said we wanted to 
follow the rules. We had--he didn't say stop the hearing. He 
just said postpone it so we could get his testimony and the 
exhibits when we were supposed to get them according to the 
rules of this committee. That's all we said. We didn't say we 
didn't want to hear from the guy.
    Chairman Cummings. Reclaiming my time.
    Mr. Jordan. We want to follow the rule.
    Chairman Cummings. Reclaiming my time.
    I now recognize myself for five minutes to give an opening 
statement.
    Today, the committee will hear the testimony of Michael 
Cohen, President Donald Trump's long-time personal attorney, 
and one of his closest and most trusted advisers over the last 
decade. On August 21, Mr. Cohen appeared in Federal court, and 
admitted to arranging secret payoffs of hundreds of thousands 
of dollars on the eve of the election, to silence women 
alleging affairs with Donald Trump.
    Mr. Cohen admitted to violating campaign finance laws and 
other laws. He admitted to committing these felonies, quote, 
``in coordination with and at the direction of,'' unquote, 
President Trump. And he admitted, he admitted, to lying about 
his actions to protect the President.
    Some will certainly ask, if Mr. Cohen was lying then, why 
should we believe him now?
    Mr. Jordan. Good question.
    Chairman Cummings. This is a legitimate question.
    As a trial lawyer for many years, I faced this situation 
over and over again, and I asked the same question.
    Here is how I view our role. Every one of us in this room 
has a duty to serve as an independent check on the executive 
branch. Ladies and gentlemen, we are in search of the truth. 
The President has made many statements of his own, and now the 
American people have a right to hear the other side. They can 
watch Mr. Cohen's testimony and make their own judgment.
    We received a copy of Mr. Cohen's written statement late 
last night. It includes not only personal eyewitness accounts 
of meetings with Donald Trump, as President inside the Oval 
Office, but it also includes documents and other corroborating 
evidence of some of Mr. Cohen's statements.
    For example, Mr. Cohen has provided a copy of a check sent 
while President Trump was in office, with Donald Trump's 
signature on it to reimburse Mr. Cohen for the hush money 
payment to Stormy Daniels. This is new--this new evidence 
raises a host of troubling legal and ethical concerns about the 
President's actions in the White House and before.
    Would you all close that door, please?
    Thank you.
    This check is dated August 1, 2017. Six months later, in 
April 2018, the President denied anything about it. In April 
2018, President Trump was flying on Air Force One when a 
reporter asked him a question, Did you know about a $130,000 
payment to Stormy Daniels? The answer was, quote, ``No.''
    A month after that, the President admitted to making 
payments to Mr. Cohen, proclaimed they were part of a, quote, 
``a monthly retainer,'' unquote, for legal services. This claim 
fell apart in August when Federal prosecutors concluded, and I 
quote, ``in truth and in fact, there was no such retainer 
agreement,'' end of quote.
    Today, we will also hear Mr. Cohen's account of a meeting 
in 2016 in Donald Trump's office during which Roger Stone said 
over speaker phone that he had just spoken with Julian Assange, 
who said there would be a, quote, ``massive dump of emails that 
would damage Hillary Clinton's campaign,'' end of quote.
    According to Cohen, Mr. Trump replied, quote, ``Wouldn't 
that be great,'' end of quote.
    The testimony that Michael Cohen will provide today, ladies 
and gentlemen, is deeply disturbing, and it should be troubling 
to all Americans. We will all have to make our own evaluation 
of the evidence and Mr. Cohen's credibility as he admits he has 
repeatedly lied in the past. I agree with Ranking Member Jordan 
that this is an important factor we need to weigh, but we must 
weigh it, and we must hear from him.
    But where I disagree fundamentally with the ranking member 
involves his efforts to prevent the American people from 
hearing from Mr. Cohen. Mr. Cohen's testimony raises grave 
questions about the legality of Donald Trump's--President 
Donald Trump's conduct and the truthfulness of statements while 
he was President. We need to assess and investigate this new 
evidence as we uphold our constitutional--our oversight 
responsibilities. And we will continue after today to gather 
more documents and testimony in our search for the truth.
    I have made it abundantly clear to Mr. Cohen that if he 
comes here today and he does not tell him the truth--tell us 
the truth, I will be the first one to refer that--those 
untruthful statements to DOJ. So when people say he doesn't 
have anything to lose, he does have a lot to lose if he lies.
    And the American people, by the way, voted for 
accountability in November. And they have a right to hear Mr. 
Cohen in public so they can make their own judgments.
    Mr. Cohen's testimony is the beginning of the process, not 
the end. Ladies and gentlemen, the days of this committee 
protecting the President at all costs are over. They're over.
    Before I close, I want to comment about the scope of 
today's hearing. At the request of the House Intelligence 
Committee and my very good friend, Adam Schiff, Congressman 
Adam Schiff, the chairman, I intended, over the objections of 
the ranking member of our committee, to limit the scope of 
today's hearing to avoid questions about Russia.
    However, Mr. Cohen's written testimony--in his written 
testimony, he's made statements relating to Russia, and these 
are topics that, we understand, do not raise concern from the 
Department of Justice.
    So in fairness to the ranking member and all committee 
members, we will not restrict questions relating to the 
witness's testimony or related questions he is willing to 
answer.
    Finally, I remind members that we will need to remain 
mindful of those areas where there are ongoing Department of 
Justice investigations. Those scoping limitations have not 
changed.
    Finally, and to Mr. Cohen, Martin Luther King, Mr. Cohen, 
said some words that I leave with you today before you testify. 
He said, Faith is taking the first step even when you can't see 
the whole staircase. There comes a time when silence becomes 
betrayal. Our lives begin to end the day we become silent about 
things that truly matter. In the end he says, we will remember 
not the words of our enemies but the silence of our friends.
    And with that, I yield to the distinguished gentleman, the 
ranking member of our committee, Mr. Jordan.
    Mr. Gosar. Mr. Chairman, point of parliamentary inquiry.
    Chairman Cummings. Yes.
    Mr. Gosar. To the point that----
    Chairman Cummings. Mr. Jordan is recognized. Mr. Jordan is 
recognized for his opening statement.
    Mr. Jordan. Mr. Chairman, here we go. Here we go. Your 
first big hearing, your first announced witness, Michael Cohen. 
I want everyone in this room to think about this. The first 
announced witness for the 116th Congress is a guy who is going 
to prison in two months for lying to Congress.
    Mr. Chairman, your chairmanship will always be identified 
with this hearing. And we all need to understand what this is. 
This is the Michael Cohen hearing presented by Lanny Davis. 
That's right. Lanny Davis choreographed the whole darn thing. 
The Clintons' best friend, loyalist, operative. Lanny Davis put 
this all together.
    Do you know how we know? He told our staff. He told the 
committee staff. He said the hearing was his idea. He selected 
this committee. He had to talk Michael Cohen into coming. And 
most importantly, he had to persuade the chairman to actually 
have it. He told us it took two months to get that job done. 
But here we are. He talked him into it.
    This might be the first time someone convicted of lying to 
Congress has appeared again so quickly in front of Congress. 
Certainly, it's the first time a convicted perjurer has been 
brought back to be a star witness in a hearing. And there's a 
reason this is a first, because no other committee would do it.
    Think about this. With Mr. Cohen here, this committee, we 
got lots of lawyers on this committee, this committee is 
actually encouraging a witness to violate attorney-client 
privilege.
    Mr. Chairman, when we legitimize dishonesty, we 
delegitimize this institution. We're supposed to pursue the 
truth. But you have stacked the deck against the truth. We're 
only allowed to ask certain questions. Even with that amendment 
you just told us about, well, Russia is now on the table.
    You additionally told us we can't ask questions about the 
special counsel, can't ask questions about the Southern 
District of New York, can't ask questions about Russia. Nope. 
Nope. Only subjects we can talk about are ones you think are 
going to be harmful to the President of the United States. And 
the answers to those questions are going to come from a guy who 
can't be trusted.
    Here's what the U.S. attorney said about Mr. Cohen. While 
Mr. Cohen enjoyed a privileged life, his desire for ever-
greater wealth and influence precipitated an extensive course 
of criminal conduct. Mr. Cohen committed four, four distinct 
Federal crimes over a period of several years. He was motivated 
to do so by personal greed. And repeatedly, repeatedly used his 
power and influence for deceptive ends.
    But the Democrats don't care. They don't care. They just 
want to use you, Mr. Cohen. You're their patsy today. They got 
to find somebody somewhere to say something so they can try to 
remove the President from office, because Tom Steyer told him 
to.
    Tom Steyer last week organized a town hall. Guess where? 
Chairman Nadler's district in Manhattan. Two nights ago, Tom 
Steyer organized a town hall. Guess where? Chairman Cummings' 
district in Baltimore. The best they can find--the best they 
can find to start this process, Michael Cohen. Fraudster, a 
cheat, a convicted felon, and in two months, a Federal inmate. 
Well, actually, they didn't find him. Lanny Davis found him.
    I'll say one thing about the Democrats. They stick to the 
playbook. Remember--remember how all this started. The Clinton 
campaign hired Perkins Coie law firm who hired Glenn Simpson 
who hired a foreigner, Christopher Steele, who put together the 
fake dossier that the FBI used to go get a warrant to spy on 
the Trump campaign.
    But when that whole scheme failed and the American people 
said we're going to make Donald Trump President, they said, We 
got to do something else. So now Clinton loyalist, Clinton 
operative Lanny Davis has persuaded the chairman of the 
Oversight Committee to give a convicted felon a forum to tell 
stories and lie about the President of the United States so 
they can all start their impeachment process.
    Mr. Chairman, we are better than this. We are better than 
this.
    I yield back.
    Chairman Cummings. I wanted to note.
    Mr. Jordan. Actually, Mr. Chairman. Mr. Chairman, I have to 
motion.
    Chairman Cummings. Yield back.
    Mr. Jordan. I have a motion.
    Chairman Cummings. The gentleman is not recognized.
    Mr. Jordan. I have a motion under rule 2(k)6 of Rule 11.
    Chairman Cummings. You yielded back, sir. You yielded back.
    Mr. Jordan. Mr. Chairman, you took 7 minutes. I took 4.
    Chairman Cummings. Well, the gentleman yielded back.
    Mr. Jordan. That's how you're going to operate?
    First you don't follow the rules, and now you're going to 
say--so you don't get--you get to----
    Chairman Cummings. Point of order. You--regular order.
    Mr. Jordan. You get to deviate from the rules.
    Chairman Cummings. Regular order.
    Mr. Jordan. I just have a simple motion, Mr. Chairman.
    Ms. Plaskett. Regular order.
    Chairman Cummings. Thank you.
    Mr. Jordan. It's a regular order to have the testimony 24 
hours in advance.
    Chairman Cummings. Excuse me. I wanted to note that----
    Mr. Connolly. We've addressed that.
    Chairman Cummings [continuing]. until Rule 11 Clause 4, all 
media and photographers must be officially credentialed to 
record these proceedings and take photographs.
    I also wanted to briefly address the spectators in the 
hearing room today. We welcome you and we respect your right to 
be here. We also ask, in turn, for your respect as we proceed 
with the business of the committee today. It is the intention 
of the committee to proceed without any disruptions. Any 
disruption of this committee will result in the United States 
Capitol Police restoring order, and that protesters will be 
removed. And we are grateful for your presence here today and 
your cooperation.
    Now I want to welcome Mr. Cohen and thank him for 
participating in today's hearing.
    Mr. Cohen, if you would please rise, and I will begin to 
swear you in.
    Raise your right hand. Do you swear or affirm that the 
testimony that you are about to give is the whole truth and 
nothing but the truth, so help you God?
    Mr. Cohen. I do.
    Chairman Cummings. Let the record show that the witness 
answered in the affirmative. And thank you. And you may be 
seated.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your written statement will be 
made a part of the record.
    With that, Mr. Cohen, you are now recognized to give an 
oral presentation of your testimony.

STATEMENT OF MICHAEL COHEN, FORMER ATTORNEY TO PRESIDENT DONALD 
                             TRUMP

    Mr. Cohen. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, thank you for inviting me here today. 
I have asked this committee to ensure that my family be 
protected from Presidential threats, and that the committee be 
sensitive to the questions pertaining to ongoing 
investigations. I thank you for your help and for your 
understanding.
    I am here under oath to correct the record, to answer the 
committee's questions truthfully, and to offer the American 
people what I know about President Trump. I recognize that some 
of you may doubt and attack me on my credibility. It is for 
this reason that I have incorporated into this opening 
statement documents that are irrefutable, and demonstrate that 
the information you will hear is accurate and truthful.
    Never in a million years did I imagine when I accepted a 
job in 2007 to work for Donald Trump that he would one day run 
for the presidency, to launch a campaign on a platform of hate 
and intolerance, and actively win. I regret the day I said yes 
to Mr. Trump. I regret all the help and support I gave him 
along the way. I am ashamed of my own failings and publicly 
accepted responsibility for them by pleading guilty in the 
Southern District of New York. I am ashamed of my weakness and 
my misplaced loyalty of the things I did for Mr. Trump in an 
effort to protect and promote him.
    I am ashamed that I chose to take part in concealing Mr. 
Trump's illicit acts rather than listening to my own 
conscience. I am ashamed, because I know what Mr. Trump is. He 
is a racist, he is a con man, and he is a cheat.
    He was a Presidential candidate who knew that Roger Stone 
was talking with Julian Assange about a WikiLeaks drop on 
Democratic National Committee emails. And I will explain each 
in a few moments.
    I am providing the committee today with several documents, 
and these include a copy of a check Mr. Trump wrote from his 
personal bank account, after he became President, to reimburse 
me for the hush money payments I made to cover up his affair 
with an adult film star, and to prevent damage to his campaign. 
Copies of financial statements from 2011, 2012, and 2013 that 
he gave to such institutions such as Deutsche Bank, a copy of 
an article with Mr. Trump's handwriting on it that reported on 
the auction of a portrait of himself that he arranged for the 
bidder ahead of time and then reimbursed the bidder from the 
account of his nonprofit charitable foundation, with the 
picture now hanging in one of his country clubs, and copies of 
letters I wrote at Mr. Trump's direction that threatened his 
high school, colleges, and the College Board not to release his 
grades or SAT scores.
    I hope my appearance here today, my guilty plea, and my 
work with law enforcement agencies are steps along a path of 
redemption that will restore faith in me and help this country 
understand our President better.
    Before going further, I want to apologize to each member, 
to you as Congress, as a whole. The last time I appeared before 
Congress, I came to protect Mr. Trump. Today, I am here to tell 
the truth about Mr. Trump. I lied to Congress when Mr. Trump 
stopped negotiating the Moscow tower project in Russia. I 
stated that we stopped negotiating in January 2016. That was 
false. Our negotiations continued for months later during the 
campaign.
    Mr. Trump did not directly tell me to lie to Congress. 
That's not how he operates. In conversations we had during the 
campaign, at the same time, I was actively negotiating in 
Russia for him, he would look me in the eye and tell me, 
there's no Russian business, and then go on to lie to the 
American people by saying the same thing. In his way, he was 
telling me to lie.
    There are at least a half a dozen times between the Iowa 
caucus in January 2016 and the end of June when he would ask me 
how's it going in Russia, referring to the Moscow tower 
project.
    You need to know that Mr. Trump's personal lawyers reviewed 
and edited my statement to Congress about the timing of the 
Moscow tower negotiations before I gave it. So to be clear, Mr. 
Trump knew of and directed the Trump-Moscow negotiations 
throughout the campaign and lied about it. He lied about it 
because he never expected to win. He also lied about it because 
he stood to make hundreds of millions of dollars on the Moscow 
real estate project.
    So I lied about it too, because Mr. Trump had made clear to 
me, through his personal statements to me that we both knew to 
be false and through his lies to the country, that he wanted me 
to lie. And he made it clear to me, because his personal 
attorneys reviewed my statement before I gave it to Congress.
    Over the past two years, I have been smeared as a rat by 
the President of the United States. The truth is much 
different. And let me take a brief moment to introduce myself.
    My name is Michael Dean Cohen, and I am a blessed husband 
of 24 years and a father to an incredible daughter and son.
    When I married my wife, I promised her that I would love 
her, I would cherish her, and I would protect her. As my father 
said countless times throughout my childhood, you, my wife, and 
you, my children, are the air that I breathe.
    So to my Laura and to my Sami, and to my Jake, there is 
nothing I wouldn't do to protect you.
    I have always tried to live a life of loyalty, friendship, 
generosity, and compassion. It is qualities my parents 
engrained in my siblings and me since childhood. My father 
survived the Holocaust. Thanks to the compassion and selfless 
acts of others, he was helped by many who put themselves in 
harm's way to do what they knew was right. And that is why my 
first instinct has always been to help those in need. And Mom 
and Dad, I am sorry I let you down.
    As the many people that know me best would say, I am the 
person that they call at 3 a.m. if they needed help. And I 
proudly remember being the emergency contact for many of my 
children's friends when they were growing up, because their 
parents knew that I would drop everything and care for them as 
if they were my own.
    Yet last fall, I pled guilty in Federal court to felonies 
for the benefit of, at the direction of, and in coordination 
with individual No. 1. And for the record, individual No. 1 is 
President Donald J. Trump.
    It is painful to admit that I was motivated by ambition at 
times. It is even more painful to admit that many times I 
ignored my conscience and acted loyal to a man when I should 
not have. Sitting here today, it seems unbelievable that I was 
so mesmerized by Donald Trump that I was willing to do things 
for him that I knew were absolutely wrong. For that reason, I 
have come here to apologize to my family, to my government, and 
to the American people.
    Accordingly, let me now tell you about Mr. Trump.
    I got to know him very well working very closely with him 
for more than 10 years as his executive vice president and 
special counsel, and then as personal attorney when he became 
President.
    When I first met Mr. Trump, he was a successful 
entrepreneur, a real estate giant, and an icon. Being around 
Mr. Trump was intoxicating. When you were in his presence, you 
felt like you were involved in something greater than yourself, 
that you were somehow changing the world. I wound up touting 
the Trump narrative for over a decade. That was my job. Always 
stay on message. Always defend. It monopolized my life.
    At first, I worked mostly on real estate developments and 
other business transactions. Shortly thereafter, Mr. Trump 
brought me into his personal life and private dealings. Over 
time, I saw his true character revealed.
    Mr. Trump is an enigma. He is complicated, as am I. He is 
both good and bad, as are we all. But the bad far outweighs the 
good. And since taking office, he has become the worst version 
of himself.
    He is capable of behaving kindly, but he is not kind. He is 
capable of committing acts of generosity, but he is not 
generous. He is capable of being loyal, but he is fundamentally 
disloyal.
    Donald Trump is a man who ran for office to make his brand 
great, not to make our country great. He had no desire or 
intention to lead this Nation, only to market himself and to 
build his wealth and power.
    Mr. Trump would often say this campaign was going to be the 
greatest infomercial in political history. He never expected to 
win the primary. He never expected to win the general election. 
The campaign for him was always a marketing opportunity.
    I knew early on in my work for Mr. Trump that he would 
direct me to lie to further his business interests. And I am 
ashamed to say that when it was for a real estate mogul in the 
private sector, I considered it trivial. As the President, I 
consider it significant and dangerous.
    In the mix, lying for Mr. Trump was normalized, and no one 
around him questioned it. In fairness, no one around him today 
questions it either. A lot of people have asked me about 
whether Mr. Trump knew about the release of the hacked 
documents, the Democratic National Committee emails ahead of 
time. And the answer is yes.
    As I earlier stated, Mr. Trump knew from Roger Stone in 
advance about the WikiLeaks drop of emails. In July 2016, days 
before the Democratic Convention, I was in Mr. Trump's office 
when his secretary announced that Roger Stone was on the phone. 
Mr. Trump put Mr. Stone on the speaker phone. Mr. Stone told 
Mr. Trump that he had just gotten off the phone with Julian 
Assange, and that Mr. Assange told Mr. Stone that within a 
couple of days, there would be a massive dump of emails that 
would damage Hillary Clinton's campaign.
    Mr. Trump responded by stating to the effect, Wouldn't that 
be great.
    Mr. Trump is a racist. The country has seen Mr. Trump court 
white supremacists and bigots. You have heard him call poorer 
countries shitholes. His private--in private he is even worse.
    He once asked me if I can name a country run by a black 
person that wasn't a shithole. This was when Barack Obama was 
President of the United States. And while we were once driving 
through a struggling neighborhood in Chicago, he commented that 
only black people could live that way. And he told me that 
black people would never vote for him because they were too 
stupid. And yet, I continued to work for him.
    Mr. Trump is a cheat. As previously stated, I am giving to 
the committee today three years of Mr. Trump's personal 
financial statements from 2011, 2012, and 2013, which he gave 
to Deutsche Bank to inquire about a loan to buy the Buffalo 
Bills and to Forbes. These are exhibits 1A, 1B,and 1C to my 
testimony. [Exhibits are available at:  https://
oversight.house.gov/sites/democrats.oversight.house.gov/files/
Michael%20Cohen.02.27.2019.Exhibits.pdf.]
    It was my experience that Mr. Trump inflated his total 
assets when it served his purposes, such as trying to be listed 
amongst the wealthiest people in Forbes and deflated his assets 
to reduce his real estate taxes.
    I'm sharing with you two newspaper articles side-by-side 
that are examples of Mr. Trump inflating and deflating his 
assets, as I said, to suit his financial interests. These are 
exhibit 2 to my testimony.
    As I noted, I'm giving the committee today an article he 
wrote on and sent to me that reported on an auction of a 
portrait of Mr. Trump. This is exhibit 3A to my testimony. Mr. 
Trump directed me to find a straw bidder to purchase a portrait 
of him that was being auctioned off at an art Hampton's event. 
The objective was to ensure that this portrait, which was going 
to be auctioned last, would go for the highest price of any 
portrait that afternoon. The portrait was purchased by the fake 
bidder for $60,000.
    Mr. Trump directed the Trump Foundation, which is supposed 
to be a charitable organization, to repay the fake bidder, 
despite keeping the art for himself. And please see exhibit 3B 
to my testimony.
    It should come as no surprise that one of my more common 
responsibilities was that Mr. Trump directed me to call 
business owners, many of whom are small businesses, that were 
owed money for their services and told them that no payment or 
a reduced payment would be coming. When I asked Mr. Trump--or 
when I told Mr. Trump of my success, he actually reveled in it. 
And yet, I continued to work for him.
    Mr. Trump is a con man. He asked me to pay off an adult 
film star with whom he had an affair, and to lie about it to 
his wife, which I did. And lying to the First Lady is one of my 
biggest regrets, because she is a kind, good person, and I 
respect her greatly. And she did not deserve that.
    I am giving the committee today a copy of the $130,000 wire 
transfer from me to Ms. Clifford's attorney during the closing 
days of the Presidential campaign that was demanded by Ms. 
Clifford to maintain her silence about her affair with Mr. 
Trump. And this is exhibit 4 to my testimony.
    Mr. Trump directed me to use my own personal funds from a 
home equity line of credit to avoid any money being traced back 
to him that could negatively impact his campaign. And I did 
that too, without bothering to consider whether that was 
improper much less whether it was the right thing to do, or how 
it would impact me, my family, or the public. And I am going to 
jail, in part, because of my decision to help Mr. Trump hide 
that payment from the American people before they voted a few 
days later.
    As exhibit 5A to my testimony shows, I am providing a copy 
of a $35,000 check that President Trump personally signed from 
his personal bank account on August 1 of 2017, when he was 
President of the United States, pursuant to the coverup which 
was the basis of my guilty plea to reimburse me, the word used 
by Mr. Trump's TV lawyer for the illegal hush money I paid on 
his behalf.
    This $35,000 check was one of 11 check installments that 
was paid throughout the year while he was President. Other 
checks to reimburse me for the hush money payments were signed 
by Donald Trump, Jr., and Allen Weisselberg. And see that 
example, 5B.
    The President of the United States thus wrote a personal 
check for the payment of hush money as part of a criminal 
scheme to violate campaign finance laws. And you can find the 
details of that scheme directed by Mr. Trump in the pleadings 
in the U.S. District Court for the Southern District of New 
York.
    So picture this scene. In February 2017, one month into his 
presidency, I'm visiting President Trump in the oval office for 
the first time, and it's truthfully awe-inspiring. He's showing 
me all around and pointing to different paintings. And he says 
to me something to the effect of, Don't worry, Michael. Your 
January and February reimbursement checks are coming. They were 
FedEx'd from New York. And it takes a while for that to get 
through the White House system.
    As he promised, I received the first check for the 
reimbursement of $70,000 not long thereafter.
    When I say con man, I'm talking about a man who declares 
himself brilliant, but directed me to threaten his high school, 
his colleges, and the College Board to never release his grades 
or SAT scores. As I mentioned, I'm giving the committee today 
copies of a letter I sent at Mr. Trump's direction, threatening 
these schools with civil and criminal actions if Mr. Trump's 
grades or SAT scores were ever disclosed without his 
permission. And these are under exhibit 6.
    The irony wasn't lost on me at the time that Mr. Trump, in 
2011, had strongly criticized President Obama for not releasing 
his grades. As you can see in exhibit 7, Mr. Trump declared, 
Let him show his records, after calling President Obama a 
terrible student.
    The sad fact is that I never heard Mr. Trump say anything 
in private that led me to believe he loved our Nation or wanted 
to make it better. In fact, he did the opposite. When telling 
me in 2008 or 2009 that he was cutting employees' salaries in 
half, including mine. He showed me what he claimed was a $10 
million IRS tax refund. And he said that he could not believe 
how stupid the government was for giving someone like him that 
much money back.
    During the campaign, Mr. Trump said that he did not 
consider Vietnam veteran and prisoner of war, Senator John 
McCain, to be a hero because he likes people who weren't 
captured. At the same time, Mr. Trump tasked me to handle the 
negative press surrounding his medical deferment from the 
Vietnam draft.
    Mr. Trump claimed it was because of a bone spur. But when I 
asked for medical records, he gave me none and said that there 
was no surgery. He told me not to answer the specific questions 
by reporters, but rather, offer simply the fact that he 
received a medical deferment. He finished the conversation with 
the following comment. ``You think I'm stupid? I'm not going to 
Vietnam.'' And I find it ironic, Mr. President, that you are in 
Vietnam right now. And yet, I continued to work for him.
    The questions have been raised about whether I know of 
direct evidence that Mr. Trump or his campaign colluded with 
Russia. I do not. And I want to be clear. But I have my 
suspicions.
    Sometime in the summer of 2017, I read all over the media 
that there had been a meeting in Trump Tower in June 2016 
involving Don Jr. and others from the campaign with Russians, 
including a representative of the Russian Government, and an 
email setting up the meeting with the subject line, Dirt on 
Hillary Clinton.
    Something clicked in my mind. I remembered being in a room 
with Mr. Trump, probably in early June 2016, when something 
peculiar happened. Don Trump, Jr. came into the room and walked 
behind his father's desk, which in and of itself was unusual. 
People didn't just walk behind Mr. Trump's desk to talk to him.
    I recalled Don Jr. leaning over to his father and speaking 
in a low voice, which I could clearly hear, and saying, The 
meeting is all set. And I remember Mr. Trump saying, ``OK. 
Good. Let me know.''
    What struck me as I look back and thought about the 
exchange between Don Jr. and his father was, first, that Mr. 
Trump had frequently told me and others that his son Don Jr. 
had the worst judgment of anyone in the world. And also that 
Don Jr. would never set up any meeting of significance alone, 
and certainly not without checking with his father.
    I also knew that nothing went on in Trump world, especially 
the campaign, without Mr. Trump's knowledge and approval. So I 
concluded that Don Jr. was referring to that June 2016 Trump 
Tower meeting about dirt on Hillary with the Russian 
representatives when he walked behind his dad's desk that day, 
and that Mr. Trump knew that was the meeting Don Jr. was 
talking about when he said, That's good. Let me know.
    Over the past year or so, I have done some real soul 
searching. And I see now that my ambition and the intoxication 
of Trump power had much to do with the bad decisions in part 
that I made. And to you, Chairman Cummings and Ranking Member 
Jordan, the other members of this committee, the members of the 
House and Senate, I am sorry for my lies and for lying to 
Congress. And to our Nation, I am sorry for actively working to 
hide from you the truth about Mr. Trump when you needed it 
most.
    For those who question my motives for being here today, I 
understand. I have lied. But I am not a liar. And I have done 
bad things, but I am not a bad man. I have fixed things, but I 
am no longer your fixer, Mr. Trump. And I am going to prison 
and have shattered the safety and security that I tried so hard 
to provide for my family.
    My testimony certainly does not diminish the pain that I 
have caused my family and my friends. Nothing can do that. And 
I have never asked for, nor would I accept a pardon from 
President Trump.
    By coming today, I have caused my family to be the target 
of personal, scurrilous attacks by the President and his lawyer 
trying to intimidate me from appearing before this panel.
    Mr. Trump called me a rat for choosing to tell the truth, 
much like a mobster would do when one of his men decides to 
cooperate with the government. And as exhibit 8 shows, I have 
provided the committee with copies of tweets that Mr. Trump 
posted attacking me and my family. Only someone burying his 
head in the sand would not recognize them for what they are. 
It's encouragement to someone to do harm to me and my family.
    I never imagined that he would engage in vicious, false 
attacks on my family, and unleash his TV lawyer to do the same. 
And I hope this committee, and all Members of Congress on both 
sides of the aisle, make it clear that, as a Nation, we should 
not tolerate attempts to intimidate witnesses before Congress, 
and attacks on family are out of bounds and not acceptable.
    I wish to especially thank Speaker Pelosi for her 
statements, it's exhibit 9, to protect this institution and me, 
and the chairman of the House Permanent Select Committee on 
Intelligence, Adam Schiff, and you, Chairman Cummings, for 
likewise defending the institution and my family against the 
attacks by Mr. Trump, and also the many Republicans who have 
admonished the President as well.
    I am not a perfect man. I have done things I am not proud 
of. And I will live with the consequences of my actions for the 
rest of my life. But today, I get to decide the example that I 
set for my children, and how I attempt to change how history 
will remember me. I may not be able to change the past, but I 
can do right by the American people here today.
    I thank you for your attention, and I'm happy to answer the 
committee's questions.

    [Prepared Statement of Mr. Cohen follows:]
     WRITTEN TESTIMONY OF MICHAEL D. COHEN COMMITTEE ON OVERSIGHT 
                AND REFORM U.S. HOUSE OF REPRESENTATIVES

                           FEBRUARY 27, 2019

    Chairman Cummings, Ranking Member Jordan, and Members of the 
Committee, thank you for inviting me here today.
    I have asked this Committee to ensure that my family be protected 
from Presidential threats, and that the Committee be sensitive to the 
questions pertaining to ongoing investigations. Thank you for your help 
and for your understanding.
    I am here under oath to correct the record, to answer the 
Committee's questions truthfully, and to offer the American people what 
I know about President Trump.
    I recognize that some of you may doubt and attack me on my 
credibility. It is for this reason that I have incorporated into this 
opening statement documents that are irrefutable, and demonstrate that 
the information you will hear is accurate and truthful.
    Never in a million years did I imagine, when I accepted a job in 
2007 to work for Donald Trump, that he would one day run for President, 
launch a campaign on a platform of hate and intolerance, and actually 
win. I regret the day I said yes to Mr. Trump. I regret all the help 
and support I gave him along the way.
    I am ashamed of my own failings, and I publicly accepted 
responsibility for them by pleading guilty in the Southern District of 
New York.
    I am ashamed of my weakness and misplaced loyalty -- of the things 
I did for Mr. Trump in an effort to protect and promote him.
    I am ashamed that I chose to take part in concealing Mr. Trump's 
illicit acts rather than listening to my own conscience.
    I am ashamed because I know what Mr. Trump is.
    He is a racist.
    He is a conman.
    He is a cheat.
    He was a presidential candidate who knew that Roger Stone was 
talking with Julian Assange about a WikiLeaks drop of Democratic 
National Committee emails.
    I will explain each in a few moments.
    I am providing the Committee today with several documents. These 
include:

    <bullet>  A copy of a check Mr. Trump wrote from his personal bank 
account -- after he became president -- to reimburse me for the hush 
money payments I made to cover up his affair with an adult film star 
and prevent damage to his campaign;
    <bullet>  Copies of financial statements for 2011 - 2013 that he 
gave to such institutions as Deutsche Bank;
    <bullet>  A copy of an article with Mr. Trump's handwriting on it 
that reported on the auction of a portrait of himself -- he arranged 
for the bidder ahead of time and then reimbursed the bidder from the 
account of his non-profit charitable foundation, with the picture now 
hanging in one of his country clubs; and
    <bullet>  Copies of letters I wrote at Mr. Trump's direction that 
threatened his high school, colleges, and the College Board not to 
release his grades or SAT scores.

    I hope my appearance here today, my guilty plea, and my work with 
law enforcement agencies are steps along a path of redemption that will 
restore faith in me and help this country understand our president 
better.

          * * * * * * *

    Before going further, I want to apologize to each of you and to 
Congress as a whole.
    The last time I appeared before Congress, I came to protect Mr. 
Trump. Today, I'm here to tell the truth about Mr. Trump.
    I lied to Congress about when Mr. Trump stopped negotiating the 
Moscow Tower project in Russia. I stated that we stopped negotiating in 
January 2016. That was false -- our negotiations continued for months 
later during the campaign.
    Mr. Trump did not directly tell me to lie to Congress. That's not 
how he operates.
    In conversations we had during the campaign, at the same time I was 
actively negotiating in Russia for him, he would look me in the eye and 
tellme there's no business in Russia and then go out and lie to the 
American people by saying the same thing. In his way, he was telling me 
to lie.
    There were at least a half-dozen times between the Iowa Caucus in 
January 2016 and the end of June when he would ask me "it going in 
Russia?" referring to the Moscow Tower project.
    You need to know that Mr. Trump's personal lawyers reviewed and 
edited my statement to Congress about the timing of the Moscow Tower 
negotiations before I gave it.
    To be clear: Mr. Trump knew of and directed the Trump Moscow 
negotiations throughout the campaign and lied about it. He lied about 
it because he never expected to win the election. He also lied about it 
because he stood to make hundreds of millions of dollars on the Moscow 
real estate project.
    And so I lied about it, too -- because Mr. Trump had made clear to 
me, through his personal statements to me that we both knew were false 
and through his lies to the country, that he wanted me to lie. And he 
made itclear to me because his personal attorneys reviewed my statement 
before I gave it to Congress.

          * * * * * * *

    Over the past two years, I have been smeared as "a rat" by the 
President of the United States. The truth is much different, and let me 
take a brief moment to introduce myself.
    My name is Michael Dean Cohen.
    I am a blessed husband of 24 years and a father to an incredible 
daughter and son. When I married my wife, I promised her that I would 
love her, cherish her, and protect her. As my father said countless 
times throughout my childhood, "you my wife, and you my children, are 
the air that I breathe." To my Laura, my Sami, and my Jake, there is 
nothing I wouldn't do to protect you.
    I have always tried to live a life of loyalty, friendship, 
generosity, and compassion -- qualities my parents ingrained in my 
siblings and me since childhood. My father survived the Holocaust 
thanks to the compassion and selfless acts of others. He was helped by 
many who put themselves in harm's way to do what they knew was right.
    That is why my first instinct has always been to help those in 
need. Mom and Dad...I am sorry that I let you down.
    As many people that know me best would say, I am the person they 
would call at 3AM if they needed help. I proudly remember being the 
emergency contact for many of my children's friends when they were 
growing up because their parents knew that I would drop everything and 
care for them as if they were my own.
    Yet, last fall I pled guilty in federal court to felonies for the 
benefit of, at the direction of, and in coordination with Individual 
#1.
    For the record: Individual #1 is President Donald J. Trump.
    It is painful to admit that I was motivated by ambition at times. 
It is even more painful to admit that many times I ignored my 
conscience and acted loyal to a man when I should not have. Sitting 
here today, it seems unbelievable that I was so mesmerized by Donald 
Trump that I was willing to do things for him that I knew were 
absolutely wrong.
    For that reason, I have come here to apologize to my family, to the 
government, and to the American people.

          * * * * * * *

    Accordingly, let me now tell you about Mr. Trump.
    I got to know him very well, working very closely with him for more 
than 10 years, as his Executive Vice President and Special Counsel and 
then personal attorney when he became President. When I first met Mr. 
Trump, he was a successful entrepreneur, a real estate giant, and an 
icon. Being around Mr. Trump was intoxicating. When you were in his 
presence, you felt like you were involved in something greater than 
yourself -- that you were somehow changing the world.
    I wound up touting the Trump narrative for over a decade. That was 
my job. Always stay on message. Always defend. It monopolized my life. 
At first, I worked mostly on real estate developments and other 
business transactions. Shortly thereafter, Mr. Trump brought me into 
his personal life and private dealings. Over time, I saw his true 
character revealed.
    Mr. Trump is an enigma. He is complicated, as am I. He has both 
good and bad, as do we all. But the bad far outweighs the good, and 
since taking office, he has become the worst version of himself. He is 
capable of behaving kindly, but he is not kind. He is capable of 
committing acts of generosity, but he is not generous. He is capable of 
being loyal, but he is fundamentally disloyal.
    Donald Trump is a man who ran for office to make his brand great, 
not to make our country great. He had no desire or intention to lead 
this nation -- only to market himself and to build his wealth and 
power. Mr. Trump would often say, this campaign was going to be the 
"greatest infomercial in political history."
    He never expected to win the primary. He never expected to win the 
general election. The campaign -- for him -- was always a marketing 
opportunity.
    I knew early on in my work for Mr. Trump that he would direct me to 
lie to further his business interests. I am ashamed to say, that when 
it was for a real estate mogul in the private sector, I considered it 
trivial. As the President, I consider it significant and dangerous.
    But in the mix, lying for Mr. Trump was normalized, and no one 
around him questioned it. In fairness, no one around him today 
questions it, either.
    A lot of people have asked me about whether Mr. Trump knew about 
the release of the hacked Democratic National Committee emails ahead of 
time. The answer is yes.
    As I earlier stated, Mr. Trump knew from Roger Stone in advance 
about the WikiLeaks drop of emails.
    In July 2016, days before the Democratic convention, I was in Mr. 
Trump's office when his secretary announced that Roger Stone was on the 
phone. Mr. Trump put Mr. Stone on the speakerphone. Mr. Stone told Mr. 
Trump that he had just gotten off the phone with Julian Assange and 
that Mr. Assange told Mr. Stone that, within a couple of days, there 
would be a massive dump of emails that would damage Hillary Clinton's 
campaign.
    Mr. Trump responded by stating to the effect of "wouldn't that be 
great."
    Mr. Trump is a racist. The country has seen Mr. Trump court white 
supremacists and bigots. You have heard him call poorer countries 
"shitholes."
    In private, he is even worse.
    He once asked me if I could name a country run by a black person 
that wasn't a "shithole." This was when Barack Obama was President of 
the United States.
    While we were once driving through a struggling neighborhood in 
Chicago, he commented that only black people could live that way.
    And, he told me that black people would never vote for him because 
they were too stupid.
    And yet I continued to work for him.
    Mr. Trump is a cheat.
    As previously stated, I'm giving the Committee today three years of 
President Trump's financial statements, from 2011-2013, which he gave 
to Deutsche Bank to inquire about a loan to buy the Buffalo Bills and 
to Forbes. These are Exhibits 1a, 1b, and 1c to my testimony.
    It was my experience that Mr. Trump inflated his total assets when 
it served his purposes, such as trying to be listed among the 
wealthiest people in Forbes, and deflated his assets to reduce his real 
estate taxes.
    I am sharing with you two newspaper articles, side by side, that 
are examples of Mr. Trump inflating and deflating his assets, as I 
said, to suit his financial interests. These are Exhibit 2 to my 
testimony.
    As I noted, I'm giving the Committee today an article he wrote on, 
and sent me, that reported on an auction of a portrait of Mr. Trump. 
This is Exhibit3A to my testimony.
    Mr. Trump directed me to find a straw bidder to purchase a portrait 
of him that was being auctioned at an Art Hamptons Event. The objective 
was to ensure that his portrait, which was going to be auctioned last, 
would go for the highest price of any portrait that afternoon. The 
portrait was purchased by the fake bidder for $60,000. Mr. Trump 
directed the Trump Foundation, which is supposed to be a charitable 
organization, to repay the fake bidder, despite keeping the art for 
himself. Please see Exhibit 3B to my testimony.
    And it should come as no surprise that one of my more common 
responsibilities was that Mr. Trump directed me to call business 
owners, many of whom were small businesses, that were owed money for 
their services and told them no payment or a reduced payment would be 
coming. When I advised Mr. Trump of my success, he actually reveled in 
it.
    And yet, I continued to work for him.
    Mr. Trump is a conman.
    He asked me to pay off an adult film star with whom he had an 
affair, and to lie to his wife about it, which I did. Lying to the 
First Lady is one of my biggest regrets. She is a kind, good person. I 
respect her greatly -- and she did not deserve that.
    I am giving the Committee today a copy of the $130,000 wire 
transfer from me to Ms. Clifford's attorney during the closing days of 
the presidential campaign that was demanded by Ms. Clifford to maintain 
her silence about her affair with Mr. Trump. This is Exhibit 4 to my 
testimony.
    Mr. Trump directed me to use my own personal funds from a Home 
Equity Line of Credit to avoid any money being traced back to him that 
could negatively impact his campaign. I did that, too -- without 
bothering to consider whether that was improper, much less whether it 
was the right thing to do or how it would impact me, my family, or the 
public.
    I am going to jail in part because of my decision to help Mr. Trump 
hide that payment from the American people before they voted a few days 
later.
    As Exhibit 5 to my testimony shows, I am providing a copy of a 
$35,000 check that President Trump personally signed from his personal 
bank account on August 1, 2017 -- when he was President of the United 
States -- pursuant to the cover-up, which was the basis of my guilty 
plea, to reimburse me -- the word used by Mr. Trump's TV lawyer -- for 
the illegal hush money I paid on his behalf. This $35,000 check was one 
of 11 check installments that was paid throughout the year -- while he 
was President.
    The President of the United States thus wrote a personal check for 
the payment of hush money as part of a criminal scheme to violate 
campaign finance laws. You can find the details of that scheme, 
directed by Mr. Trump, in the pleadings in the U.S. District Court for 
the Southern District of New York.
    So picture this scene -- in February 2017, one month into his 
presidency, I'm visiting President Trump in the Oval Office for the 
first time. It's truly awe-inspiring, he's showing me around and 
pointing to different paintings, and he says to me something to the 
effect of ...Don't worry, Michael, your January and February 
reimbursement checks are coming. They were Fed- Exed from New York and 
it takes a while for that to get through the White House system." As he 
promised, I received the first check for the reimbursement of $70,000 
not long thereafter.
    When I say conman, I'm talking about a man who declares himself 
brilliant but directed me to threaten his high school, his colleges, 
and the College Board to never release his grades or SAT scores.
    As I mentioned, I'm giving the Committee today copies of a letter I 
sent at Mr. Trump's direction threatening these schools with civil and 
criminal actions if Mr. Trump's grades or SAT scores were ever 
disclosed without his permission. These are Exhibit 6.
    The irony wasn't lost on me at the time that Mr. Trump in 2011 had 
strongly criticized President Obama for not releasing his grades. As 
you can see in Exhibit 7, Mr. Trump declared "Let him show his records" 
after calling President Obama "a terrible student."
    The sad fact is that I never heard Mr. Trump say anything in 
private that led me to believe he loved our nation or wanted to make it 
better. In fact, he did the opposite.
    When telling me in 2008 that he was cutting employees' salaries in 
half including mine he showed me what he claimed was a $10 million IRS 
tax refund, and he said that he could not believe how stupid the 
government was for giving "someone like him" that much money back.
    During the campaign, Mr. Trump said he did not consider Vietnam 
Veteran, and Prisoner of War, Senator John McCain to be "a hero" 
because he likes people who weren't captured. At the same time, Mr. 
Trump tasked me to handle the negative press surrounding his medical 
deferment from the Vietnam draft.
    Mr. Trump claimed it was because of a bone spur, but when I asked 
for medical records, he gave me none and said there was no surgery. He 
told me not to answer the specific questions by reporters but rather 
offer simply the fact that he received a medical deferment.
    He finished the conversation with the following comment. "You think 
I'm stupid, I wasn't going to Vietnam."I find it ironic, President 
Trump, that you are in Vietnam right now. And yet, I continued to work 
for him.

          * * * * * * *

    Questions have been raised about whether I know of direct evidence 
that Mr. Trump or his campaign colluded with Russia. I do not. I want 
to be clear. But, I have my suspicions.
    Sometime in the summer of 2017, I read all over the media that 
there had been a meeting in Trump Tower in June 2016 involving Don Jr. 
and others from the campaign with Russians, including a representative 
of the Russian government, and an email setting up the meeting with the 
subject line, "Dirt on Hillary Clinton." Something clicked in my mind. 
I remember being in the room with Mr. Trump, probably in early June 
2016, when something peculiar happened. Don Jr. came into the room and 
walked behind his father' desk -- which in itself was unusual. People 
didn't just walk behind Mr. Trump's desk to talk to him. I recalled Don 
Jr. leaning over to his father and speaking in a low voice, which I 
could clearly hear, and saying: "The meeting is all set."I remember Mr. 
Trump saying, "Ok good...let me know."
    What struck me as I looked back and thought about that exchange 
between Don Jr. and his father was, first, that Mr. Trump had 
frequently told me and others that his son Don Jr. had the worst 
judgment of anyone in theworld. And also, that Don Jr. would never set 
up any meeting of any significance alone -- and certainly not without 
checking with his father.I also knew that nothing went on in Trump 
world, especially the campaign, without Mr. Trump's knowledge and 
approval. So, I concluded that Don Jr. was referring to that June 2016 
Trump Tower meeting about dirt on Hillary with the Russian 
representative when he walked behind his dad's desk that day -- and 
that Mr. Trump knew that was the meeting Don Jr. was talking about when 
he said, "That's good...let me know."

          * * * * * * *

    Over the past year or so, I have done some real soul searching. I 
see now that my ambition and the intoxication of Trump power had much 
to do with the bad decisions I made.
    To you, Chairman Cummings, Ranking Member Jordan, the other members 
of this Committee, and the other members of the House and Senate, I am 
sorry for my lies and for lying to Congress.
    To our nation, I am sorry for actively working to hide from you the 
truth about Mr. Trump when you needed it most.
    For those who question my motives for being here today, I 
understand. I have lied, but I am not a liar. I have done bad things, 
but I am not a bad man. I have fixed things, but I am no longer your 
"fixer," Mr. Trump.
    I am going to prison and have shattered the safety and security 
that I tried so hard to provide for my family. My testimony certainly 
does not diminishthe pain I caused my family and friends -- nothing can 
do that. And I have never asked for, nor would I accept, a pardon from 
President Trump.
    And, by coming today, I have caused my family to be the target of 
personal, scurrilous attacks by the President and his lawyer -- trying 
to intimidate me from appearing before this panel. Mr. Trump called me 
a "rat" for choosing to tell the truth -- much like a mobster would do 
when one of his men decides to cooperate with the government.
    As Exhibit 8 shows, I have provided the Committee with copies of 
Tweets that Mr. Trump posted, attacking me and my family -- only 
someone burying his head in the sand would not recognize them for what 
they are: encouragement to someone to do harm to me and my family.
    I never imagined that he would engage in vicious, false attacks on 
my family -- and unleash his TV-lawyer to do the same. I hope this 
committee and all members of Congress on both sides of the aisle will 
make it clear: As a nation, we should not tolerate attempts to 
intimidate witnesses before congress and attacks on family are out of 
bounds and not acceptable.
    I wish to especially thank Speaker Pelosi for her statements in 
Exhibit 9 to protect this institution and me, and the Chairman of the 
House PermanentSelect Committee on Intelligence Adam Schiff and 
Chairman Cummings for likewise defending this institution and my family 
against the attacks by Mr. Trump, and also the many Republicans who 
have admonished the President as well.
    I am not a perfect man. I have done things I am not proud of, and I 
will live with the consequences of my actions for the rest of my life.
    But today, I get to decide the example I set for my children and 
how I attempt to change how history will remember me. I may not be able 
to change the past, but I can do right by the American people here 
today.
    Thank you for your attention. I am happy to answer the Committee's 
questions.

    Chairman Cummings. Thank you very much, Mr. Cohen. I now 
recognize myself.
    Mr. Cohen, before I start, I want to make sure you really 
understand something. You have admitted lying to Congress, to 
this very body, and now you're going to prison for it.
    Do you, Mr. Cohen, recognize the gravity of your offenses?
    You are a lawyer, right?
    Mr. Cohen. As of yesterday, I am no longer a lawyer. I have 
lost my law license, amongst other things.
    Chairman Cummings. But you understand the gravity of this 
moment?
    Mr. Cohen. I most certainly do, Mr. Chairman.
    Chairman Cummings. I want you to really hear this, Mr. 
Cohen. We will not tolerate lying to this Congress by anybody. 
We're in search of the truth.
    Do you understand that?
    Mr. Cohen. I do.
    Chairman Cummings. The President has also made numerous 
statements that turned out to be inaccurate. For example, he 
said he knew nothing about the hush money payments to Ms. 
Clifford. And his 2017 financial disclosure form said he never 
owed money to reimburse you for those payments. Yet in your 
testimony, Mr. Cohen, you said that you met with the President 
in the Oval Office in February 2017 and discussed his plans to 
reimburse you for money you paid.
    You say he told you, and I quote, ``Don't worry, Michael. 
Your January and February reimbursement checks are coming.'' Is 
that accurate? And was that in the oval office?
    Mr. Cohen. The statement is accurate, but the discussions 
regarding the reimbursement occurred long before he became 
President.
    Chairman Cummings. Would you explain that?
    Mr. Cohen. Back in 2017 when--actually, I apologize. In 
2016, prior to the election, I was contacted by Keith Davidson, 
who is the attorney--or was the attorney for Ms. Clifford, or 
Stormy Daniels.
    And after several rounds of conversations with him about 
purchasing her life rights for $130,000, what I did, each and 
every time, is go straight into Mr. Trump's office and discuss 
the issue with him, when it was ultimately determined, and this 
was days before the election, that Mr. Trump was going to pay 
the $130,000, in the office with me was Allen Weisselberg, the 
chief financial officer of the Trump Organization. He 
acknowledged to Allen that he was going to pay the 130,000, and 
that Allen and I should go back to his office and figure out 
how to do it.
    So, yes, sir I stand by the statement that I gave, but 
there was a history to it.
    Chairman Cummings. In your testimony, you said you bought 
some checks; is that right?
    You said you brought some checks?
    Mr. Cohen. Yes, sir.
    Chairman Cummings. Let me ask you about one of these.
    This is from the Trump Trust that holds the President's 
businesses, can you tell me who signed this check?
    Mr. Cohen. I believe that the top signature is Donald 
Trump, Jr., and that the bottom signature, I believe, is Allen 
Weisselberg's.
    Chairman Cummings. And can you tell me the date of that 
check?
    Mr. Cohen. March 17 of 2017.
    Chairman Cummings. Now, wait, wait a minute. Hold up. The 
date on the check is after President Trump held his big press 
conference claiming that he gave up control of his businesses. 
How could the President have arranged for you to get this check 
if he was supposedly playing no role in his business?
    Mr. Cohen. Because the payments were designed to be paid 
over the course of 12 months, and it was declared to be a 
retainer for services that would be provided for the year of 
2017.
    Chairman Cummings. Was there a retainer agreement?
    Mr. Cohen. There was no retainer agreement.
    Chairman Cummings. Would Don Jr. or Mr. Weisselberg have 
more information about that?
    Mr. Cohen. Mr. Weisselberg for sure about the entire 
discussions and negotiations prior to the election, and Don Jr. 
would have cursory information.
    Chairman Cummings. Now here's another one. This one appears 
to be signed by Donald Trump himself. Is that his signature?
    Mr. Cohen. That is Donald Trump's signature.
    Chairman Cummings. So let me make sure I understand. Donald 
Trump wrote you a check out of his personal account while he 
was serving as President of the United States of America to 
reimburse you for hush money payments to Ms. Clifford. Is that 
what you are telling the American people today?
    Mr. Cohen. Yes, Mr. Chairman.
    Chairman Cummings. One final question. The President 
claimed he knew nothing about these payments. His ethics filing 
said he owed nothing to you. Based on your conversations with 
him is there any doubt in your mind that President Trump knew 
exactly what he was paying for?
    Mr. Cohen. There is no doubt in my mind, and I truly 
believe there is no doubt in the mind of the people of the 
United States of America.
    Chairman Cummings. And these new documents appear to 
corroborate what you just told us.
    With that, I will yield to the gentleman from Ohio.
    Mr. Jordan. I will make sure that you and I meet one day 
while we are in the courthouse, and I will take you for every 
penny you still don't have, and I will come after your Daily 
Beast and everybody else that you possibly know. So I am 
warning you, tread very f'ing lightly because what I am going 
to do to you is going to be f'ing disgusting. Do you understand 
me?
    Mr. Cohen, who said that.
    Mr. Cohen. I did.
    Mr. Jordan. And did you say that, Mr. Cohen--in your 
testimony on page 2 you said you did things for Mr. Trump in an 
effort to protect him. Was that Statement that I just read that 
you admitted to saying, did you do that to protect Donald 
Trump?
    Mr. Cohen. I did it to protect Mr. Trump, Donald Trump, 
Jr., Ivanka Trump, and Eric Trump.
    Mr. Jordan. And in your sentencing statement back in 
December in front of the judge you said this, Mr. Cohen: My 
weakness can be characterized as a blind loyalty to Donald 
Trump, a blind loyalty that led me to choose a path of 
darkness. Is that accurate, Mr. Cohen?
    Mr. Cohen. I wrote that.
    Mr. Jordan. You wrote that and said that in front of the 
judge. Is that right?
    Mr. Cohen. That's correct.
    Mr. Jordan. Let me read a few other things here, and let me 
ask you why you did some of these things.
    When you filed a false tax return in 2012, 2013, 2014, 
2015, and 2016, was all that out of blind loyalty to the 
President?
    Mr. Cohen. No, it was not.
    Mr.Jordan. When you failed to report $4 million in income 
to the Internal Revenue Service did you do that to protect 
Donald Trump?
    Mr. Cohen. No, I did not.
    Mr. Jordan. And when you failed to pay $1.4 million in 
taxes -- I got constituents who don't make that in a lifetime 
-- when you failed to pay $1.4 million in taxes to the U.S. 
Treasury was that out of some blind loyalty to the President of 
the United States?
    Mr. Cohen. It was not. But the number was 1.38 and change, 
and I have paid that money back to the IRS at this time.
    Mr. Jordan. I think the American people will appreciate 
that 1.38 versus 1.4.
    Mr. Cohen. And I would also just like to say it was over a 
course of five years, approximately $260,000 a year.
    Mr. Jordan. That's what I said, 2012, 2013, 2014, 2015, 
that's five years.
    Mr. Cohen. Yes.
    Mr. Jordan. Got it. When you made false statements to 
financial institutions concerning a home equity line of credit, 
taxi medallions, and your Park Avenue apartment in 2013, 2014, 
and 2015, you pled guilty to making those false statements to 
those banks, was that all done to protect the President?
    Mr. Cohen. No, it was not.
    Mr. Jordan. How about this one. When you created the fake 
Twitter account Women for Cohen and paid a firm to post tweets 
like this one, ``In a world of lies, deception, and fraud we 
appreciate this honest guy @MichaelCohen, #TGIF, #handsome, 
#sexy,'' was that done to protect the President?
    Mr. Cohen. Mr. Jordan, I didn't actually set that up. It 
was done by a young lady that worked for RedFinch. And during 
the course of the campaign, which you would know, it is 
somewhat crazy and wild. We were having fun. That's what it 
was, sir. We were having fun.
    Mr. Jordan. Was it done to protect the President?
    Mr. Cohen. That was not done to protect the President.
    Mr. Jordan. Was it a fake Twitter account?
    Mr. Cohen. That was--no, that was a real Twitter account. 
It exists.
    Mr. Jordan. Did you pay a firm to create this Twitter 
account Women for Cohen?
    Mr. Cohen. I didn't pay the firm to do that. It was done by 
a young lady that works for the firm. And, again, sir, we were 
having fun during a stressful time.
    Mr. Jordan. The point is, Mr. Cohen, did you lie to protect 
the President or did you lie to help yourself?
    Mr. Cohen. I'm not sure how that helped me, sir.
    Mr. Jordan. I'm not sure how it did either.
    Mr. Cohen. Right.
    Mr. Jordan. The point is I think----
    Mr. Cohen. And I would like to also note that more than 
half the people----
    Mr. Jordan. And here's the point----
    Mr. Cohen [continuing]. on that site are men.
    Mr. Jordan. Here's the point. The chairman just gave you a 
30-minute opening statement, and you have a history of lying 
over and over and over again.
    And, frankly, don't take my word for it, take what the 
court said, take what the Southern District of New York said: 
Cohen did crimes that were marked by a pattern of deception and 
that permeated his professional life. These crimes were 
distinct in their harms but bear a common set of circumstances. 
They each involved deception and were each, each motivated by 
personal greed and ambition.
    A pattern of deception for personal greed and ambition. And 
you just got 30 minutes of an opening statement where you 
trashed the President of the United States of America.
    Mr. Cohen, how long did you work for Donald Trump?
    Mr. Cohen. Approximately a decade.
    Mr. Jordan. Ten years?
    Mr. Cohen. That's correct.
    Mr. Jordan. And you said all these bad things about the 
President there in that last 30 minutes, and yet you worked for 
him for 10 years? All those bad things. I mean, if it is that 
bad I can see you working for him for 10 days, maybe 10 weeks, 
maybe even 10 months, but you worked for him for 10 years.
    Mr. Cohen, how long did you work in the White House?
    Mr. Cohen. I never worked in the White House.
    Mr. Jordan. And that's the point, isn't it, Mr. Cohen?
    Mr. Cohen. No, sir.
    Mr. Jordan. Yes, it is.
    Mr. Cohen. No, it is not, sir.
    Mr. Jordan. You wanted to work in the White House----
    Mr. Cohen. No, sir.
    Mr. Jordan [continuing]. and you didn't get brought to the 
dance. And now----
    Mr. Cohen. Sir, I was extremely proud to be personal 
attorney to the President of the United States of America. I 
did not want to go to the White House. I was offered jobs. I 
can tell you a story of Mr. Trump reaming out Reince Priebus 
because I had not taken a job where Mr. Trump wanted me to, 
which is working with Don McGahn at the White House General 
Counsel's Office.
    Mr. Jordan. Mr. Cohen, you worked for the President for----
    Mr. Cohen. Sir, one second. All right. What I said at the 
time, and I brought a lawyer in who produced a memo as to why I 
should not go in, because there would be no attorney-client 
privilege.
    Mr. Jordan. Mr. Cohen----
    Mr. Cohen. And in order to handle some of the matters that 
I talked about in my opening, that it would be best suited for 
me not to go in and that every President had a personal 
attorney.
    Mr. Jordan. Mr. Cohen, here's what I see, here's what I 
see. I see a guy who worked for 10 years and is here trashing 
the guy he worked for for 10 years, didn't get a job in the 
White House, and now--and now you are behaving just like 
everyone else who's got fired or didn't get the job they 
wanted, like Andy McCabe, like James Comey, same kind of 
selfish motivation after you don't get the thing you want. 
That's what I see here today, and I think that's what the 
American people see.
    Mr. Cohen. Mr. Jordan, all I wanted was what I got, to be 
personal attorney to the President, to enjoy the senior year of 
my son in high school and waiting for my daughter who is 
graduating from college to come back to New York. I got exactly 
what I want.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Jordan. Exactly what you want?
    Mr. Cohen. What I wanted. That's right.
    Mr. Jordan. You are going to prison.
    Mr. Cohen. I received exactly what I wanted.
    Chairman Cummings. The gentleman's time has expired.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Cohen, thank you for being here today.
    As you likely know, I served as the chair of the Democratic 
National Committee at the time of the Russian hacks and when 
Russia weaponized the messages that it had stolen.
    But I want to be clear my questions are not about the harm 
done to any individual by WikiLeaks and the Russians, it is 
about the possible and likely harm to the United States of 
America and our democracy. I have a series of questions that I 
hope will connect more of these dots.
    Mr. Cohen, is it your testimony that Mr. Trump had advance 
knowledge of the Russia-WikiLeaks release of the DNC's emails?
    Mr. Cohen. I can't -- I cannot answer that in a yes or no. 
He had advance notice that there was going to be a dump of 
emails, but at no time did I hear the specificity of what those 
emails were going to be.
    Ms. Wasserman Schultz. But you do testify today that he had 
advance knowledge of their imminent release.
    Mr. Cohen. That is what I had stated in my testimony.
    Ms. Wasserman Schultz. And that he shared that outcome?
    Mr. Cohen. Yes, ma'am.
    Ms. Wasserman Schultz. Did Mr. Trump likely share this 
information with his daughter Ivanka, son Don Jr., or Jared 
Kushner?
    Mr. Cohen. I'm not aware of that.
    Ms.  Wasserman Schultz. Was Ivanka, Jared, or Don Jr. still 
involved in the Russian Tower deal at that time?
    Mr. Cohen. The company was involved in the deal, which 
meant that the family was involved in the deal.
    Ms.  Wasserman Schultz. If Mr. Trump and his daughter 
Ivanka and son Donald Jr. are involved in the Russian Trump 
Tower deal, is it possible the whole family is conflicted or 
compromised with a foreign adversary in the months before the 
election?
    Mr. Cohen. Yes.
    Ms. Wasserman Schultz. Based on your experience with the 
President and knowledge of his relationship with Mr. Stone, do 
you have reason to believe that the President explicitly or 
implicitly authorized Mr. Stone to make contact with WikiLeaks 
and to indicate the campaign's interest in the strategic 
release of these illegally hacked materials?
    Mr. Cohen. I'm not aware of that.
    Ms. Wasserman Schultz. Was Mr. Stone a free agent reporting 
back to the President what he had done or was he an agent of 
the campaign acting on behalf of the President and with his 
apparent authority?
    Mr. Cohen. No, he was a free agent.
    Ms. Wasserman Schultz. A free agent that was reporting back 
to the President what he had done?
    Mr. Cohen. Correct. He frequently reached out to Mr. Trump, 
and Mr. Trump was very happy to take his calls. It was free 
service.
    Ms. Wasserman Schultz. Roger Stone says he never spoke with 
Mr. Trump about WikiLeaks. How can we corroborate what you are 
saying?
    Mr. Cohen. I don't know, but I suspect that the special 
counsel's office and other government agencies have the 
information that you are seeking.
    Ms. Wasserman Schultz. Moving on to a little later in 2016, 
a major WikiLeaks dump happens hours after the Access Hollywood 
tape is released. Do you believe or are you aware of Mr. Trump 
coordinating or signaling for this email dump?
    Mr.Cohen. I'm unaware of that. I actually was not even in 
the country at the time of the Billy Bush tape. I was in London 
visiting my daughter.
    Ms. Wasserman Schultz. Knowing how Mr. Trump operates with 
his winning at all costs mentality, do you believe that he 
would cooperate or collude with a foreign power to win the 
Presidency? Is he capable of that?
    Mr. Cohen. It calls on so much speculation, ma'am, it would 
be unfair for me to give an answer to that.
    Ms. Wasserman Schultz. I understand, but you have a 
tremendous amount of experience----
    Mr. Cohen. Mr. Trump, he is all about winning, and he will 
do what is necessary to win.
    Ms. Wasserman Schultz. And in your opinion and experience, 
would he have the potential to cooperate or collude with a 
foreign power to win the Presidency at all costs?
    Mr. Cohen. Yes.
    Ms. Wasserman Schultz. Based on what you know, would Mr. 
Trump or did he lie about colluding and coordinating with the 
Russians at any point during the campaign?
    Mr. Cohen. So as I stated in my testimony, I wouldn't use 
the word colluding. Was there something odd about the back and 
forth praise with President Putin? Yes. But I'm not really sure 
that I can answer that question in terms of collusion.
    I was not part of the campaign. I don't know the other 
conversations that Mr. Trump had with other individuals. 
There's just so many dots that all seem to lead to the same 
direction.
    Ms. Wasserman Schultz. Finally, before my time expires, Mr. 
Cohen, the campaign and the entire Trump Organization appeared 
to be filthy with Russian contacts. There are Russian business 
contacts, there are campaign Russian contacts, there are lies 
about all of those contacts. And then we have Roger Stone 
informing the President just before the Democratic National 
Convention that WikiLeaks was going to drop documents in the 
public arena that we knew at that point were hacked and stolen 
by Russia from the Democratic National Committee.
    Chairman Cummings. The gentlelady's time has expired. You 
may answer her inquiry quickly.
    Ms. Wasserman Schultz. My question is, given all those 
connections, is it likely that Donald Trump was fully aware and 
had every intent of working with Russia to help make sure that 
he could win the Presidency at all costs?
    Mr. Cohen. So let me say that this is a matter that's 
currently being handled by the House Select and the Senate 
Select Intelligence Committees, as I would rather not answer 
that specific question, other than just to tell you that Mr. 
Trump's desire to win would have him work with anyone.
    And one other thing that I had said in my statement is that 
when it came to the Trump Tower Moscow project, it was worth 
hundreds of millions of dollars, and we never expected to win 
the election. So this was just business as usual.
    Ms. Wasserman Schultz. Thank you, Mr. Cohen.
    Thank you, Mr. Chairman.
    Chairman Cummings. Mr. Green of Tennessee.
    Mr. Green. Thank you, Mr. Chairman, Ranking Member Jordan.
    The chairman and this committee have promised members of 
the American people a fair and open process, yet the Democrats 
have vastly limited the scope of this hearing. They issued a 
gag order to try to tell members of this committee what we can 
and cannot talk about.
    My colleagues on the other side of the aisle claim that 
they want the truth, that they want transparency and fair 
oversight, yet the Democrats' witness to testify before 
Congress today is none other than a scorned man who is going to 
prison for lying to Congress.
    Let that sink in. He is going to prison for lying to 
Congress, and he is the star witness to Congress.
    If you read the sentencing report on Mr. Cohen words like 
``deceptive'' and ``greedy'' are scattered throughout that 
report. It paints a picture of a narcissist, a bully who cannot 
tell the truth, whether it is about the President or about his 
own personal life. But today he is the majority party's star 
witness.
    If the Democrats were after the truth, they'd have an 
honest person here testifying. And if they were really after 
the truth, they'd not restrict the questioning to just a few 
topics. But let's take a look at those restricted topics.
    Mr. Chairman, the first topic in your limited scope that I 
can ask Mr. Cohen is about the President's debts. But, Mr. 
Chairman, didn't Mr. Cohen plead guilty to lying to banks about 
his personal finances? So we are asking a guy going to jail for 
lying about his debts to comment about the President's debts. 
He is the expert.
    Mr. Chairman, your next couple of topics say that I can ask 
Mr. Cohen about the President's compliance with financial 
disclosures and campaign finance laws. But didn't Mr. Cohen on 
two occasions break campaign finance law with his own 
donations? So again, the majority party's star witness on the 
President's compliance is a guy who broke compliance laws 
himself.
    Mr. Chairman, you graciously allow us to ask questions of 
Mr. Cohen on the President's dealings with the IRS and tax law. 
Your star witness here broke the law with regards to the IRS at 
least five times. He pled guilty on cheating on his taxes, 
lying to the IRS. He's the best witness you got?
    Next up, with the permission of the chairman I get to ask 
Mr. Cohen about his perspective on the President's business 
dealings. Let me get this straight. The witness lied to 
multiple financial institutions to get loans to pay off other 
loans just to keep himself afloat, and he is going to be the 
expert on business practices.
    Obviously, Mr. Chairman, the witness may produce documents 
that he suggests incriminates the President, yet he lies to 
banks. All of those lies were done on fraudulent documents, 
documents that he forged. Nothing he says or produces has any 
credibility. Apparently he even lied about delivering his own 
child, which his wife had to correct the record.
    Ladies and gentlemen, how on earth is this witness 
credible? With all the lies and deception, the self-serving 
fraud, it begs the question, what is the majority party doing 
here? No one can see this guy as credible. He will say whatever 
he wants to accomplish his own personal goals. He is a fake 
witness, and his presence here is a travesty. I hope the 
American people see through this. I know the people back in 
Tennessee will.
    And with that statement, sir, I have a few questions for 
the witness.
    With your loss of your law license--I think you mentioned 
in your opening statement that you had been disbarred--what is 
your source of income in the future?
    Mr. Cohen. I don't expect I'm going to have a source of 
income when I'm in Federal penitentiary.
    Mr. Green. Is there a book deal coming or anything like 
that?
    Mr. Cohen. I have no book deal right now in the process. I 
have been contacted by many, including for television, a movie. 
If you want to tell me who you would like to play you I'm more 
than happy to write the name down.
    Mr. Green. I'm sure there is a very attractive man.
    Mr. Cohen. I would also like to turn around and just to 
correct your statement on me. No individual----
    Mr. Green. Let me ask one other question, though. I only 
have a limited amount of time.
    Mr. Cohen. No individual----
    Mr. Green. One quick question. Who paid your expenses to be 
here today?
    Mr. Cohen. Who has paid my expenses?
    Mr. Green. To be here today.
    Mr. Cohen. I paid my expenses.
    Mr. Green. Mr. Chairman, I would like to yield the 
remaining of my time to the ranking member.
    Mr. Jordan. Mr. Cohen, how many times did you talk to the 
special counsel's office?
    Mr. Cohen. Seven.
    Mr. Jordan. Did they talk to you at all in preparation for 
today's hearing between the seven times you talked to them 
prior to your sentencing? Have you had any conversations with 
the special counsel's office between sentencing and today?
    Mr. Cohen. I'm sorry, sir. I don't understand your 
question.
    Mr. Jordan. You talked to them seven times, that's in the 
sentencing memorandums that were in front of the court back in 
December. What I'm asking is how many times you have talked to 
the special counsel's office since then up to today's 
appearance here in Congress?
    Chairman Cummings. The gentleman's time has expired. You 
may answer the question, though, that one question.
    Mr. Cohen. I'm sorry. I don't have the answer to that.
    Chairman Cummings. Ms. Maloney.
    Mr. Jordan. That wasn't--well, I will come back to that.
    Ms. Maloney. Thank you, Mr. Chairman.
    And, Mr. Cohen, in your 10 years of working for Donald 
Trump did he control everything that went on in the Trump 
Organization? And did you have to get his permission in advance 
and report back after every meeting of any importance.
    Mr. Cohen. Yes. There was nothing that happened at The 
Trump Organization, from whether it was a response, as the 
Daily Beast story that you referred to, Ranking Member, that 
did not go through Mr. Trump with his approval and sign-off, as 
in the case of the payments.
    Ms. Maloney. How many times did the President, Michael, ask 
you or direct you to try to reach settlements with women in 
2015 and 2016?
    Mr. Cohen. I'm sorry, ma'am, I don't have the answer to 
that. I'd have to go back and try to recollect. It's certainly 
the two that we know about.
    Ms. Maloney. And why do you think the President did not 
provide the accurate information in his 2017 financial 
disclosure form? What was he trying to hide? He corrected other 
forms, but he didn't correct this one.
    Mr. Cohen. The payments on the reimbursement of the funds 
that I extended on his behalf.
    Ms. Maloney. All right. Can you elaborate more?
    Mr. Cohen. Well, going back into the story as I stated, 
when we, Allen Weisselberg and I, left the office and we went 
to his office in order to make the determination on how the 
money was going to be wired to the IOLA, the interest on the 
lawyer's account for Keith Davidson in California, I had asked 
Allen to use his money, didn't want to use mine, and he said he 
couldn't, and we then decided how else we can do it.
    And he asked me whether or not I know anybody who wants to 
have a party at one of his clubs that could pay me instead or 
somebody who may have wanted to become a member of one of the 
golf clubs, and I also don't have anybody that was interested 
in that.
    And it got to the point where it was down to the wire, it 
was either somebody wire the funds and purchase the life rights 
to the story from Ms. Clifford or it was going to end up being 
sold to television, and that would have embarrassed the 
President and it would have interfered with the election.
    Ms. Maloney. But the President has never amended his 2017 
form to this day, and while you are facing the consequences of 
going to jail, he is not.
    Mr. Cohen. Well, I believe that they amended a financial 
disclosure form and there is a footnote somewhere buried. I 
don't recall specifically what it says, but there is a footnote 
buried somewhere.
    Ms. Maloney. Can you describe, Michael, to the American 
people, catch and kill?
    Mr. Cohen. So catch and kill is a method that exists when 
you are working with a news outlet -- in this specific case it 
was AMI, National Enquirer, David Pecker, Dylan Howard, and 
others -- where they would contact me or Mr. Trump or someone 
and state that there's a story that's percolating out there 
that you may be interested in. And then what you do is you 
contact that individual and you purchase the rights to that 
story from them.
    Ms. Maloney. And you practiced this for the President?
    Mr. Cohen. I was involved in several of these catch and 
kill episodes. But these catch and kill scenarios existed 
between David Pecker and Mr. Trump long before I started 
working for him in 2007.
    Ms. Maloney. Michael, can you suggest who else this 
committee should talk to for additional information on this or 
anything else?
    Mr. Cohen. Yes, I believe David Pecker, Dylan Howard, Barry 
Levine of AMI, as well, Allen Weisselberg, Alan Garten of Trump 
Organization, as well.
    Ms. Maloney. Well, thank you very much for your testimony.
    And, Mr. Chairman, this is a story of redemption.
    Mr. Cohen. Thank you, ma'am.
    Chairman Cummings. Mr. Comer.
    Mr. Comer. Mr. Cohen, in your testimony you stated that you 
began work for The Trump Organization as a lawyer dealing with 
real estate transactions. Is that correct?
    Mr. Cohen. That's correct.
    Mr. Comer. Prior to coming to Congress, I served as the 
director of two different banks, so I have seen hundreds of 
loan applications. And to try to determine your credibility 
here today I just wanted to ask you a couple of real estate 
transaction questions just to see how, in fact, you operate.
    According to the Southern District of New York prosecutors, 
you lied to banks to secure loans by falsely stating the amount 
of debt you were carrying. Mr. Cohen, my question to you, was 
it Donald Trump's fault that you knowingly committed a crime of 
deception to defraud a bank?
    Mr. Cohen. No, it's not.
    Mr. Comer. Was that fraudulent loan you obtained for The 
Trump Organization or for you personally?
    Mr. Cohen. It would be for me, though I'm not familiar with 
which loan that you are referring to.
    I would like to say one thing. Sir, I would like just to 
respond. The loan that you are talking about when we are 
talking about the home equity line of credit, which is what I 
believe you are referring to, no -- no individual----
    Mr. Comer. We are also referring to -- I'm going to ask a 
question pertaining to your summer home that you purchased.
    Mr. Cohen. I never purchased a summer home. No individual 
or no bank in the 22 years that I have had loans have ever lost 
a dollar with me. I owe no money to any bank.
    Mr. Comer. Well, the banks usually find out if someone is 
trying to deceive them.
    Did your so-called blind loyalty----
    Mr. Cohen. In 22 years I have no money that's ever been 
owed to any individual or any bank.
    Mr. Comer. Mr. Cohen, did your so-called blind loyalty to 
the President cause you to defraud the bank for your own 
personal gain?
    Mr. Cohen. Sir, I take exception to that because there's 
never been a fraud on a -- I never defrauded any bank.
    Mr. Comer. Well, let's dig a little deeper on that, on the 
bank fraud. According to the Southern District of New York, you 
failed to disclose more than $20 million in liabilities, as 
well as tens of thousands of dollars of monthly expenses. 
That's according to the Southern District of New York.
    Now, Mr. Cohen, you being lawyer, surely you knew you were 
breaking the law. Now, why would you have done that?
    Mr. Cohen. Sir, I'm not a CPA. And I pled guilty. I am 
going to prison as a result of it.
    Mr. Comer. Because you're a con?
    Mr. Cohen. No, sir, because I pled guilty, and I am going 
to be doing the time. I have caused tremendous, tremendous pain 
to my family, and I take no happiness----
    Mr. Comer. Let's go back to the -- one last question about 
the bank. When the bank found out about the liabilities that 
you failed to disclose you lied again to the bank -- this 
according to the Southern District of New York -- and said it 
had been expunged when, in fact, you just shifted the debt to 
another bank.
    So apparently, according to the information that we 
received, your intent to defraud the bank was for the desire to 
purchase the summer home for $8.5 million?
    Mr. Cohen. No, sir.
    Mr. Comer. That's not correct?
    Mr. Cohen. That would have been off of an equity line 
considering I had less than a 50 percent loan to value on the 
assets. And there was a preexisting line of credit that existed 
years before the date that you are referring to where--this is 
all surrounding New York City taxi medallions.
    Mr. Comer. But you understand that when you fail to 
disclose liabilities, especially $20 million in liabilities, 
that is, in fact, fraud?
    Mr. Cohen. Except even with the $20 million in liability--
--
    Mr. Comer. How much was it?
    Mr. Cohen. The medallions were at that time worth over $45 
million.
    Mr. Comer. Mr. Cohen, you called Donald Trump a cheat in 
your opening testimony. What would you call yourself?
    Mr. Cohen. A fool.
    Mr. Comer. You calling -- OK. Well, no comment on that.
    Mr. Cohen. I appreciate that.
    Mr. Comer. Mr. Chairman, we said we were in search of the 
truth. I don't believe that Michael Cohen is capable of telling 
the truth.
    And I would hope that as this committee moves forward that 
when we have the opportunity to subpoena witnesses we subpoena 
witnesses that are not recently disbarred, are not convicted 
felons, and witnesses that haven't committed bank fraud and tax 
fraud. That is how we're going to determine the truth.
    So, Mr. Chairman, I'll yield the balance of my time to the 
ranking member.
    Mr. Jordan. I thank the gentleman for yielding.
    I would just make one point. We just had a five-minute 
debate where Mr. Cohen disputes what the Southern District of 
New York found, what the judge found, that he was actually 
guilty of committing bank fraud.
    If this statement back here doesn't say it all: Cohen's 
consciousness of wrongdoing is fleeting. His remorse is 
minimal. His instinct to blame others is strong.
    There's only one thing wrong with that statement: His 
remorse is nonexistent. He just debated a Member of Congress 
saying: I really didn't do anything wrong with the false bank 
things that I'm guilty of and going to prison for.
    Mr. Cohen. Mr. Jordan, that's not what I said, and you know 
that that's not what I said.
    Mr. Meadows. Will the gentleman yield?
    Mr. Cohen. I said I pled guilty and I take responsibility 
for my actions.
    Chairman Cummings. The gentleman's time has expired. You 
may answer the question.
    Mr. Cohen. Shame on you, Mr. Jordan. That's not what I 
said. Shame on you.
    Mr. Meadows. Mr. Chairman?
    Mr. Cohen. That's not what I said. What I said is I took 
responsibility and I take responsibility. What I was doing is 
explaining to the gentleman that his facts are inaccurate.
    I still -- I take responsibility for my mistakes, all 
right? I am remorseful, and I am going to prison. I will be 
away from my wife and family for years. So before you turn 
around and you cast more aspersions----
    Mr. Jordan. We all feel for that. I understand that.
    Mr. Cohen [continuing]. please understand there are people 
watching you today that know me a whole lot better.
    I made mistakes. I own them. And I didn't fight with the 
Southern District of New York. I didn't put the system through 
an entire scenario. But what I did do is I pled guilty, and I 
am going to be, again, going to prison.
    Chairman Cummings. Ms. Norton.
    Ms. Norton. Mr. Cohen, at the center of the reasons you are 
going to prison is convictions for campaign finance violations, 
and they center around some salacious revelations.
    The Washington Post reported or aired an Access Hollywood 
video. It set a record for the number of people who watched, 
crashed the newspaper's server.
    But this happened in early October on the cusp of the 
election. What was Mr. Trump's reaction to the video becoming 
public at that time and was he concerned about the impact of 
that video on the election?
    Mr. Cohen. The answer is yes. As I stated before, I was in 
London at the time visiting my daughter, who is studying there 
for a Washington semester abroad, and I received a phone call 
during the dinner from Hope Hicks stating that she had just 
spoken to Mr. Trump and we need you to start making phone calls 
to the various different news outlets that you have 
relationships with, and we need to spin this. What we want to 
do is just to claim that this was men locker room talk.
    Ms. Norton. Was the concern about the election in 
particular?
    Mr. Cohen. The answer is yes.
    Then, couple that with Karen McDougal, which then came out 
around the same time. And then on top of that the Stormy 
Daniels matter.
    Ms. Norton. Yeah, and these things happened in the month 
before the election and almost one after the other. The Stormy 
Daniels revelation where prosecutors and officials--the 
prosecutors learned of that--of that matter and prosecutors 
stated that the officials at the magazine contacted you about 
the story. And the magazine, of course, is the National 
Enquirer. Is that correct, that they did come to you?
    Mr. Cohen. Yes, ma'am.
    Ms. Norton. Were you concerned about this news story 
becoming public right after the Access Hollywood study in terms 
of impact on the election?
    Mr. Cohen. I was concerned about it, but more importantly, 
Mr. Trump was concerned about it.
    Ms. Norton. That was my next question. What was the 
President's concern about these matters becoming public in 
October as we were about to go into an election?
    Mr. Cohen. I don't think anybody would dispute this belief 
that after the wildfire that encompassed the Billy Bush tape, 
that a second followup to it would have been pleasant. And he 
was concerned with the effect that it had had on the campaign, 
on how women were seeing him, and ultimately whether or not he 
would have a shot in the general election.
    Ms. Norton. And so you negotiated the $130,000 payment.
    Mr. Cohen. The $130,000 number was not a number that was 
actually negotiated. It was told to me by Keith Davidson that 
this is a number that Ms. Clifford wanted.
    Ms. Norton. Well, you finally completed that deal, as it 
were, on October the 25th.
    Mr. Cohen. Twenty-eighth.
    Ms. Norton. Days before the election. What happened in the 
interim?
    Mr. Cohen. Contemplated whether or not to do it. Wasn't 
sure if she was really going to go public. It was again some 
communications back and forth between myself and Keith 
Davidson.
    And ultimately it came to either do it or don't, at which 
time, again, I had gone into Mr. Trump's office, as I did after 
each and every conversation, and he had told me that he had 
spoken to a couple of friends, and it is 130,000, it is not a 
lot of money, and we should just do it, so go ahead and do it. 
And I was at the time with Allen Weisselberg, where he directed 
us to go back to Mr. Weisselberg's office and figure this all 
out.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Cummings. Mr. Meadows.
    Mr. Meadows. Mr. Cohen, do you know Lynne Patton? I'm right 
here.
    Mr. Cohen. Oh, yes, sir.
    Mr. Meadows. Do you know Lynne Patton?
    Mr. Cohen. Yes, I do.
    Mr. Meadows. I asked Lynne to come today in her personal 
capacity to actually shed some light.
    How long have you known Ms. Patton?
    Mr. Cohen. I'm responsible for Lynne Patton joining The 
Trump Organization and the job that she currently holds.
    Mr. Meadows. Well, that's -- I'm glad you acknowledged 
that, because you made some very demeaning comments about the 
President that Ms. Patton doesn't agree with. In fact, it has 
to do with your claim of racism. She says that as a daughter of 
a man born in Birmingham, Alabama, that there is no way that 
she would work for an individual who was racist.
    How do you reconcile the two of those?
    Mr. Cohen. As neither should I, as the son of a Holocaust 
survivor.
    Mr. Meadows. But, Mr. Cohen, I guess what I'm saying is, is 
I have talked to the President over 300 times. I have not heard 
one time a racist comment out of his mouth in private.
    So how do you reconcile it? Do you have proof of those 
conversations?
    Mr. Cohen. I would ask you to----
    Mr. Meadows. Do you have tape recordings of those 
conversations?
    Mr. Cohen. No, sir.
    Mr. Meadows. Well, you have taped everybody else, why 
wouldn't you have a tape of----
    Mr. Cohen. That's also not true, sir. That's not true.
    Mr. Meadows. You haven't taped anybody?
    Mr. Cohen. I have taped individuals.
    Mr. Meadows. How many times have you taped individuals?
    Mr. Cohen. Maybe 100 times over 10 years.
    Mr. Meadows. Is that a low estimate? Because I have heard 
it is over 200 times.
    Mr. Cohen. No, I don't think. I think it is approximately 
about 100, from what I recall. But I was asked--you asked me a 
question, sir, so here's----
    Mr. Meadows. Do you have proof? Do you have proof, yes or 
no?
    Mr. Cohen. I do. I do.
    Mr. Meadows. Where is the proof?
    Mr. Cohen. Ask Ms. Patton how many people who are Black are 
executives at The Trump Organization, and the answer is zero.
    Mr. Meadows. Mr. Cohen, we can go through this.
    I would ask unanimous consent that her entire statement be 
put in the record.
    Chairman Cummings. Without objection.

    [The information referred to follows:]
                      Statement from Lynne Patton

    As someone who considered Michael Cohen one of my very best friends 
for the past 10-plus years, virtually inseparable during our tenure at 
the Trump Organization (and even before) having personally introduced 
me to the Trump family, leading to my subsequent employment therein, 
and arguably, my current job, the only word that comes to mind this 
week is sad.
    I am sad that Michael has elected to leverage his own personal 
illegal activities into nothing more than political theater this week 
with the sole partisan purpose to embarrass a sitting President with 
unfounded personal or professional gossip .
    I am sad that Michael would turn his back on a man to whom he has 
repeatedly said he owes everything in the hope of a reduced prison 
sentence.
    Lastly, I'm sad for myself.
    Sad that I have wasted so much time and energy caring, supporting 
and loving a man I now realize I truly never knew.
    If Michael Cohen had anything of substance to offer against the 
President of the United States, Mueller would not have rejected his 
plea for leniency and Cohen would not be going to jail. Period.
    Above all, I am sad that Michael would, once again, on a world 
stage, levy unsubstantiated claims, particularly against a man who has 
single-handedly raised five of the most unbiased and open-minded 
children I've ever known. Four of whom I count among my very best 
friends, to date.
    I stated this in my viral video back in 2015 and I'll say it again: 
as the daughter of a man born in Birmingham, Alabama, there is no 
amount of money in the world that would make me work for a man who I 
thought harbored bigoted or racist ideologies. People who have known 
this man far less than I have have been offered over seven figures to 
write best-selling works of fiction, yet the thought has never crossed 
my mind. So I truly mean it when I say there is no amount of money in 
the world to make me either work for (nor sell out) this family. Zero.
    The bottom line is that, much like Omarosa Manigault Newman, it 
does not take someone 15 years to figure out someone is a racist. 
Unless of course, they're not one.

    Mr. Meadows. All right. Let me go on a little bit further.
    Did you collect $1.2 million or so from Novartis?
    Mr. Cohen. I did.
    Mr. Meadows. For access to the Trump administration?
    Mr. Cohen. No, sir.
    Mr. Meadows. Why did you collect it?
    Mr. Cohen. Because they came to me based upon my knowledge 
of the enigma Donald Trump, what he thinks----
    Mr. Meadows. So they paid----
    Mr. Cohen. Sir, please let me finish.
    Mr. Meadows. No. Did they pay you $1.2 million----
    Mr. Cohen. We've already said that.
    Mr. Meadows [continuing]. to give them advice?
    Mr. Cohen. Yes, they did. A multibillion-dollar 
conglomerate came to me looking for information, not something 
that's unusual here in D.C., looking for information, and they 
believed that I had a value.
    Mr. Meadows. So how many times did you meet with them?
    Mr. Cohen. And that the value was the insight that I was 
capable of offering them----
    Mr. Meadows. How many times----
    Mr. Cohen [continuing]. and they were willing to pay.
    Mr. Meadows. How many times did you meet with them? For 
$1.2 million, how many times did you meet with them?
    Mr. Cohen. I provided them with both in-person as well as 
telephone access whenever they needed.
    Mr. Meadows. How many times -- that's a question, Mr. 
Cohen.
    Mr. Cohen. I don't recall sir.
    Mr. Meadows. So did you ever talk to them?
    Mr. Cohen. I spoke to them on several occasions, yes
    Mr. Meadows. How many?
    Mr. Cohen. Six times.
    Mr. Meadows. Six times. Wow, $200,000 a call?
    Mr. Cohen. Sir, I also would like to bring to your 
attention----
    Mr. Meadows. Hold on. This is my five minutes, Mr. Cohen, 
not yours.
    Did you get money from the Bank of Kazakhstan.
    Mr. Cohen. It's not a Bank of Kazakhstan, it's called BTA.
    Mr. Meadows. BTA Bank. Kazakhstan, BTA bank, did you get 
money from them?
    Mr. Cohen. I did.
    Mr. Meadows. For what purpose?
    Mr. Cohen. The purpose was because the former CEO of that 
bank had absconded with over--between $4 to $6 billion. And 
some of that money was here in the United States, and they 
sought my assistance in terms of finding, locating that money, 
and helping them to recollect it.
    Mr. Meadows. So are you saying that all the reports that 
you were paid in some estimates over $4 million to have access 
and understanding of the Trump administration, you are saying 
that all of that was just paid to you just because you're a 
nice guy?
    Mr. Cohen. I am a nice guy, but more importantly----
    Mr. Meadows. Well, I would beg to differ. The record 
reflects that you are not a nice guy.
    Mr. Cohen. Sir, each and every contract contained the 
clause, in my contracts, that said I will not lobby, and I do 
not do government relations work. In fact, in fact, Novartis 
sent me their contract, which stated specifically that they 
wanted me to lobby, that they wanted me to provide access to 
government, including the President.
    That information, that paragraph was crossed out by me, 
initialed, and written in my own handwriting that says I will 
not lobby or do government relations work.
    Mr. Meadows. So Novartis representatives say that it was 
like they were hiring a nonregistered lobbyist. So you disagree 
with that?
    Mr. Cohen. I don't know what they said, sir, but the 
contract speaks for itself.
    Mr. Meadows. Have you contacted anybody in the 
administration?
    Mr. Cohen. Yes.
    Mr. Meadows. To advocate on behalf of any aspect of any of 
your contracts?
    Chairman Cummings. The gentleman's time has expired.
    Mr. Meadows. I ask unanimous consent, Mr. Chairman, I ask 
unanimous consent----
    Chairman Cummings. The gentleman's time has expired. You 
may answer the question.
    Mr. Cohen. I don't know what you are referring to, sir.
    Mr. Meadows. Mr. Chairman----
    Chairman Cummings. Mr. Clay.
    Mr. Meadows. Mr. Chairman----
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Cohen, I'm pleased you agreed to testify today 
voluntarily.
    In my view, we are all here for just one reason, and that's 
the American people are tired of being lied to. They have been 
lied to by President Trump. They have been lied to by the 
President's children. They have been lied to by the President's 
legal representatives. And it pains me to say that they have 
been even lied to by his congressional enablers who are still 
devoted to perpetuating and protecting this giant con game on 
the American people.
    Now, Mr. Cohen, I would like to talk to you about the 
President's assets, since by law these must be reported 
accurately on his Federal financial disclosure and when he 
submits them for a bank loan.
    Mr. Cohen, you served for nearly a decade as then 
businessman Trump's personal attorney and so-called fixer. Did 
you also have an understanding of the President's assets and 
how he valued those items?
    Mr. Cohen. Yes.
    Mr. Clay. In November 2017 Crain's New York Business 
reported that The Trump Organization provided, quote, 
flagrantly untrue revenue figures going back to at least 2010 
to influence Crane's ranking of the largest private companies 
in New York. According to the reports, while The Trump 
Organization reported nearly $9.5 billion in revenues in 2016, 
public filings suggested revenues were actually less than one-
tenth of that.
    To your knowledge, did the President or his company ever 
inflate assets or revenues?
    Mr. Cohen. Yes.
    Mr. Clay. And was that done with the President's knowledge 
or direction?
    Mr. Cohen. Everything was done with the knowledge and at 
the direction of Mr. Trump.
    Mr. Clay. Tell us why he would do that and what purpose did 
it serve.
    Mr. Cohen. It depends upon the situation. There were times 
that I was asked, again with Allen Weisselberg, the CFO, to go 
back and to speak with an individual from Forbes, because Mr. 
Trump wanted each year to have his net worth rise on the Forbes 
wealthiest individuals list.
    And so, what you do is you look at the assets and you try 
to finds an asset that has, say, for example, 40 Wall Street, 
which is about 1.2 million square feet, find an asset that is 
comparable, find the highest price per square foot that's 
achieved in the area, and apply it to that building.
    Or, if you are going off of your rent roll, you go by the 
gross rent roll times a multiple and you make up the multiple, 
which is something that he had talked about, and it is based 
upon what he wanted to value the asset at.
    Mr. Clay. You know, you have provided this committee with 
copies of the President's financial statements or parts of them 
from 2011, 2012, and '13.
    And, Mr. Chairman, I would like to submit those for the 
record. Mr. Chairman, I would like to submit the statements to 
the record.
    Chairman Cummings. Without objection, so ordered.[Cohen 
exhibits are available at: https://oversight.house.gov/sites/
democrats.oversight.house.gov/files/
Michael%20Cohen.02.27.2019.Exhibits.pdf.]
    Mr. Clay. Thank you.
    Can you explain why you had these financial statements and 
what you used them for?
    Mr. Cohen. So these financial statements were used by me 
for two purposes. One was discussing with media, whether it was 
Forbes or other magazines, to demonstrate Mr. Trump's 
significant net worth. That was one function.
    Another was when we were dealing later on with insurance 
companies we would provide them with these copies so that they 
would understand that the premium, which is based sometimes on 
the individual's capabilities to pay, would be reduced.
    Mr. Clay. And all of this was done at the President's 
direction and with his knowledge?
    Mr. Cohen. Yes, because whatever the numbers would come 
back to be we would immediately report it back.
    Mr. Clay. And did this information provided to us inflate 
the President's assets?
    Mr. Cohen. I believe these numbers are inflated.
    Mr. Clay. And, of course, inviting--inflating assets to win 
a newspaper poll to boost your ego is not a crime. But to your 
knowledge, did the President ever provide inflated assets to a 
bank in order to help him obtain a loan?
    Chairman Cummings. The gentleman's time has expired, but 
you may answer that question.
    Mr. Cohen. These documents and others were provided to 
Deutsche Bank on one occasion where I was with them in our 
attempt to obtain money so that we can put a bid on the Buffalo 
Bills.
    Mr. Clay. Thank you for your answers.
    Chairman Cummings. Mr. Hice of Georgia.
    Mr. Hice. I would like to yield a second to the gentleman 
from North Carolina.
    Mr. Meadows. I thank the gentleman for yielding.
    I want to ask unanimous consent to put into the record an 
article from Stat, which indicates that Mr. Cohen's promise to 
access not just Trump, but also the circle around him, it was 
almost as if we were hiring a lobbyist, close quote. I ask 
unanimous consent.
    Chairman Cummings. Without objection.

    [The Stat article is available at: https://
www.statnews.com/pharmalot/2018/05/08/novartis-paid-400000-
trump-attorney/]

    Mr. Meadows. I ask unanimous consent that we put into the 
record a criminal referral for violating Section 22 U.S.C. of 
the statute number 611. I ask unanimous consent that my letter 
referring Mr. Cohen for violating FARA for illegal lobbying 
activity be entered into the record.
    Chairman Cummings. Without objection, so ordered.
MEMORANDUM

From:        Mark Meadows, Ranking Member, Subcommittee on
              Government Operations, House Oversight and
              Reform Committee

To:           The Honorable William P. Barr, Attorney General to
              the United States

RE:          Referral of Michael Cohen for Potential
              Violation of 22 U.S.C. 611 et seq.
_______________________________________________________________________
    As you know, Michael Cohen acted as the personal attorney for 
President Donald J. Trump from 2007 to April 2018. Shortly before the 
2016 election, Mr. Cohen created a limited liability company Essential 
Consultants, LLC, naming himself CEO.

    Evidence reviewed by our Committee strongly suggests Mr. Cohen made 
specific solicitations to foreign companies with business interests 
pending before the Trump administration, promising access to the 
Administration. Documents and information reviewed by our Committee 
also raises concerns Mr. Cohen's foreign clients expected official 
favors in return for enlisting him and Essential Consultants' services.

    Specifically, Cohen solicited Novartis, a pharmaceutical company 
from Switzerland, with policy objectives pending before the Federal 
Drug Administration, among other agencies. Novartis reportedly paid Mr. 
Cohen $1.2 million for promised access to the White House on health 
care policy. \1\
---------------------------------------------------------------------------
    \1\  MJ Lee et al., Inside Michael Cohen's Aggressive Pitch 
Promising Access to Trump, CNN (May 10, 2018), https://www.cnn.com/
2018/05/09/politics/michael-cohen-trump-lobbying/index.html.

    Kazakhstan's BTA Bank paid Mr. Cohen an undisclosed sum under a 
---------------------------------------------------------------------------
consulting agreement with Essential Consultants, LLC. \2\

    \2\  See, e.g., Christopher Brennan, Trump Associate Received More 
than $21M in Kazakh Oligarchs' Alleged Money laundering Scheme, NY 
DAILY NEWS (Apr. 25, 2018), https://www.nydailynews,com/news/national/
trump-associate-received-21m-alleged-oligarth-scheme-article-1.3953189; 
Adam Davidson, Trump's Business of Corruption, NEW YORKER (Aug. 21, 
2017), https://www.newyorker.com/magazine/2017/08/21/trumps-business-
of-corruption.

    Similarly, Korean Aerospace Industries, a South Korean defense 
company, hired Mr. Cohen as it negotiated an Air Force contract valued 
---------------------------------------------------------------------------
at $16 billion. \3\

    \3\  Amanda Macias, South Korean Defense Company That Paid Trump 
Lawyer Cohen $150,000 is poised to Win Part of a $16 Billion Pentagon 
Deal,CNBC (May 9,2018), https://www.cnbc.com/2018/05/09/south-korean-
firm-that-paid-trump-lawyer-cohen-poised-to-win-pentagon-deal.html.

    As you know, the Foreign Agents Registration Act of 1938 (FARA) 
prohibits individuals from acting as an agent of a foreign principal 
without first registering with the Department of Justice. The financial 
support Mr. Cohen enjoyed from his aforementioned business dealings 
with Swiss, Kazakh, and South Korean companies in exchange for his 
engagement in political activities before the Trump Administration 
---------------------------------------------------------------------------
raise concerns he is in violation of FARA.

    Mr. Cohen's touting access to President Trump and the 
Administration with offers to influence matters that affect the 
business of companies like Novartis, BTA Bank, and Korean Aerospace 
Industries crosses into lobbying. Ultimately, Mr. Cohen appears to have 
been acting as an agent of several foreign principals and represented 
their interests before federal officials. Mr. Cohen actively solicited 
clients based on his proximity to the President and other members of 
the Administration, he received lucrative contracts from foreign 
clients with business pending before the Administration, and he 
provided significant, yet unspecified and vague services for these 
clients in exchange for his services.

    Accordingly, I am referring Michael Cohen to the Department of 
Justice for investigation of potential violation(s) of 22 U.S.C. 611 
et seq.
    Mr. Meadows. I ask unanimous consent that the first order 
of business for this committee is for us to look in a 
bipartisan way at criminal referrals at the next business 
meeting.
    Chairman Cummings. These are not documents, they're 
objections. They're objections.
    Mr. Meadows. So we're objecting to a unanimous consent 
request? Is that what, Mr. Chairman?
    I will yield back.
    Chairman Cummings. All right. Now, let me be clear. Mr. 
Hice, I'm going to give you your whole five minutes, all right?
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Cummings. In fairness to you.
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Cummings. Mr. Meadows, the chairman made me--the 
ranking member made me aware that I had given a little more 
time to Ms. Wasserman Schultz. I was going to let you do that 
anyway. But I just want the committee to know that because 
there's so many members I'm going to be strict on this five 
minutes, all right? All right.
    Thank you very much.
    Mr. Hice, you have five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Cohen, you claim that you've lied but you're not a 
liar. Just to set the record straight, if you lied you are a 
liar by definition.
    You also said a moment ago that the facts are inaccurate. 
If they are facts they are accurate, and that would make you 
inaccurate.
    But I would like take a moment to--I would like know who 
you consulted with to prepare for today's hearing, Lanny Davis 
and who else?
    Mr. Cohen. I consulted with my counsel Lanny Davis, as well 
as Michael Monaco.
    Mr. Hice. All right. Did you or Michael or Lanny Davis or 
anyone else cooperate with the Democrat majority to prepare for 
this hearing?
    Mr. Cohen. I'm sorry, say that again, please.
    Mr. Hice. Did you or anyone else on your team cooperate 
with the Democrat Party in preparing for this hearing?
    Mr. Cohen. We've spoken to the party.
    Mr. Hice. OK. Did you prepare with Chairman Cummings or 
anyone on your team?
    Mr. Cohen. I'm sorry, what do you mean by prepare?
    Mr. Hice. Prepare for this hearing.
    Mr. Cohen. Prepare? I prepared with my counsel.
    Mr. Hice. Did you prepare with the Democrat majority or 
Chairman Cummings?
    Mr. Cohen. We spoke with Chairman Cummings and the party.
    Mr. Hice. With Chairman Schiff?
    Mr. Cohen. I spoke with Chairman Schiff and his people, as 
well.
    Mr. Hice. Were there any other individuals acting as a 
liaise for you with the majority party?
    Mr. Cohen. I'm sorry, sir, what are you saying?
    Mr. Hice. Did you have a liaison other than that you have 
mentioned who were working with the majority to prepare for 
this hearing?
    Mr. Cohen. We spoke with the various individuals that you 
just raised, yes.
    Mr. Hice. Tom Steyer, regarding him or any of his 
representatives, anyone associated with him, is he or any of 
them paying Lanny Davis to represent you?
    Mr. Cohen. Not that I'm aware of.
    Mr. Hice. Who is paying Lanny Davis?
    Mr. Cohen. At the present moment no one.
    Mr. Hice. So he is doing all this work for nothing?
    Mr. Cohen. Yes, sir.
    Mr. Hice. OK.
    Mr. Cohen. I hope so.
    Mr. Hice. I kind of doubt it.
    How did Lanny Davis come to represent you? Did he approach 
you or did you approach him?
    Mr. Cohen. I reached out to Lanny Davis at the 
recommendation of my former counsel over at McDermott Will & 
Emery, who knew Mr. Davis, and Mr. Davis----
    Mr. Hice. So you reached out to Mr. Davis?
    Mr. Cohen. I did, yes, initially.
    Mr. Hice. OK. So did you want to testify before Congress or 
did he urge you to testify here?
    Mr. Cohen. I was asked to come here. I am here, sir, 
voluntarily because it's my decision.
    Mr. Hice. You were asked by who? My question is, did he ask 
you to come here?
    Mr. Cohen. No, sir.
    Mr. Hice. OK. Because he says that he did ask you to come 
here and that he convinced you and also that he did the same 
with Chairman Cummings, as well.
    So your testimony here is that you approached Lanny Davis 
to represent you and to come here, he did not persuade you to 
come here.
    Mr. Cohen. He did not persuade me. Actually, Chairman 
Cummings, which is part of the conversations that we engaged in 
with his people, as well as Chairman Schiff and others, we 
spoke in order to ask me to come here voluntarily.
    Mr. Hice. I find the connecting of the dots here with Mr. 
Davis and you and, frankly, the chairman, and perhaps others to 
be rather stunning, that there is an agenda for all this 
happening here today. And I believe, frankly, that that's to 
bring the President down, to impugn the President.
    You made an oath last time you were here, and that oath 
meant nothing to you then. We had an oath here in this very 
room about a month ago and it was, quote, ``Be clear that I 
will seek the truth, nothing but the truth, so help me God,'' 
end quote.
    That sounds like an oath to me. The chairman made that 
statement in this very room last month, but here we are today, 
our first big hearing, with, as you and we all know, a 
convicted liar, lying to Congress, a criminal.
    And I believe this witness is totally incompatible with the 
stated goal of having to seek the truth in this hearing. This 
is the first time in the history of Congress we have someone 
testifying here who has already been convicted of lying to 
Congress. So congratulations for being the first in Congress to 
do that, and Mr. Cummings, as well.
    Mr. Cohen. Thank you.
    Mr. Hice. I can't believe we have brought this committee to 
its knees in terms of losing its credibility, and it is a 
shameful mockery of what our purpose is.
    I yield back.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Let me just pick up on those last comments. Want to talk 
about a low point? How about Mr. Papadopoulos pled guilty? Mr. 
Manafort convicted, pled guilty to two other charges? Mr. Gates 
pled guilty? Mr. Flynn pled guilty? Mr. Pinedo pled guilty? Mr. 
van der Zwann pled guilty? Mr. Kilimnik indicted for 
obstruction of justice?
    And for two years, you want to talk about an agenda, my 
friends on the other side of the aisle refused to bring of any 
of these people up before the committee. So today, for the 
first day, we have one witness who voluntarily is coming 
forward to testify. Your side ran away from the truth and we 
are trying to bring it to the American people.
    So, Mr. Cohen, first of all, thank you for voluntarily 
coming before the committee to testify. I want to ask you about 
your statements regarding Trump Tower and Moscow, and I want to 
drill down some of the facts and details.
    Now, you may not be aware of it, but this goes back a way. 
Back in 1987 Mr. Trump wrote that he had had ongoing 
discussions with Soviet officials back then to build a luxury--
a large luxury hotel across from the Kremlin in partnership 
with the Soviet Union. So at that time it was the Soviet Union.
    I want to ask you, in your filing with the Special Counsel 
Mueller's office, the prosecutors wrote, and I quote, ``Mr. 
Cohen discussed the status and progress of the Moscow project 
with Individual 1 on more than the three occasions Mr. Cohen 
claimed to the committee and he briefed family members of 
Individual 1 with the company about the project.''
    I know this is redundant, but, Mr. Cohen, who are we 
referring to here when we refer to Individual 1.
    Mr. Cohen. Donald J. Trump.
    Mr. Lynch. OK. And the company?
    Mr. Cohen. The Trump Organization through a subsidiary.
    Mr. Lynch. OK. And who were the family members that you 
briefed on the Trump Tower Moscow project?
    Mr. Cohen. Don Trump, Jr., and Ivanka Trump.
    Mr. Lynch. OK. Now, were these in the regular course of 
business or did the President or family request the briefings?
    Mr. Cohen. This is the regular course of business.
    Mr. Lynch. Do you recall -- there's a question on the 
number of briefings. Do you recall how many there might have 
been?
    Mr. Cohen. I'm sorry, sir?
    Mr. Lynch. Do you recall how many of these briefings there 
might have been?
    Mr. Cohen. Approximately 10.
    Mr. Lynch. OK.
    Mr. Cohen. In total.
    Mr. Lynch. All right. In your written remarks you also 
wrote, and I quote, ``There were at least a half dozen times 
between the Iowa Caucus in January 2016 and the end of June 
when Mr. Trump would ask me, 'How's it going in Russia,' 
referring to the Russia Moscow Tower project.''
    How did the President communicate those questions to you? 
Was it verbally or over the phone?
    Mr. Cohen. Verbally most of the time or virtually all of 
the time. He would say to me, ``Michael, come walk with me.'' 
He was heading to let's say a rally or to a car, and as I would 
walk him to the elevator he would ask me questions quickly 
regarding a series of issues.
    Mr. Lynch. Could there be any doubt what he was referring 
to in terms of the project in Russia?
    Mr. Cohen. No, this would be it.
    Mr. Lynch. OK.
    Mr. Cohen. Otherwise there would have been no reason to ask 
it of me.
    Mr. Lynch. Right, right.
    You also wrote, and I quote, ``To be clear, Mr. Trump knew 
of and directed the Trump Moscow negotiations throughout the 
campaign and lied about it,'' close quote.
    How did the President actually direct the negotiations?
    Mr. Cohen. After each----
    Mr. Lynch. What details did he direct?
    Mr. Cohen. Well, after each communication that I had I 
would report back to him, and our goal was to get this project. 
We were interested in building what would have been the largest 
building in all of Europe.
    Sir, just if I can say one last thing in regard to----
    Mr. Lynch. Please go ahead.
    Mr. Cohen [continuing]. the gentleman's statement and since 
this is on topic.
    The lies that I told to Congress, in fairness, benefited 
Mr. Trump. It was in furtherance of my protection of Mr. Trump, 
which I stated in my testimony. And I am not protecting Mr. 
Trump anymore.
    And so, while I truly appreciate taking some of your time 
onto it, to attack me every single time about taxes, I have no 
credibility, it is for exactly that reason that I spent the 
last week searching boxes in order to find the information that 
I did so that you don't have to take my word for it. I don't 
want you to. I want you to look at the documents, and I want 
you to make your own decision.
    Mr. Lynch. Mr. Cohen, I need my last----
    Mr. Cohen. Sorry, sir.
    Mr. Lynch. That's OK. Let me just say, I don't think my 
colleagues on the other side of the aisle are afraid that 
you're going to lie. I think they're afraid you're going to 
tell truth.
    Mr. Cohen. Thank you, sir.
    Mr. Lynch. I yield back the balance of my time.
    Chairman Cummings. Thank you very much.
    Mr. Gosar.
    Mr. Gosar. The gentleman from Ohio is recognized.
    Mr. Jordan. I appreciate the gentleman for yielding.
    I just want to respond to Mr. Lynch. I want you to think 
about this. When have you ever seen a Federal agency where this 
has happened? James Comey, Director, fired. Andy McCabe, Deputy 
Director, fired, lied three times under oath, under 
investigation right as we speak. Jim Baker, FBI Counsel, 
demoted, then left, currently under investigation by the U.S. 
Attorney's Office in Connecticut. Lisa Page, demoted, then 
left. Peter Strzok, deputy head of counterintelligence, 
demoted, then fired.That's what happened. That's what we're 
concerned about. And today, we actually asked for Rod 
Rosenstein, oh, by the way, we now know--three people have told 
us, Rod Rosenstein actually was contemplating using the 25th 
Amendment to remove the guy from Presidency who the American 
people put there. And we asked for him to be a witness today 
and the chairman said no. And instead, we get 30 minutes from a 
guy who is going to prison, going to prison, in two months for 
lying to Congress.
    Mr. Cohen, I got two quick questions before I yield back to 
my colleague. Mr. Hice asked you who all you talked to. You 
said you've talked to--you spoke to Mr. Schiff. Obviously, you 
spoke to Mr. Cummings. You've gone in front of both committees. 
You're here today. You're going to be in front of Mr. Schiff's 
committee tomorrow. Have you spoken to Chairman Nadler or 
anyone on his staff, or have any of your attorneys spoken to 
Chairman Nadler?
    Mr. Cohen. I don't know about my attorneys. I have not 
spoken to----
    Mr. Jordan. You don't know if your attorney spoke----
    Mr. Cohen [continuing]. Congressman--I have not spoken to 
Congressman Nadler.
    Mr. Jordan. Do you think your----
    Mr. Cohen. And I'm not aware -- sir, I'm not aware if my 
attorneys -- I can ask them.
    Mr. Jordan. Can you turn around and ask?
    Voice. No.
    Mr. Cohen. The answer, sir, is no.
    Mr. Jordan. OK. And you said, at this present time, Mr. 
Davis is not getting paid. Does that--are you anticipating him 
receiving some kind of compensation in the future?
    Mr. Cohen. When I start to earn a living?
    Mr. Jordan. Are you going to wait three years? Wow.
    Mr. Cohen. The answer is yes.
    Mr. Jordan. That's a first. I've never known a lawyer wait 
3 years to get paid.
    Mr. Cohen. I guess he thinks it's important.
    Mr. Jordan. All right. With that, I yield to the gentleman 
from Arizona.
    Mr. Gosar. Well, thank you.
    Mr. Cohen, you're a disgraced lawyer. I mean, you've been 
disbarred. And so, I'm sure you remember -- well, maybe you 
don't remember -- duty of loyalty, duty of confidentiality, 
attorney/client privilege. I think the gentleman over your 
right side actually understands that very, very well and 
wouldn't do what you are doing here today.
    So let's go back at this credibility. You want us to make 
sure that we think of you as a real philanthropic icon, that 
you're about justice, that you're the person that somebody 
would call at 3 in the morning. No, they wouldn't. Not at all. 
You saw Mr. Comer dissect you. Right in front of this 
committee, you conflicted your testimony, sir. You're a 
pathological liar. You don't know truth from falsehood.
    Mr. Cohen. Sir, are you referring to me or the President?
    Mr. Gosar. Hey, hey, this is my time.
    Mr. Cohen. Are you referring to me, sir, or the President?
    Mr. Gosar. When I ask you a question, I'll ask for an 
answer.
    Mr. Cohen. Sure.
    Mr. Gosar. Now, are you familiar with Rule 35 of the 
Federal Rules in Criminal Procedures?
    Mr. Cohen. I am now.
    Mr. Gosar. Oh. So the committee understands that you've 
been in contact with the Southern District of New York. Is that 
true?
    Mr. Cohen. I am in constant contact with the Southern 
District of New York regarding ongoing investigations.
    Mr. Gosar. And part of that application is to reduce 
sentencing time, is it not? Yes.
    Mr. Cohen. There is a possibility----
    Mr. Gosar. Yes. The answer is yes.
    Mr. Cohen. No, it's not, sir.
    Mr. Gosar. Yes, it is.
    Mr. Cohen. OK.
    Mr. Gosar. It is.
    Mr. Cohen. It's not.
    Mr. Gosar. And so testimony here could actually help you 
out in getting your sentence lessened, isn't that true?
    Mr. Cohen. I'm not really sure how my appearance here today 
is providing substantial information that the Southern District 
can use for the creation of a case. Now, if there is something 
that this group can do for me, I would gladly welcome it.
    Mr. Gosar. Well, I got to tell you, you know, America's 
watching you. I've been getting texts right and left, saying, 
How can anybody listen to this pathological person? He's got a 
problem. He doesn't know fact from fiction. And that's what's 
sad here, is that, you didn't do this for Donald Trump, to 
protect Donald Trump. You did it for you. This is -- no, this 
is all about you. This is all about this Twitter feed----
    Mr. Cohen. Sure.
    Mr. Gosar [continuing]. and -- no, let me read one of those 
-- another one. Women who love and support Michael Cohen, 
strong, pit bull, sex symbol, no nonsense, business-oriented 
and ready to make a difference----
    Mr. Cohen. 1,000 followers.
    Mr. Gosar [continuing]. ready to make a difference against 
the law. That's pretty sad. You know, over and over again, you 
know, we wanted to have trust. It's built on the premise that 
we're truthful, that we come forward. But there's no truth with 
you whatsoever. That's why I -- that's important to you, to 
look up here and look at the old adage that our moms taught us 
-- liar, liar, pants on fire.
    No one should ever listen to you and give you credibility. 
It's sad. It's sad that we have come -- and in fact, I want to 
quote the chairman's very words. This is a real -- hold on----
    Chairman Cummings. The gentleman's time is expired.
    Mr. Gosar [continuing]. sad state.
    Chairman Cummings. The gentleman's time is expired. Who's 
next? Mr. Cooper.
    Mr. Cooper. Mr. Cohen, several times in your testimony, you 
state the bad things that you did for Mr. Trump, and at some 
point, you apparently changed your course of action. There's a 
recurring refrain in your testimony that says, and yet, I 
continued to work for him. But at some point, you changed. What 
was the breaking point at which you decided to start telling 
the truth?
    Mr. Cohen. There's several factors. Helsinki, 
Charlottesville, watching the daily destruction of our civility 
to one another. Putting up silly things like this, really 
unbecoming of Congress. It's that sort of behavior that I'm 
responsible for. I'm responsible for your silliness, because I 
did the same thing that you're doing now, for 10 years. I 
protected Mr. Trump for 10 years, and the fact that you pull up 
a news article that has no value to it, and you want to use 
that as the premise for discrediting me, that I'm not the 
person that people called at 3 in the morning, would make you 
inaccurate. In actuality, it would make you a liar, which puts 
you into the same position that I am in.
    And I can only warn people, the more people that follow Mr. 
Trump, as I did blindly, are going to suffer the same 
consequences that I'm suffering.
    Mr. Cooper. What warning would you give young people who 
are tempted, as you were, would you encourage them not to wait 
10 years to see the light? What advice would you give young 
people, in particular, young lawyers, so they do not abuse 
their bar license as you did?
    Mr. Cohen. Look at what's happened to me. I had a wonderful 
life. I have a beautiful wife. I have two amazing children. And 
I achieved financial success by the age of 39. I didn't go to 
work for Mr. Trump because I had to. I went to work for him 
because I wanted to. And I've lost it all.
    So if I'm not picture perfect--that's the picture that 
should be up there. If I'm not a picture-perfect example of 
what not to do, that's the example that I'm trying to set for 
my children. We make mistakes in life, and I've owned them, and 
I've taken responsibility for them. And I'm paying a huge 
price, as is my family. So if that, in and of itself, isn't 
enough to dissuade somebody from acting in the callous manner 
that I did, I'm not sure that that person has any--any chance, 
very much like I'm in right now.
    Mr. Cooper. A recurring theme in your testimony is concern 
for your family's safety. What specifically are you most 
concerned about?
    Mr. Cohen. Well, the President, unlike my ``Cohen for 
Trump'' that has a thousand followers, he's got over 60 million 
people. And when Mr. Trump turned around early in the campaign 
and said, I can shoot somebody on Fifth Avenue and get away 
with it -- I want to be very clear -- he's not joking. He's 
telling you the truth. You don't know him. I do. I sat next to 
this man for 10 years, and I watched his back. I'm the one who 
started the campaign. And I'm the one who continued in 2015 to 
promote him.
    So many things I thought that he can do that are just 
great, and he can and he is doing things that are great. But 
this destruction of our civility to one another is -- it's out 
of control. And when he goes on Twitter, and he starts bringing 
in my in-laws, my parents, my wife, what does he think is going 
to happen? He's causing--he's sending out the same message that 
he can do whatever he wants. This is his country. He's becoming 
an autocrat. And hopefully, something bad will happen to me or 
my children or my wife, so that I will not be here and testify. 
That's what his hope was, it was to intimidate me. And, again, 
I thanked everybody who joined and said that this is just not 
right.
    Mr. Cooper. Have you ever seen Mr. Trump personally 
threaten people with physical harm?
    Mr. Cohen. No. He would use others.
    Mr. Cooper. He would hire other people to do that?
    Mr. Cohen. I'm not so sure that he had to hire them. They 
were already working there. Everybody's job at the Trump 
Organization is to protect Mr. Trump. Every day, most of us 
knew we were coming in and we were going to lie for him on 
something. And that became the norm. And that's exactly what's 
happening right now in this country. And it's exactly what's 
happening here in government, sir.
    Mr. Cooper. Thank you, Mr. Chairman. My time is expired.
    Chairman Cummings. Mr. Armstrong?
    Mr. Armstrong. Thank you. Mr. Cohen----
    Mr. Cohen. Mr. Chairman, can we take a break?
    Chairman Cummings. Not right now.
    Mr. Cohen. OK.
    Mr. Armstrong. All right.
    Chairman Cummings. Mr. Cohen, did you ask for a break?
    Mr. Cohen. I did, sir.
    That's OK. Thank you, sir.
    Chairman Cummings. I thought a Member asked.
    Mr. Cohen. Thank you.
    Chairman Cummings. Ten minutes.
    Exactly 10 minutes we'll start back.
    [Recess.]
    Chairman Cummings. Ms. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    Mr. Cohen, you've admitted to lying on your taxes. 
According to Federal prosecutors in the Southern District of 
New York, you also lied to banks to get loans. The prosecutors 
wrote, quote, ``To secure loans, Cohen falsely understated the 
amount of debt he was carrying and omitted information from his 
personal financial statements to induce a bank to lend based on 
incomplete information,'' end quote. Is that correct?
    Mr. Cohen. That's correct.
    Ms. Foxx. You lied on financial documents. So you lied to 
financial institutions in order to secure loans. So we've 
established that you lie on your taxes, you lie to banks, and 
you have been convicted of lying to Congress. It seems to me 
that there's not much that you won't lie about when you stand 
to gain from it.
    In fact, the prosecutor for the Southern District of New 
York noted that each of your crimes, quote, ``bear commonsense 
characteristics with each involving deception and being 
motivated by your personal greed and ambition.'' Is your 
appearance here today motivated by your desire to remain in the 
spotlight for your personal benefit?
    Mr. Cohen. No, ma'am.
    Ms. Foxx. You have sought out ways to rehabilitate your 
image, from tax evader, bank swindler, and all-around liar, to 
an honorable truthful man by appearing before cable news. I'm 
concerned you could be using your story and this congressional 
platform for your personal benefit, such is a desire to make 
money from book deals. So can you commit, under oath, that you 
have not and will not pursue a book or movie deal based on your 
experiences working for the President?
    Mr. Cohen. No.
    Ms. Foxx. You cannot commit to making money off of a book 
or movie deal based on your work?
    Mr. Cohen. No. What I just--there's two parts to your 
question. The first part of your question, you asked me whether 
or not I had spoken to people regarding a possible book deal, 
and I have. And I've spoken to people who've sought me out 
regarding a movie deal.
    Ms. Foxx. No, I didn't ask you if you'd spoken to anybody.
    Mr. Cohen. That was the first part of your question.
    Ms. Foxx. I said, can you commit under oath that you will 
not--that you have not and will not pursue a book deal.
    Mr. Cohen. And I would not do that, no.
    Ms. Foxx. OK. Can you commit under oath that you will not 
pursue opportunities to provide commentary for a major news 
network based on your experiences working for the President?
    Mr. Cohen. No.
    Ms. Foxx. Can you commit under oath that you will not 
pursue political office in the State of New York?
    Mr. Cohen. No.
    Ms. Foxx. So you don't commit to changing your ways, 
basically, because you want to continue to use your background 
as a liar, a cheater, a convicted liar, to make money? That's 
what you want to do?
    Mr. Cohen. And that's going to get me a book deal and a 
movie deal and television--and a spot on television? I don't 
think so.
    Ms. Foxx. Well, it appears that it will. I yield my 
remainder of my time, Mr. Chairman, to Mr. Jordan.
    Mr. Jordan. I thank the gentlelady for yielding.
    Mr. Cohen, in your sentencing statement to the court in 
December of last year, you said, I want to apologize to the 
people of the United States; you deserve to know the truth. 
Approximately a month later, BuzzFeed News ran a story that was 
the story in the country for a couple of days. BuzzFeed story 
ran January 17, 2019. On January 18, your counsel went on TV 
and wouldn't confirm or deny the story.
    The next day, the special counsel's office did something 
that's never happened. Never happened. They said the 
description of specific statements to the special counsel's 
office and the characterization of documents and testimony 
obtained by this office regarding Michael Cohen's congressional 
testimony are not accurate.
    Why didn't your lawyer the day that he's on TV, when this 
story is the biggest things in the news, in the country, why 
didn't he deny the BuzzFeed story?
    Mr. Cohen. Because I didn't think it was his responsibility 
to do that. We are not the fact-checkers for BuzzFeed----
    Mr. Jordan. He's on TV to talk about the very story you 
committed to the court when you were trying to get your 
sentence reduced that you--that the American people deserve to 
know the truth, you had the golden opportunity to give them the 
truth on a false story, the BuzzFeed story, and your lawyer 
didn't say a thing. Actually, he said this: I can't confirm, I 
can't deny. You had an opportunity to do exactly what you told 
the judge you were going to do one month after you said it, and 
you didn't do it. Why not?
    Mr. Cohen. Again, it wasn't our responsibility to be the 
fact-checker for the news agency----
    Mr. Jordan. This is the biggest story in the country.
    Mr. Cohen. Sir, please, let me--the President says, so far, 
approximately 9,000--you asked----
    Mr. Jordan. Let me just say one thing. I got eight seconds. 
I got eight seconds. I'll let you finish.
    Mr. Cohen. Chairman, may I please finish?
    Mr. Jordan. The special counsel said----
    Mr. Cohen. Chairman, can I please finish?
    Mr. Jordan [continuing]. something they've never done----
    Mr. Cohen. Sir?
    Mr. Jordan [continuing]. they said that story was false. 
Now you can respond.
    Mr. Cohen. OK. My response----
    Chairman Cummings. You may respond.
    Mr. Cohen [continuing]. the President has told something 
over 9,000 lies to date. Do I ask Mr. Davis or Mr. Monaco, do I 
go on television in order to correct his mistakes?
    Mr. Jordan. When----
    Mr. Cohen. The answer is no.
    Mr. Jordan [continuing]. talking about that specific 
subject, you should.
    Mr. Cohen. The answer is no. And I would like----
    Chairman Cummings. The gentleman's time has--listen up. The 
gentleman's time has expired.
    You may finish answering the question, and then we are 
going to go to Mr. Connolly.
    Mr. Cohen. All I wanted to say is, I just find it 
interesting, sir, that between yourself and your colleagues, 
that not one question so far since I'm here, has been asked 
about President Trump. That's actually why I thought I was 
coming today, not to confess the mistakes that I've made. I've 
already done that. And I'll do it again every time you ask me 
about taxes or mistakes. Yes, I made my mistakes, I'll say it 
now again, and I'm going to pay the ultimate price.
    But I'm not here today--and the American people don't care 
about my taxes. They want to know what it is that I know about 
Mr. Trump, and not one question so far has been asked about Mr. 
Trump.
    Chairman Cummings. Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    Well, Mr. Cohen, based on your testimony and your 10-year 
experience, I think you can recognize the behavior you're being 
subjected to on the other side of the aisle. Discredit, 
slander, use any trick in the book to prevent your testimony 
from sticking. The idea that a witness would come to us who's 
flawed--and you certainly are flawed--means they can never tell 
the truth, and there is no validity whatsoever to a single word 
they say, would discredit every single criminal trial of 
organized crime in the history of the United States, because 
all of them depend on someone who's turned. It would make RICO 
null and void. We couldn't use it anymore.
    This Congress, historically, has relied on all kinds of 
shady figures, who turned. One of the most famous who led to 
the decapitation of organized crime families in America, Joe 
Valachi, congressional hearing, he was a witness, and he 
committed a lot worse crimes than you're convicted of, Mr. 
Cohen.
    So don't be fooled by what my friends on the other side of 
the aisle are trying to do today. It is do everything but focus 
on the principle known as ``Individual No. 1'' in the Southern 
District of New York, as I recall. Is that correct, Mr. Cohen?
    Mr. Cohen. That is correct.
    Mr. Connolly. Now, Mr. Cohen, I want to ask you about 
something that is not in your testimony and that so far has not 
been made public. In our committee staff search of documents 
provided by the White House that were otherwise redacted or 
already in the public--and I guess the White House thought that 
was funny--they made one mistake, the White House.
    There was an email from a Special Assistant to the 
President, to a deputy White House counsel, and the e-mail is 
dated May 16th, 2017, and it says, and I quote, ``POTUS,'' 
meaning the President, ``requested a meeting on Thursday with 
Michael Cohen and Jay Sekulow. Any idea what this might be 
about?'' End quote.
    Do you recall being asked to come to the White House on or 
around that time? With Mr. Sekulow? May 2017?
    Mr. Cohen. Off the top of my head, sir, I don't. I recall 
being in the White House with Jay Sekulow, and it was in regard 
to the--the documents--the document production, as well as my 
appearance before the House Select Intel, but I'm not sure if 
that specifically----
    Mr. Connolly. Well, that----
    Mr. Cohen. But what I will to do, is, I will check all my 
records, and I'm more than happy to provide you with any 
documentation or a response to this question.
    Mr. Connolly. Well, you sort of touch on, presumably, the 
purpose of the discussion, at least among others. This 
occurred, this meeting occurred just before your testimony 
before the Select Committee on Intelligence here in the House. 
Is that correct?
    Mr. Cohen. I believe so, yes.
    Mr. Connolly. Was that a topic of conversation with the 
President himself?
    Mr. Cohen. If this is the specific instance that I was 
there with Mr. Sekulow, yes.
    Mr. Connolly. So you had a conversation with the President 
of the United States about your impending testimony before the 
House Intelligence Committee. Is that correct?
    Mr. Cohen. That's correct.
    Mr. Connolly. What was the nature of that conversation?
    Mr. Cohen. He wanted me to cooperate. He also wanted just 
to ensure I'm making the statement -- and I said it in my 
testimony -- there is no Russia, there is no collusion, there 
is no -- there is no deal. He goes, it's all a witch hunt, and 
it's -- he goes, this stuff has to end.
    Mr. Connolly. Did you take those comments to be suggestive 
of what might flavor your testimony?
    Mr. Cohen. Sir, he's been saying that to me for many, many 
months. And at the end of the day, I knew exactly what he 
wanted me to say.
    Mr. Connolly. And why was Mr. Sekulow in the meeting?
    Mr. Cohen. Because he was going to be representing Mr. 
Trump going forward, as one of his personal attorneys in this 
matter.
    Mr. Connolly. So it was sort of a handoff meeting?
    Mr. Cohen. Correct.
    Mr. Connolly. In any way -- final question -- did the 
President, in any way, from your point of view, coach you in 
terms of how to respond to questions or the content of your 
testimony before a House committee?
    Mr. Cohen. Again, it's difficult to answer, because he 
doesn't tell you what he wants. What he does is, again, 
Michael, there's no Russia, there's no collusion, there's no 
involvement, there's no interference. I know what he means, 
because I've been around him for so long. So if you're asking 
me whether or not that's the message, that's staying on point, 
that's the party line that he created, that so many others are 
now touting, yes, that's the message that he wanted to 
reinforce.
    Chairman Cummings. The gentleman's time is expired.
    Mr. Connolly. Thank you.
    Chairman Cummings. Mr. Massie?
    Mr. Massie. Mr. Cohen, can you just clarify, did you say 
that at times you would do what you thought Mr. Trump wanted 
you to do, not specifically what he told you to do?
    Mr. Cohen. At times, yes.
    Mr. Massie. So you just went on your intuition?
    Mr. Cohen. I don't know if I would call it intuition, as 
much as I would just say, my knowledge of what he wanted, 
because it happened before, and I knew what he had wanted.
    Mr. Massie. Does a lawyer have a duty to provide his client 
with good legal advice?
    Mr. Cohen. Yes.
    Mr. Massie. Were you a good lawyer to Mr. Trump?
    Mr. Cohen. I believe so.
    Mr. Massie. When you arranged a payment to Ms. Clifford, 
you say in your testimony--I'm going to quote from your 
testimony--that you did so, quote, ``without bothering to 
consider whether that was improper, much less whether it was 
the right thing to do.'' You said that--unquote. That's your 
testimony today. You said you didn't even consider whether it 
was legal. How could you give your client legal advice when 
you're not even considering whether it's legal?
    Mr. Cohen. I did what I knew Mr. Trump wanted. This 
conversation with Mr. Trump----
    Mr. Massie. I didn't ask----
    Mr. Cohen [continuing]. started----
    Mr. Massie. I didn't ask whether you were a good fixer. I 
asked whether you were a good lawyer.
    Mr. Cohen. Well, sometimes you have to meld both together. 
I needed to, at that time, ensure and protect Mr. Trump and----
    Mr. Massie. So----
    Mr. Cohen [continuing]. if I put my--which I'm clearly, 
clearly suffering the penalty of--I clearly----
    Mr. Massie. You said--let me--you said----
    Mr. Cohen [continuing]. erred on the--on the side of wrong.
    Mr. Massie. So you feel like, by--without bothering whether 
to consider whether it was proper, much less whether it was the 
right thing to do, by ignoring any conscience, if you have one, 
that you were protecting Mr. Trump?
    Mr. Cohen. I'm sorry, sir. I don't understand your 
question.
    Mr. Massie. You feel that was how to protect -- as his 
lawyer, you feel that you did a good job. You said you were a 
good lawyer, right?
    Mr. Cohen. That's correct.
    Mr. Massie. Is that being a good lawyer? To not even 
consider whether it's legal or not?
    Mr. Cohen. I didn't work for the campaign. I was working, 
and I was trying to protect Mr. Trump.
    Mr. Massie. I didn't say anything about the campaign. I 
didn't ask you about----
    Mr. Cohen. I sat with Mr. Trump -- and this goes back all 
the way to 2011. This wasn't the first scenario with Ms. 
Daniels.
    Mr. Massie. Let's go back then.
    Mr. Cohen. So, what my point--my point is, this is -- this 
was an ongoing situation. It didn't just start in----
    Mr. Massie. Right. Let's -- I want to yield back.
    Mr. Cohen. But you have to let me finish.
    Mr. Massie. Well----
    Mr. Cohen. It started in Oc- -- it didn't start in October.
    Mr. Massie. Let me -- let me ask you specifically on that.
    Mr. Cohen. It started many years earlier.
    Mr. Massie. When were you disbarred?
    Mr. Cohen. Yesterday, from what I read in the paper.
    Mr. Massie. Yesterday. When should you have been disbarred, 
based on the legal counsel you were giving your client?
    Mr. Cohen. I don't have an answer for your question.
    Mr. Massie. How long were you counsel for Mr. Trump?
    Mr. Cohen. Since 2007.
    Mr. Massie. When is the first time you gave him bad legal 
advice, or failed to inform him of his legal obligation, as you 
testified today, you did in the case of the payment to Ms. 
Clifford? When was the first time you did that? Would that 
qualify for disbarment?
    Mr. Cohen. I don't know, sir. I'm not the Bar Association.
    Mr. Massie. I think you should consult with them maybe 
occasionally on some of these things. Has anybody----
    Mr. Cohen. Well, there's no point now. I lost my law 
license.
    Mr. Massie. Has anybody -- has anybody else promised to pay 
Mr. Davis for representing you?
    Mr. Cohen. No.
    Mr. Massie. Nobody has?
    Mr. Cohen. No. Are you offering?
    Mr. Massie. Question, quickly. You said -- and this is also 
in your testimony--in the days before the Democratic 
Convention, you became privy to a conversation that some of 
Hillary Clinton's emails would be leaked. Is that correct?
    Mr. Cohen. Correct.
    Mr. Massie. OK. Was that in -- you said late July. Do you 
know the exact day?
    Mr. Cohen. I believe it was either the 18th or the 19th, 
and I would guess that it would be on the 19th.
    Mr. Massie. But it was definitely July?
    Mr. Cohen. I believe so, yes.
    Mr. Massie. Do you know that was public knowledge in June? 
This was -- Mr. Assange -- and I'd like to submit this -- 
unanimous consent to submit this for the record.
    Chairman Cummings. Without objection, so ordered.

    [The Assange article referenced above is available at: 
https://www.theguardian.com/media/2016/jun/12/wikileaks-to-
publish-more-hillary-clinton-emails-julian-assange.]

    Mr. Massie. Mr. Assange reported to the media on June 12th 
that those emails would be leaked. So I'm not saying you have 
fake news. I'm saying you have old news, and there's really not 
much to that.
    I would like to yield the remainder of my time to Mr. 
Higgins.
    Mr. Higgins. Thank you, sir.
    Mr. Cohen, you know, I'm quoting you close, again earlier 
you said, I spent last week looking through boxes to find 
documents that would support your accusations. Where are those 
boxes, good sir?
    Mr. Cohen. I'm sorry?
    Mr. Higgins. Where are those boxes? Are they in your 
garage?
    Mr. Cohen. They're in storage.
    Mr. Higgins. And are these not boxes that should have been 
turned over to investigative authorities, during the many 
criminal investigations you've been subject to?
    Mr. Cohen. Sir, these are the boxes that were returned to 
me post the raids.
    Mr. Higgins. If they -- if they include data pertinent to 
crimes that you've committed, should they not have been turned 
over, remanded to investigative authority? Did Mr. Lanny Davis 
know of these boxes?
    Mr. Cohen. I don't understand your question.
    Chairman Cummings. The gentleman's time is expired.
    You may answer the question.
    Mr. Cohen. I don't understand his question, sir.
    Chairman Cummings. Very well.
    Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. Mr. Cohen, good morning. Thank you, 
Chairman Cummings, for convening this hearing, and thank you, 
Mr. Cohen, for voluntarily testifying this morning.
    Mr. Cohen, you were the executive vice president and 
special counsel for the Trump Organization, correct?
    Mr. Cohen. I was the executive vice president special 
counsel to Donald J. Trump.
    Mr. Krishnamoorthi. And ``special counsel'' means you are 
the attorney for him. Is that right?
    Mr. Cohen. It just means I was there in order to handle 
matters that he felt were significant and important to him 
individually.
    Mr. Krishnamoorthi. And those included legal matters?
    Mr. Cohen. Yes, sir.
    Mr. Krishnamoorthi. Sir, as a former attorney, you're 
familiar with legal documents known as nondisclosure 
agreements, or NDAs. Is that right?
    Mr. Cohen. Yes.
    Mr. Krishnamoorthi. So I'm sure you know that NDAs, 
properly written in scope, can be reasonable in certain 
business contexts, but they can also be abused to create a 
chilling effect to silence people, as we've seen in the Me Too 
movement and other places. Isn't that right, Mr. Cohen?
    Mr. Cohen. Yes.
    Mr. Krishnamoorthi. And Mr. Cohen, the Trump Organization 
used NDAs extensively. Isn't that right?
    Mr. Cohen. That's correct.
    Mr. Krishnamoorthi. Mr. Cohen, I'm reading from a recent 
Washington Post article regarding the language in one of these 
types of NDAs where the terms were described as very broad. For 
instance, the terms ``confidential information'' was defined to 
be anything that, quote, ``Mr. Trump insists remain private or 
confidential, including, but not limited to, any information 
with respect to the personal life, political affairs, and/or 
business affairs of Mr. Trump or any family member,'' closed 
quote. Do those terms sound familiar to you?
    Mr. Cohen. I've seen that document.
    Mr. Krishnamoorthi. In fact, there is a class-action 
lawsuit filed this month by former Trump campaign worker 
Jessica Denson that this NDA language is illegal, because it is 
too broad, too vague, and would be used to retaliate against 
employees who complain of illegality or wrongdoing.
    Would you agree that in the use of the NDA -- of these 
types of NDAs with this type of language, and later, when 
Donald Trump sought to enforce them, that he intended to 
prevent people from coming forward with claims of wrongdoing?
    Mr. Cohen. Yes.
    Mr. Krishnamoorthi. Would you agree that the effect of the 
use of these NDAs and their enforcement was to have a chilling 
effect on people or silence them from coming forward?
    Mr. Cohen. I apologize, if you want to define ``chilling,'' 
I'm not sure----
    Mr. Krishnamoorthi. Oh, just that he would -- in using 
these NDAs, or trying to enforce them, would basically try to 
keep people silent?
    Mr. Cohen. That was the goal.
    Mr. Krishnamoorthi. And nothing at the Trump Organization 
was ever done unless it was run through President Donald Trump, 
correct?
    Mr. Cohen. That's 100 percent certain.
    Mr. Krishnamoorthi. OK. Mr. Cohen, do you believe that 
there are people out there today, either from the President's 
business or personal life, who are not coming forward to tell 
their stories of wrongdoing because of the President's use of 
NDAs against them?
    Mr. Cohen. I'm sorry, sir. I don't know the answer to that 
question.
    Mr. Krishnamoorthi. OK. Sir, I have a couple other 
questions for you. When was the last communication with 
President Trump or someone acting on his behalf?
    Mr. Cohen. I don't have the specific date, but it was a 
while ago.
    Mr. Krishnamoorthi. OK. Do you have a general timeframe?
    Mr. Cohen. I would suspect it was within two months post 
the raid of my -- my home, hotel.
    Mr. Krishnamoorthi. OK. So early fall of last year? 
Generally?
    Mr. Cohen. Generally.
    Mr. Krishnamoorthi. And what did he or his agent 
communicate to you?
    Mr. Cohen. Unfortunately, this topic is actually something 
that's being investigated right now by the Southern District of 
New York, and I've been asked by them not to discuss, and not 
to talk about these issues.
    Mr. Krishnamoorthi. Fair enough. Is there any other 
wrongdoing or illegal act that you are aware of regarding 
Donald Trump that we haven't yet discussed today?
    Mr. Cohen. Yes. And, again, those are part of the 
investigation that's currently being looked at by the Southern 
District of New York.
    Mr. Krishnamoorthi. Sir, Congressman Cooper asked you about 
whether you were aware of any physical violence committed by 
President Trump. I just have a couple quick questions. Do you 
have any knowledge of President Trump abusing any controlled 
substances?
    Mr. Cohen. I'm not aware of that, no.
    Mr. Krishnamoorthi. Do you have any knowledge of President 
Trump being delinquent on any alimony or child-care payments?
    Mr. Cohen. I'm not aware of any of that.
    Mr. Krishnamoorthi. Do you have any knowledge of President 
Trump arranging any healthcare procedures for any women not in 
his family?
    Mr. Cohen. I'm not aware of that, no.
    Mr. Krishnamoorthi. Thank you. I yield back.
    Mr. Cohen. Thank you.
    Chairman Cummings. Mr. Cloud?
    Mr. Cloud. Thank you, Chairman.
    Mr. Cohen, can you tell me the significance of May 6th?
    Mr. Cohen. In terms of, sir?
    Mr. Cloud. Couple months from now.
    Mr. Cohen. That's the day that I need to surrender----
    Mr. Cloud. Yes, sir, it is.
    Mr. Cohen [continuing]. to Federal prison.
    Mr. Cloud. Could you, for the record, state what you've 
been convicted of.
    Mr. Cohen. I've been convicted on five counts of tax 
evasion. There's one count of misrepresentation of documents to 
a bank. There's two counts--one dealing with campaign finance 
for Karen McDougal; one count of campaign finance violation for 
Stormy Daniels, as well as lying to Congress.
    Mr. Cloud. Thank you. Can you state what your official 
title with the campaign was?
    Mr. Cohen. I did not have a campaign title.
    Mr. Cloud. And your position in the Trump administration?
    Mr. Cohen. I did not have one.
    Mr. Cloud. OK. In today's testimony, you said that you were 
not looking to work in the White House. The Southern District 
of New York, in their statement, their sentencing memo, says 
this: ``Cohen's criminal violations in the Federal election 
laws were also stirred, like other crimes, by his own ambition 
and greed. Cohen privately told friends, colleagues, and 
including seized text messages, that he expected to be given a 
prominent role in the new administration. When that did not 
materialize, Cohen found a way to monetize his relationship and 
access with the President.'' So were they lying, or were you 
lying today?
    Mr. Cohen. I'm not saying it's a lie. I'm just saying it's 
not accurate. I did not want to go to the White House. I 
retained--and I brought an attorney and I sat with Mr. Trump, 
with him, for well over an hour explaining the importance of 
having a personal attorney. And every President has had one, in 
order to handle matters like the matters I was dealing with, 
which included, like Summer Zervos----
    Mr. Cloud. I reclaim my time.
    Mr. Cohen [continuing]. Stormy Daniels, dealing with 
Stephanie Clifford----
    Mr. Cloud. I ask unanimous consent to----
    Mr. Cohen [continuing]. and other personal matters that 
needed----
    Mr. Cloud. Excuse me. This is my time. Thank you.
    I ask unanimous consent to submit to this memo from the 
Southern District of New York, New York for the record.
    Chairman Cummings. Without objection, so ordered.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cloud. All right. I'll give that to you in a second.
    OK. This memo states that you committed four distinct 
Federal crimes over a period of several years. You were 
motivated to do so by personal greed and repeatedly used your 
power to influence for deceptive ends. It goes on to say that 
you were--that they each involved -- they were distinct in 
their harms, but bear a common set of characteristics, that 
they involved deception and were each motivated by personal 
greed and ambition.
    There's a lot we don't know in regards to this 
investigation, but here's what we do know: We know that you 
were expecting a job at the White House and didn't get it; you 
made millions lying about your close access to the President; 
you have a history of lying for personal gain, including--
that's banks, about your accountant, to law enforcement, and 
your family, the Congress, the American people.
    The Southern District of New York -- you said that you did 
all this out of blind loyalty to Mr. Trump, but your sentencing 
memo states this: ``This was not an act out of blind loyalty, 
as Cohen suggests. Cohen was driven by a desire to further 
ingratiate himself with the potential future President for whom 
political success Cohen himself claimed credit for.''
    Now, we're in a search for truth, and I don't know, 
Chairman, how we're supposed to ascertain the truth in this 
quagmire of a hearing when the best witness we can bring before 
us has already been convicted of lying before us.
    And what's sad is the American people have seen this play 
out before. We have people in prominent positions fail, and 
then a couple years later, they get a book deal. Now you're set 
to go to jail for a couple years and come out with a 
multimillion book deal. That's not bad living.
    And so my question is, is, will you today--will you today 
to--commit to donate any further proceeds to book deals, to 
film reviews, to charity?
    Mr. Cohen. No.
    Mr. Cloud. Thank you. I yield my time.
    Mr. Meadows. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Cohen. May I -- may I finish?
    Mr. Meadows. Will the gentleman yield?
    Mr. Cloud. Yield to Mr. Meadows.
    Mr. Cohen. Mr. Chairman, may I finish my----
    Mr. Meadows. Mr. Cohen----
    Mr. Cohen. May I finish----
    Mr. Meadows. Mr. Cohen, he's yielded to me, and so----
    Mr. Cohen. I didn't finish my -- my response.
    Mr. Meadows. Listen, everything's been made----
    Mr. Cohen. I'm asking, Mr. Chairman. Mr. Chairman, may I 
finish my response, please?
    Chairman Cummings. I'll let you respond, but answer his 
question, please.
    Mr. Meadows. Mr. Cohen, everything's been made of your lies 
in the past. I'm concerned about your lies today. Under your 
testimony just a few minutes ago, to me, you indicated that you 
had contracts with foreign entities, and yet, we have a truth 
in testimony disclosure form, which requires you to list those 
foreign contracts for the last two years, and you put NA on 
there. And it's a criminal offense to not have that accurately. 
So when were you lying, either in the testimony to me earlier 
today, or when you filled out the form?
    Chairman Cummings. The gentleman's time has expired.
    Mr. Cohen, you may answer his question and then whatever 
you wanted to say on that other one.
    Mr. Cohen. His question, unfortunately, I don't have an 
answer for his question. But as it----
    Mr. Meadows. No, no, no, no, no. Mr. Chairman?
    Mr. Cohen [continuing]. as it relates----
    Chairman Cummings. The gentleman is out of order. He said 
he does not have an answer.
    Mr. Meadows. Mr. Chairman, when we were in the majority, 
with all due respect, Mr. Chairman, hold on.
    Chairman Cummings. Regular order. The gentleman has just 
said he doesn't have an answer. And you have gone over your 
time.
    Ms. Foxx. Well, he's under oath.
    Mr. Meadows. He's under oath to tell the truth. One of them 
is not accurate, Mr. Chairman.
    Chairman Cummings. You will--you will have time to ask the 
question.
    Mr. Jordan. Mr. Chairman, just a question. Mr. Chairman, 
just a question.
    Chairman Cummings. Mr. Raskin? Mr. Raskin.
    Mr. Raskin. Mr. Cohen, thank you for your composure today. 
Our colleagues are not upset because you lied to Congress for 
the President; they're upset because you stopped lying to 
Congress for the President.
    Now, you've described the Trump campaign as a once-in-a-
lifetime, money-making opportunity, the greatest informercial 
of all time, I think you said. And this may be the most 
trenchant observation of your whole testimony. Do you think the 
Trump campaign or Presidency ever stopped being about making 
money for the President, his family, and his organization?
    Mr. Cohen. Yes.
    Mr. Raskin. When did it stop being that?
    Mr. Cohen. When he won the election.
    Mr. Raskin. And what did it become about at that point?
    Mr. Cohen. Then it had to be about figuring out what to do 
here in Washington.
    Mr. Raskin. Can you carefully explain to America how the 
hush-money payments to Karen McDougal and Stormy Daniels 
worked? Can you carefully explain what catch-and-kill is?
    Mr. Cohen. Sure. I received a phone call regarding both 
Karen McDougal, as well as Stormy Daniels, obviously different 
times, stating that there were issues that were going to be 
damaging to Mr. Trump. With the Stormy Daniels, it started in 
2011, when she wanted to have something removed from a website, 
and that was the first time I met Keith--I spoke with Keith 
Davidson, her then-acting attorney, and we were successful in 
having it taken down from the website.
    It wasn't until years later did -- right -- by around the 
time of the campaign, did they come back and they ask, what -- 
what are you going to do now, because she's back on the trail, 
trying to sell the story, at which point in time, David Pecker, 
on behalf of the National Enquirer, reached out to her and her 
attorney, in order to go take a look at lie detector tests that 
would prove that she is telling the truth. They then contacted 
me and told me that she was telling the truth. At which point, 
again, all the time----
    Mr. Raskin. She took a lie detector test?
    Mr. Cohen. She allegedly took a lie detector test and was 
seen by an employee of the National Enquirer, at which point in 
time I went straight into Mr. Trump's office and I explained 
why this time it's different than another time.
    Mr. Raskin. Okay. Now, when you say ``different than 
another time,'' were there other women paid sexual hush-money 
by Donald Trump or his organization? Was this a standard 
operating practice?
    Mr. Cohen. No.
    Mr. Raskin. So you're not aware of any other cases where it 
had taken place?
    Mr. Cohen. I'm not aware of any other case that Mr. Trump 
paid. So which brings us to the Karen McDougal. He was supposed 
to pay. He was supposed to pay $125,000 for the life story of 
Karen McDougal. For whatever the reason may be, he elected not 
to pay it. David Pecker was very angry because there was also 
other moneys that David had expended on his behalf. 
Unfortunately, David never got paid back for that either.
    Mr. Raskin. So David Pecker had done this in other cases of 
other mistresses or women?
    Mr. Cohen. Other circumstances, yes.
    Mr. Raskin. Okay.
    Mr. Cohen. Not all of them had to do with women.
    Mr. Raskin. Are you aware of anything that the President 
has done, at home or abroad, that may have subjected him to, or 
may subject him to extortion or blackmail?
    Mr. Cohen. I am not, no.
    Mr. Raskin. Okay. Are you aware of any videotapes that may 
be the subject of extortion or blackmail?
    Mr. Cohen. I've heard about these tapes for a long time, 
had many people contact me over the years. I have no reason to 
believe that that tape exists.
    Mr. Raskin. In December 2015, Donald Trump was asked about 
his relationship with Felix Sater, a convicted felon and real 
estate developer, and he replied, Felix Sater, boy, have to 
even think about it, I'm not that familiar with him. Why did 
Trump endeavor to hide his relationship with Felix Sater, and 
what was his relationship?
    Mr. Cohen. Well, he certainly had a relationship. Felix was 
a partner in a company called Bayrock that was involved in the 
deal of the Trump Soho Hotel, as well as, I believe, the Trump 
Ft. Lauderdale project. Why did he want to distance himself? 
That's what Mr. Trump does. He distances himself when things go 
bad for someone. And at that point in time, it was going bad 
for Mr. Sater.
    Mr. Raskin. You said you lied to Congress about Trump's 
negotiations to build his Moscow tower, because he made it 
clear to you that he wanted you to lie. One of the reasons you 
knew this is, because, quote, ``Mr. Trump's personal lawyers 
reviewed and edited my statement to Congress about the timing 
of the Moscow tower negotiations before I gave it.'' So this is 
a pretty breathtaking claim, and I just want to get to the 
facts here. Which specific lawyers reviewed and edited your 
statement to Congress on the Moscow tower negotiations, and did 
they make any changes to your statement?
    Mr. Cohen. There were changes made, additions. Jay Sekulow, 
for one----
    Mr. Raskin. Were there changes about the timing? The 
question----
    Chairman Cummings. The gentleman's time has expired.
    You may answer that question.
    Mr. Cohen. There were--there were several changes that were 
made, including how we were going to handle that message. Which 
was----
    Chairman Cummings. Mr. Groth -- were you finished?
    Mr. Cohen. Yes. The message, of course, being the length of 
time that the Trump Tower Moscow project stayed and remained 
alive.
    Mr. Raskin. That was one of the changes?
    Mr. Cohen. Yes.
    Chairman Cummings. Mr. Grothman?
    Mr. Grothman. Yes, first of all, I'd like to clear up 
something, just a little something that bothers me. You started 
off your testimony, and you said, I think in response to some 
question, that President Trump never expected to win. I just 
want to clarify that I dealt with several--President Trump 
several times as he was trying to get Wisconsin. He was always 
confident. He was working very hard, and this idea that somehow 
he was just running to raise his profile for some future 
adventure, at least in my experience, is preposterous. I always 
find it offensive when anti-Trump people imply that he just did 
this on a lark and didn't expect to win.
    But be that as it may, my first question concerns your 
relationship with the court. Do you expect--I mean, right now, 
I think you're sentenced to 3 years, correct?
    Mr. Cohen. That's correct.
    Mr. Grothman. Do you expect any time, using this testimony, 
other testimony, after you get done doing whatever you're going 
to do this week, do you ever expect to go back and ask for any 
sort of reduction in sentence?
    Mr. Cohen. Yes. There are ongoing investigations currently 
being conducted that have nothing to do with this committee or 
Congress, that I am assisting in, and it is for the benefit of 
a Rule 35 motion, yes.
    Mr. Grothman. So you expect, and perhaps what you testify 
here today will affect going back and reducing this, what we 
think is a relatively light, three-year sentence? You expect to 
go back and ask for a further reduction?
    Mr. Cohen. Based off of my appearance here today?
    Mr. Grothman. Well, based upon whatever you do between now 
and your request for----
    Mr. Cohen. The Rule 35 motion is in the complete hands of 
the Southern District of New York. And the way the Rule 35 
motion works is, what you're supposed to do, is provide them 
with information that leads to ongoing investigations. I am 
currently working with them right now on several other issues 
of investigation that concerns them, that they're looking at. 
If those investigations become fruitful, then there is a 
possibility for a Rule 35 motion. And I don't know what the 
benefit in terms of time would be, but this congressional 
hearing today is not going to be the basis of a Rule 35 motion. 
I wish it was, but it's not.
    Mr. Grothman. I'd like to yield some time to Congressman 
Jordan.
    Mr. Jordan. I yield to the gentleman from North Carolina.
    Mr. Meadows. Mr. Cohen, I'm going to come back to the 
question I asked before, with regards to your false statement 
that you submitted to Congress. On here, it was very clear, 
that it asked for contracts with foreign entities over the last 
two years. Have you had any foreign contract with foreign 
entities, whether it's Novartis or the Korean airline or 
Kazakhstan BTA Bank? Your testimony earlier said that you had 
contracts with them. In fact, you went into detail----
    Mr. Cohen. I believe it talks about lobbying. I did no 
lobbying. On top of that they are not government----
    Mr. Meadows. In your testimony -- I'm not asking about 
lobbying, Mr. Cohen.
    Mr. Cohen. They are not government agencies. They are 
privately and----
    Mr. Meadows. Do you have--do you have foreign contracts----
    Mr. Cohen [continuing]. publicly traded companies.
    Mr. Meadows. Do you have foreign contracts?
    Mr. Cohen. I currently have no foreign contracts.
    Mr. Meadows. Did you have foreign contracts over the last 
two years?
    Mr. Cohen. Foreign contracts?
    Mr. Meadows. Contracts with foreign entities, did you have 
contracts?
    Mr. Cohen. Yes.
    Mr. Meadows. Yes?
    Mr. Cohen. Yes.
    Mr. Meadows. Why didn't you put them on the form? It says 
it's a criminal offense to not put them on this form for the 
last two years. Why did you not do that?
    Mr. Cohen. Because those foreign companies that you're 
referring to are not government companies.
    Mr. Meadows. It says nongovernmental, Mr. Cohen. You signed 
it.
    Mr. Cohen. They're talking about me as being 
nongovernmental.
    Mr. Meadows. And right. It says foreign agency--It says 
foreign contracts. Do you want us to read it to you?
    Mr. Cohen. I read it and it was reviewed by my counsel, and 
I am a nongovernment employee. It was not lobbying, and they 
are not foreign contracts.
    Mr. Meadows. It has nothing to do with lobbying. It says 
it's a criminal offense to not list all your foreign contracts. 
That's what it says.
    Mr. Cohen. Well, then, I'm going to take a look at it 
before I leave----
    Mr. Meadows. No, you've----
    Mr. Cohen [continuing]. and I will -- and hopefully I will 
amend it prior to leaving, because that's not the way I read 
your document.
    Mr. Meadows. You know, it's just one more example, Mr. 
Cohen, of you skirting the truth.
    OK, I want to ask one other question.
    One other question, Mr. Cohen. It's my time, not yours.
    Were you advised, or was your counsel advised to withhold 
your written testimony to the latest possible date as John Dean 
said last night on CNN?
    Mr. Cohen. Was it my what?
    Mr. Meadows. Were you advised, or was your counsel advised, 
to withhold your written testimony to this committee, at the 
latest possible date to give it to this committee, at the 
latest possible date as John Dean said that he advised you? Yes 
or no?
    Mr. Cohen. No. We were----
    Mr. Meadows. He never advised you?
    Mr. Cohen. We -- John Dean? I've never spoken with John 
Dean.
    Mr. Meadows. Has he spoken to your attorney?
    Mr. Cohen. I--I don't know. I've never spoken to John Dean.
    Mr. Meadows. Well, ask your attorney. He's right there 
behind you.
    Mr. Cohen. We were working last night till -- till 11, 12 
at night, and it----
    Mr. Meadows. You've known that you've been coming for some 
time. I----
    Chairman Cummings. You may answer the question. Answer the 
question, if you recall.
    Mr. Cohen. We were working till 11, 12 last night to finish 
everything.
    Mr. Meadows. So you were writing it last night, Mr. Cohen?
    Mr. Cohen. We were making edits----
    Mr. Meadows. Don't give me that bull.
    Mr. Cohen. We were making edits all the way through the 
night.
    Chairman Cummings. I recognize Mr. Rouda.
    Mr. Cohen. I'm sorry.
    Mr. Rouda. Thank you, Mr. Chairman.
    Mr. Cohen, in November 2013, President Donald Trump 
testified under oath in a lawsuit related to the failed real 
estate project Trump International Hotel and Tower in Ft. 
Lauderdale. During the deposition, President Trump was asked 
about his knowledge of Felix Sater, a Russian-born real estate 
developer and convicted member of the Russian Mafia, who, 
according to press reports, pled guilty for his role in a 40 
million stock manipulation scheme.
    And it's worth noting and it's well-publicized the direct 
relationship between the Russian Mafia and the Kremlin. Over 
the years, President Trump was asked how many times he 
interacted with convicted Russian mobster Felix Sater. In 2013, 
President Trump testified that, quote, ``not many. If he were 
sitting in the room right now, I really wouldn't know what he 
looked like,'' unquote.
    Mr. Cohen, as you previously testified, isn't it true that 
President Trump knew convicted Russian mobster Felix Sater in 
2013 when he made that statement?
    Mr. Cohen. Yes.
    Mr. Rouda. Isn't it true that, because of Mr. Sater's 
relationship to the Trump Organization, that he had an office 
in the Trump Tower?
    Mr. Cohen. And on the 26th floor, Mr. Trump's----
    Mr. Rouda. And the 26th floor is important why?
    Mr. Cohen. Because it's Mr. Trump's floor.
    Mr. Rouda. So he had an office on the same floor as 
President Trump?
    Mr. Cohen. In fact, his office, when he left, became my 
office.
    Mr. Rouda. And isn't it also true that convicted Russian 
mobster Sater even had business cards indicating that he was a 
senior advisor to Donald Trump as reported by The Washington 
Post?
    Mr. Cohen. Yes.
    Mr. Rouda. Did convicted Russian mobster Sater pay rent for 
his office?
    Mr. Cohen. No, he did not.
    Mr. Rouda. So, based on these facts, isn't it true that 
President Trump misled, at best, or worst, lied under oath?
    Mr. Cohen. Yes.
    Mr. Rouda. In December 2015, President Trump was asked 
again about his relationship to convicted Russian mobster, Mr. 
Sater by a reporter for the Associated Press. He stated, quote, 
``Felix Sater, boy, I have to even think about it,'' unquote. 
He added, quote, ``I'm not that familiar with him,'' unquote. 
Mr. Cohen, where would we find business records that explained 
the President's relationship to the convicted Russian mobster 
Felix Sater? Would those be in the Trump Organization's files?
    Mr. Cohen. They'd be in the Trump Organization's files. 
There would be CCs to Bayrock, which was the name of Mr. 
Sater's company. I suspect on Mr. Sater's email address, 
possibly hard files in possession of Mr. Sater.
    Mr. Rouda. And when you say ``in possession of the Trump 
Organization,'' where?
    Mr. Cohen. It depends upon who the attorney was that was 
working on it. Now it would probably be in a box offsite. They 
have a storage facility that they----
    Mr. Rouda. OK.
    Mr. Cohen [continuing]. put old files.
    Mr. Rouda. In addition to convicted Russian mobster Sater, 
do you know of any other ties to convicted or alleged mobsters 
President Trump may have?
    Mr. Cohen. I am not aware.
    Mr. Rouda. Isn't it true that many people with ties to 
Russia ultimately bought condos in Trump properties usually for 
cash, and if so, how many are we talking? 10, 20, 50, hundreds?
    Mr. Cohen. I'm not--honestly, sir, I'm not aware of any. 
You know, the statement that was--you're referring to, I 
believe, is made by either Eric or Don. And I don't agree with 
it.
    Mr. Rouda. So are you aware of any cash purchases by 
Russian oligarchs and family members of Trump properties?
    Mr. Cohen. I'm not aware of that. I can tell you, when you 
say cash, if you mean walking in with a satchel of rubles, the 
answer is, I've never seen that happen. I've never heard of it.
    I will tell you, when we sold Mr. Trump's property in Palm 
Beach, the home for $95 million, it came in by wire, and that 
came from Mr. Rybolovlev's bank account.
    Mr. Rouda. One other question. You also talked about 
President Trump doing negotiations throughout the campaign, 
regarding the Trump Tower in Moscow. Was he directly involved 
in those negotiations, and if so, how do you know?
    Mr. Cohen. Well, the answer is yes. And as it relates to 
negotiations, it was merely followups as to what's currently 
happening, what's happening with Russia, meaning he wanted me 
to give him a status report. The problem with this is that the 
project never advanced because they were unable--Mr. Sater was 
unable to provide me with proof that somebody owned or 
controlled a piece of property that we can actually build on.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Rouda. Thank you.
    Chairman Cummings. Mr. Amash?
    Mr. Amash. Mr. Cohen, why did Mr. Trump choose to hire you, 
and why did he trust you with the various tasks that you 
performed for him?
    Mr. Cohen. I don't know, sir. You would have to ask him 
that question.
    Mr. Amash. Well, we've heard here that you have bad 
character. You've admitted to that over the years. You have no 
idea why he chose to hire you?
    Mr. Cohen. In 2006, I was asked by Don Jr. to come meet 
with his father; I did. He then followed up by asking if I 
would take a look at an issue that was occurring at Trump World 
Tower with the board. I went ahead and I looked into it, and I 
found that the statements that the board were making about Mr. 
Trump were inaccurate.
    And the reason Don came to me is because I had an apartment 
there for investment. My parents had an apartment there, my in-
laws lived there, friends of mine, we all bought as a big block 
from a brokerage company, and we got a good price on each unit. 
And we ultimately turned over the board, and I became, 
actually, the treasurer of the board because the out-of-control 
spending was going to put the building into bankruptcy, and I 
was proud to say that within a year, we had plus a million 
dollars, versus minus 1.3.
    At the end of the day, Mr. Trump appreciated that, and he 
tasked me with something else. It was to handle a problem that 
Don Jr. had created in terms of a business, a license deal. And 
we resolved that.
    And then on top of that, the third time, Mr. Trump had 
asked me to take a look at the third Trump Entertainment Resort 
Chapter 11 reorganization, because he had a series of questions 
that he wanted answered. And I read these two stack books, gave 
him the answers that he needed, and with that, he--and the next 
time I was sitting in his office, and he asked me if I was 
happy at the sleepy old firm that I was with. I said yes. He 
said, Would you rather work for me? And I asked, Are you 
offering me a job? And he said, Yes. And we negotiated, and I 
actually never went back to my office.
    Mr. Amash. All right. You suggested that the President 
sometimes communicates his wishes indirectly. For example, you 
said, quote, ``Mr. Trump did not directly tell me to lie to 
Congress, that's not how he operates,'' end quote. Can you 
explain how he does this?
    Mr. Cohen. Sure. It would be no different if I said, That's 
the nicest looking tie I've ever seen, isn't it? What are you 
going to do, are you going to fight with him? The answer is no. 
So you say, yes, it's the nicest looking tie I've ever seen. 
That's how he speaks. He doesn't give you questions. He doesn't 
give you orders. He speaks in a code, and I understand the code 
because I've been around him for a decade.
    Mr. Amash. And it's your impression that others who work 
for him understand the code as well?
    Mr. Cohen. Most people, yes.
    Mr. Amash. Mr. Cohen, I don't know whether we should 
believe you today, but I'm going to ask you this one last 
question. What is the truth that you know President Trump fears 
most?
    Mr. Cohen. That's a tough question, sir. I don't--I don't--
I don't have an answer for that one. What does he fear most?
    Mr. Amash. What's the truth that he fears most? From your 
perspective. And again, I don't know whether we should believe 
you here today, but----
    Mr. Cohen. It's a tough question, sir. I don't know how to 
answer that question.
    Mr. Amash. All right. Let me ask you this: What principles 
have you chosen to follow in your life, and do you wish to 
follow different principles now?
    Mr. Cohen. I've always tried to be a good person. I've 
tried to be a great friend. There were many, I think over 40 
statements written in my support to the sentencing judge. I 
have friends who I treat incredibly well that I know for over 
40 years. And I treat people, after 40 minutes, the same exact 
way.
    Am I perfect? No. Do I make mistakes? Yes. Have I made 
mistakes? Absolutely. I'm going to pay the consequences for it.
    But all I would like to do is be able to get my life back, 
to protect my wife and my children, support, and grow old. 
That's pretty much where I'd like to be.
    Mr. Amash. And you feel you're following a different set of 
principles now than you followed throughout your life?
    Mr. Cohen. I do. And I'm trying. I'm trying very hard. I 
thank you for your questions. Some of the other ones really 
make it difficult to try to, you know, show some redemption. 
But, you know, I am trying. I am trying.
    Mr. Amash. All right. Thank you.
    Mr. Cohen. Thank you.
    Chairman Cummings. Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman.
    I want to mention really quick a clarification on the truth 
and testimony form. The mention was around whether it talks 
about foreign entities at all. And the question is, in fact, 
whether witnesses have any contracts or payments originating 
with a foreign government. It does not cover all foreign 
entities, just foreign government entities.
    So, Mr. Cohen, what I'd like to ask you to do is review 
this issue over lunch with your attorneys. And if you need to 
amend your form, we ask that you do that before the conclusion 
of today's hearing.
    Also, I represent a purple district. I did not come here 
for partisan bickering. In fact, I actively wanted to avoid it. 
So when I ask these questions today, it is not as someone who 
has a vendetta against the President. It's as someone who comes 
from generations of servicemembers who swore an oath to obey 
the orders of the President of the United States and who, along 
with myself and every single other person up here, swore to 
uphold and defend the Constitution of the United States.
    My forefathers served their country, they served their 
Commander in Chief, and they served the idea that America is 
free and just and that the law of the land rules us all, 
especially those in the highest levels of our government.
    So I ask these questions to help determine whether our very 
own President committed felony crimes while serving in the Oval 
Office, including efforts to conceal payments that were 
intended to mislead the public and influence the outcome of an 
election. I hope to God that is not the case.
    So, Mr. Cohen, on January 22, 2018, just days after the 
Wall Street Journal broke the story that Mr. Cohen paid 
$130,000 to Stephanie Clifford to silence her during the 2016 
Presidential campaign, a nonprofit watchdog called Common Cause 
filed a complaint with the Department of Justice and FEC 
alleging the payment to Ms. Clifford may have represented an 
illegal in-kind contribution to the Trump campaign. I ask that 
their complaint be entered into the record.
    Chairman Cummings. So ordered.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hill. On February 13, 2018, Mr. Cohen, you sent a 
statement to the reporters that said, quote, ``I used my own 
personal funds to facilitate a payment of $130,000 to Ms. 
Stephanie Clifford, and neither The Trump Organization nor the 
Trump campaign was party to the transaction with Ms. Clifford 
and neither reimbursed me for the payment either directly or 
indirectly.'' Was the statement false?
    Mr. Cohen. The statement is not false. I purposefully left 
out Mr. Trump individually from that statement.
    Ms. Hill. OK. Why did you say it that way?
    Mr. Cohen. Because that's what was discussed to do between 
myself, Mr. Trump, and Allen Weisselberg.
    Ms. Hill. So it was carefully worded?
    Mr. Cohen. Yes, ma'am.
    Ms. Hill. Great.
    Mr. Cohen, a reporter for the magazine Vanity Fair has 
reported that she interviewed you the very next day, on 
February 14, 2018, about the payment and reimbursement. And she 
wrote, quote, ``Last February 14, I interviewed Cohen in his 
office about the statement he gave the FEC in which he said 
Trump didn't know about the Stormy payment or reimbursed him 
for it.''
    Do you recall this meeting with the reporter?
    Mr. Cohen. I do.
    Ms. Hill. The reporter also wrote, ``Trump called while I 
was there. I couldn't hear much, but he wanted to go over what 
the public messaging would be.''
    Is that accurate?
    Mr. Cohen. It is.
    Ms. Hill. Did the President call you while you were having 
a meeting with the reporter?
    Mr. Cohen. Yes.
    Ms. Hill. Did the President call you to coordinate on 
public messaging about the payments to Ms. Clifford in or 
around February 2018?
    Mr. Cohen. Yes.
    Ms. Hill. What did the President ask or suggest that you 
say about the payments or reimbursements?
    Mr. Cohen. He was not knowledgeable of these 
reimbursements, and he wasn't knowledgeable of my actions.
    Ms. Hill. He asked you to say that?
    Mr. Cohen. Yes, ma'am.
    Ms. Hill. Great.
    In addition to the personal check for $35,000 in July 2017, 
is there additional corroborating evidence that Mr. Trump, 
while a sitting President of the United States, directly 
reimbursed you hush money as part of a criminal scheme to 
violate campaign finance laws?
    Mr. Cohen. There are 11 checks that I received for the 
year. The reason why 11, because, as I stated before, one had 
two checks.
    Ms. Hill. And you have copies of all of those?
    Mr. Cohen. I can get copies. I'd have to go to the bank.
    Ms. Hill. So we will be able to get copies of all 11 checks 
that Mr. Trump provided to you as part of this criminal scheme?
    Mr. Cohen. It's either from his personal account, as what 
was demonstrated in the exhibit, or it would come from the 
Donald J. Trump account, the trust account.
    Ms. Hill. Thank you, Mr. Cohen.
    I yield back the remainder of my times.
    Chairman Cummings. Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman.
    You know, I've just been sitting here. I'm new to the 
committee. I'm not an attorney. Sometimes, Mr. Cohen, it sounds 
like, from your answers, you are either incompetent or are a 
liar. I think maybe I can be a better attorney. I don't know.
    I'm looking through this. You come in here, and you rail on 
the President of the United States, Commander in Chief, while 
he's over across the Pacific Ocean trying to negotiate a deal 
to make this world safer.
    And, Mr. Chairman, just having this committee at this time 
when the Commander in Chief is out of the country is just -- 
it's just -- I think is a new precedent.
    But you call him a racist, a cheat, and, you know, you 
attacked his character. And I've been with the President a 
little bit and I didn't see that in the President. I see a 
President who's very sincere, who's trying to make this country 
better for every American.
    And for you to come in here and do that, repentance on your 
part is really unbelievable. Real repentance would be go serve 
your time and don't come back here and make allegations toward 
a man you can't substantiate.
    Now, I'm looking here from the remarks from the prosecutor 
of the Southern District of New York. False statements to bank 
three, which Cohen pleaded guilty, was far from an isolated 
event. It was one of a long series of self-serving lies Cohen 
told numerous financial institutions.
    Earlier in your testimony, I think I heard you say it only 
is a home equity loan. But apparently the prosecutors in New 
York think that there's other financial things that you did.
    You also, they said, managed to commit a series of crimes 
all with holding himself out as a licensed attorney and 
upstanding member of the bar.
    Also, the Southern District prosecutor said that -- wrote 
that your consciousness of wrongdoing is fleeting, that your 
remorse is minimal, and that your instinct to blame others is 
strong.
    So I'm kind of left here why--you worked for the President 
for 10 years before he was President. If you have any sense of 
integrity like you're trying to tell us you have now, if it was 
that bad, why didn't you leave? You weren't stuck there because 
of financial reasons. You had ways to leave. You're an 
attorney.
    And so that's just kind of, you know -- the President's 
working tirelessly, and you come and make these allegations, 
and you could have left any time you want. It looks like to me 
you're trying to save face.
    And with the other questions that came out here was it 
looks like to me you're going to have a very lucrative deal at 
some point in your life, because you don't look like you're 
close to retirement. You're going to have some type of 
lucrative deal.
    And so one of my questions is, and it's come up a little 
bit, talks with you and your attorney. And there's been talks 
about Members of Congress and staff. And you said there was 
some discussions.
    Was any of those discussions that you or your attorneys had 
with Members of Congress or staff or prosecutors to give 
considerations to favor or other considerations to you or your 
family in the future?
    Mr. Cohen. No. The conversations were about the topics, 
because there were things that originally we could not speak 
about at the request of -- whether it was the special counsel's 
office or the Southern District or any of the other agencies, 
including the House Select Intel or the Senate Select Intel.
    Sir, just for your personal edification here, I was asked 
to come here. Your chairman sent a letter to Mr. Davis, and I 
accepted. So I'm here voluntarily.
    Mr. Gibbs. I understand that.
    Mr. Cohen. And if you believe that I'm----
    Mr. Gibbs. It's my time. I understand. I think it's a 
political theater.
    Mr. Cohen. Sir, if you believe -- it's not political 
theater for me. And I take no pleasure in saying anything 
negative about Mr. Trump.
    You've met him for a short period of time. I've been with 
him for over a decade. I've traveled with him internationally. 
I've spent dinners with him. It doesn't make me feel good about 
what's going on here.
    And as far as saving face, I'm not sure how being in front 
of the world, being called a tax cheat----
    Mr. Gibbs. Well, this world today, with these lucrative 
book deals, movies that come about, I think you'll be pretty 
good in about five years.
    I yield the rest of my time to the ranking member.
    Mr. Jordan. I thank the gentleman for yielding.
    Earlier you said you started the campaign?
    Mr. Cohen. That's correct, in 2011.
    Mr. Jordan. You started the campaign for President of the 
United States for Donald Trump?
    Mr. Cohen. I certainly did, sir.
    Mr. Jordan. Now, that's news.
    Mr. Cohen. ShouldTrumpRun.com.
    Mr. Jordan. Wow.
    Mr. Cohen. 2011. It was my idea. I saw a document in the 
newspaper that said, Who would you vote for in 2012? Six 
percent of the people said----
    Mr. Jordan. Michael Cohen. Michael Cohen.
    Mr. Cohen. Michael Cohen.
    Six percent of the people turned around and said they'd 
vote for Donald Trump.
    Mr. Jordan. The reason Donald Trump is President is because 
of Michael Cohen?
    Mr. Cohen. So I went into his office, and I said to him, 
``Mr. Trump, take a look at this.''
    And he goes, ``Wow, wouldn't that be great.'' And with that 
is where it all started.
    Mr. Jordan. Yes. OK. Like, I'm sure -- I'm sure he had 
never thought of anything like that until you came along.
    Mr. Cohen. No, I didn't say that either.
    Mr. Jordan. Let me ask you one question. I got eight 
seconds. I got eight seconds.
    What did you talk to Mr. Schiff about?
    Mr. Cohen. I spoke to Mr. Schiff about topics that were 
going to be raised at the upcoming hearing.
    Mr. Jordan. Whoa. Not just what time to show up. Actually 
what you're going to talk about?
    Chairman Cummings. The gentleman's time has expired.
    Mr. Jordan. Wow.
    Chairman Cummings. Mr. Sarbanes. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you, Mr. Cohen.
    I know the other side is suggesting that you are an 
incorrigible liar and that you're lying here today. I can't 
think of anything you have to gain at this point from lying. I 
mean, they talk about book deals and other things that you want 
to do. But I see a lot more that you could lose by telling the 
truth today given the threats and other things that have been 
made against you and your family. So that's how I'm 
interpreting it. And, of course, you brought documents with you 
as well to bolster the credibility of your testimony.
    I did want to go back to an earlier line of questioning 
regarding the preparation of your testimony before you came 
before the Intelligence Committee. You talked about a meeting 
at the White House where the testimony was being reviewed. And 
I think you said there it was at least one White House 
attorney, Jay Sekulow, who was there, and you acknowledged that 
there was some edits that were made to your testimony.
    So on that topic, who at the White House reviewed your 
testimony?
    Mr. Cohen. I don't know the answer to that. The document 
was originally created by myself along with my attorney at the 
time from McDermott Will & Emery. And there was a joint defense 
agreement, so the document circulated around. I believe it was 
also reviewed by Abbe Lowell, who represents Ivanka and Jared 
Kushner.
    Mr. Sarbanes. Why did you provide the testimony to the 
White House?
    Mr. Cohen. It was pursuant to the joint defense agreement 
that we were all operating under.
    Mr. Sarbanes. What were the edits that came back 
substantively on the testimony?
    Mr. Cohen. I'm sorry. I don't know, sir. I'd have to take a 
look at the document.
    Mr. Sarbanes. Did you have a--do you have a reaction to why 
there might not have been, in a sense, a protest to what was 
going to be false testimony that was going to be provided?
    Mr. Cohen. No, sir, because the goal was to stay on 
message. It's just limit the relationship whatsoever with 
Russia. It was short. There's no Russian contacts. There's no 
Russian collusion. There's no Russian deals. That's the 
message. That's the same message that existed well before my 
need to come and testify.
    Mr. Sarbanes. So it's an example of where this idea, this 
mentality of you toe the line, whatever the story line or the 
narrative of the day or the month or the year is going to be, 
you toe that line whether it results in false testimony or not.
    Mr. Cohen. I toed the party line, and I'm now suffering. 
And I'm going to continue to suffer for a while, along with my 
family, as a result of it. So yes.
    Mr. Sarbanes. Let me switch gears quickly before my time 
expires. And you may not have direct knowledge of some of these 
things, but you're offering us some very helpful perspective on 
how the Trump world operates.
    And, frankly, another reason I find your testimony fairly 
compelling and credible is because a lot of the things you're 
describing, a lot of the behavior you're describing, is very 
consistent with what we all see every single day. So it's not a 
leap for us to arrive in the same place and perspective that 
you have presented.
    I'm interested in some of the activities around the 
inaugural committee, the inauguration of the President. There 
was an article that appeared in ProPublica, it's a watchdog 
group, about some negotiation on pricing of things at the Trump 
Hotel, where it looks like the rental that was being quoted was 
substantially even double what you would expect to pay 
according to what the market should bear. And so, in a sense, 
the Trump Hotel was up-charging to the inaugural committee.
    Mr. Cohen. Even I couldn't afford to stay there.
    Mr. Sarbanes. Yeah.
    And so I'm just curious. Do you have a sense of whether 
that kind of a practice is something that is consistent or 
inconsistent? Is it possible that that kind of up-charging 
could be done inside a Trump operation?
    Mr. Cohen. It did happen.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Cohen. And what I can say to you is I wasn't part of 
the inaugural committee. I raised a lot of money for the 
inauguration, but I was not part of it. And there was a lot of 
things in that actually, that issue is something that's also, 
obviously, we've read about in the paper being investigated at 
the current moment.
    Mr. Sarbanes. Thank you.
    Chairman Cummings. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Cohen, it's on my heart to tell you, sir, that -- and 
I'm sorry for what your family is going through. I feel for 
your family.
    Mr. Cohen. Thank you.
    Mr. Higgins. The word tells us clearly that a man's mouth 
is his destruction and his lips are the snare of his soul. And 
I see you, a man trapped in that.
    However, I must tell you that I've arrested several 
thousand men and you remind me of many of them. The ones that 
immediately become humble and remorseful at the time they're 
actually booked, and while they're incarcerated they're quite 
penitent, and then return to their former selves when they're 
back on the street.
    So respectful to your family and what they're going 
through, I owe you the honesty to tell you that that's my sense 
of you, good sir.
    I'm going to give you another opportunity to respond to 
what you brushed off earlier regarding your own statement 
during this testimony from C-SPAN notation at 2 hours and 50 
seconds in.
    You stated regarding your credibility that you're being 
accused of having no credibility, that it is exactly for that 
reason I spent the last week searching boxes to find the 
information that I did so that you don't have to take my word 
for it. I want you to look at the documents and make your own 
decisions.
    Now, the documents you're referring to, Mr. Cohen, are the 
documents that you submitted in your -- with your testimony 
today. Is that correct?
    Mr. Cohen. That is correct.
    Mr. Higgins. You believe those documents to be worthy of 
evidence for this oversight hearing today?
    Mr. Cohen. I leave that to you to decide.
    Mr. Higgins. And I ask you again sir, and please don't be 
incredulous, this is a serious question, where are those boxes 
that contain documents worthy of evidence to be presented to 
Congress? And why have they not been turned over to 
investigating authorities looking into some of the many 
criminal activities that you're allegedly cooperating in? Where 
are these boxes? Who knows--where is this treasure of evidence?
    Mr. Cohen. The boxes that I'm referring to were boxes that 
were in my law office when the FBI entered and seized documents 
when I was moving----
    Mr. Higgins. Mr. Chairman, I move that the investigating 
authorities have noted what the gentleman had just stated and 
that actions be taken for those boxes to be seized and reviewed 
based upon a proper warrant signed by a sitting judge.
    You noted earlier today, Mr. Cohen, quite incredulously, 
one of my colleagues asked you regarding the television deal, 
you expressed wonderment that your predicament could possibly 
get you on television. It certainly got you on television 
today, has it not, sir?
    Mr. Cohen. Sir, I was on television representing Mr. Trump 
going back into 2011.
    Mr. Higgins. Well, I didn't know who you were until today, 
really. Until the FBI raided your home, most of America didn't 
know who you were.
    How many attorneys do you think Mr. Trump has had through 
the course of his career? Quite a few, I would imagine. You're 
just one that's in a trap right now. And I understand you're 
trying to get out of it. You're in a bind.
    But I ask you, good sir, have you discussed film and book 
deals with your stated current attorney, Mr. Davis, Lanny 
Davis?
    Mr. Cohen. With Mr. Davis?
    Mr. Higgins. Yes.
    Mr. Cohen. No. But I have been approached by many people 
who are looking to do book deals, movie deals, and so on. So 
the answer to that is yes.
    Mr. Higgins. This is your right as an American. But it 
leads me back to my instinct that compares you to many of the 
men that I have arrested during the course of my career.
    Mr. Cohen. With all due respect, sir----
    Mr. Higgins. Mr. Chairman, I ask that our primary hearing 
to introduce the Oversight Committee, the 116th Congress, to 
the American people, has manifested in the way that it 
obviously is. This is an attempt to injure our President, lay 
some sort of soft cornerstone for future impeachment 
proceedings. This is the full intent of the majority.
    I yield my remaining 30 seconds to the ranking member.
    Mr. Jordan. Mr. Cohen, earlier you said the United States 
Southern District of New York is not accurate in that 
statement.
    Mr. Cohen. I'm sorry. Say that again.
    Mr. Jordan. Earlier you said that the United States 
Southern District of New York Attorney's Office, that statement 
is not accurate. You said it's not a lie. You said it's not 
accurate. Do you stand by that?
    Mr. Cohen. Yes, I did not want a role in the new 
administration.
    Mr. Jordan. So the court's wrong?
    Mr. Cohen. Sir, can I finish, please?
    Mr. Jordan. Sure.
    Mr. Cohen. I got exactly the role that I wanted. There is 
no shame in being personal attorney to the President. I got 
exactly what I wanted. I asked Mr. Trump for that job, and he 
gave it to me.
    Mr. Jordan. All I'm asking, if I could--and I appreciate 
it, Mr. Chairman -- you're saying that statement from the 
Southern District of New York attorneys is wrong.
    Mr. Cohen. I'm saying I didn't write it, and it's not 
accurate.
    Mr. Jordan. All right. Thank you.
    Chairman Cummings. Mr. Welch.
    Mr. Welch. Thank you.
    One of the most significant events in the last Presidential 
campaign, of course, was the dump of emails stolen from the 
Democratic National Committee, dumped by WikiLeaks.
    Mr. Cohen, during your opening statement, which was at the 
height of the election, you testified you were actually meeting 
with Donald Trump in July 2016 when Roger Stone happened to 
call and tell Mr. Trump that he had just spoken to Julian 
Assange. Is that correct?
    Mr. Cohen. That is correct.
    Mr. Welch. All right. And you said that Mr. Assange told 
Mr. Trump about an upcoming--quoting your opening statement--
quote, ``massive dump of emails that would damage Hillary 
Clinton's campaign.''
    So I want to ask you about Roger Stone's phone call to the 
President.
    First of all, was that on Speakerphone? Is that what you 
indicated?
    Mr. Cohen. Yes. So Mr. Trump has a black Speakerphone that 
sits on his desk. He uses it quite often because with all the 
number of phone calls he gets.
    Mr. Welch. All right. Now, in January of this year, 2019, 
the New York Times asked President Trump if he ever spoke to 
Roger Stone about these stolen emails, and President Trump 
answered, and I quote, ``No, I didn't. I never did.''
    Was that statement by President Trump true?
    Mr. Cohen. No, it's not accurate.
    Mr. Welch. And can you please describe for us, to the best 
of your recollection, you were present, exactly what Mr. Stone 
said to Mr. Trump?
    Mr. Cohen. It was a short conversation, and he said, Mr. 
Trump, I just want to let you know that I just got off the 
phone with Julian Assange, and in a couple of days there's 
going to be a massive dump of emails that's going to severely 
hurt the Clinton campaign.
    Mr. Welch. And was Mr. Trump and Mr. Stone aware of where 
those emails came from?
    Mr. Cohen. That, I'm not aware of.
    Mr. Welch. Did Mr. Trump ever suggest then or later to call 
the FBI to report this breach?
    Mr. Cohen. He never expressed that to me.
    Mr. Welch. Did the President at that time or ever since, in 
your knowledge, indicate an awareness that this conduct was 
wrong?
    Mr. Cohen. No.
    Mr. Welch. The reason I ask is because on July 22, on the 
eve of the Democratic convention, WikiLeaks published, as you 
know, the 20,000 leaked internal DNC emails.
    Could your meeting with Mr. Trump have been before that 
date?
    Mr. Cohen. Yes.
    Mr. Welch. So Mr. Trump was aware of the upcoming dump 
before it actually happened?
    Mr. Cohen. Yes.
    Mr. Welch. And is there any recollection----
    Mr. Cohen. No, sir, I don't know whether he knew or not, 
and I don't believe he did, what the sum and substance of the 
dump was going to be, only that there was going to be a dump of 
emails.
    Mr. Welch. And he was aware of that before the dump 
occurred, correct?
    Mr. Cohen. Yes, sir.
    Mr. Welch. All right. And are there any records that would 
corroborate the day of this meeting? Calendars, perhaps.
    Mr. Cohen. I'm not in possession. But I believe, again, 
this is part of the special counsel. And they are probably best 
suited to corroborate that information.
    Mr. Welch. Was anyone else present in the room during the 
call?
    Mr. Cohen. I don't recall for this one, no, sir.
    Mr. Welch. Is there anyone else the committee should talk 
to about the President's knowledge of the WikiLeaks email dump?
    Mr. Cohen. Oh, again, when he called, Rhona Graff yelled 
out to Mr. Trump, Roger's on line 1, which was regular 
practice.
    Mr. Welch. And that's his assistant?
    Mr. Cohen. That's his -- yes.
    Mr. Welch. All right. And during a news conference on July 
27, 2016, then candidate Trump publicly appealed to Russia to 
hack Hillary Clinton's emails and make them public. He stated, 
and I quote, ``Russia, if you're listening, I hope you're able 
to find the 30,000 emails that are missing.''
    Now, going back to Mr. Stone's phone call to the President, 
do you recall if Mr. Trump had knowledge of the WikiLeaks dump 
at the time of his direct appeal to Russia?
    Mr. Cohen. I am not.
    Mr. Welch. But the call with Mr. Stone, you believe, was 
before----
    Mr. Cohen. Yes.
    Mr. Welch [continuing]. this 27th----
    Mr. Cohen. Yes. I'm sorry. I thought you were talking about 
a different set of documents that got dumped.
    So I was in Mr. Trump's office. It was either July 18th or 
19th. And, yes, he went ahead. I don't know if the 35,000--or 
30,000 emails was what he was referring to, but he certainly 
had knowledge.
    Mr. Welch. All right. Thank you.
    Just one last question.
    Mr. Raskin had been asking you some questions. And one of 
the things in your answer was that Mr. Pecker expended other 
moneys to protect Mr. Trump.
    Can you elaborate on what some of those other activities 
were?
    Mr. Cohen. Sure. There was the story about Mr. Trump having 
a love child with an employee--with an employee. And, actually, 
the husband of that employee works for the company as well. And 
there was an elevator operator who claims that he overheard the 
conversation taking place between one of Mr. Trump's other 
executives and somebody. And he ended up paying like $15,000 in 
order to buy that story to find out whether it was true or not.
    And that's just one example of things that David had done 
over the years. It was the reason why, in the recording, when 
David was looking to become the CEO of Time magazine, we were 
concerned about--we'll call it the treasure trove of documents 
that had been created over the years that, if he left, somebody 
could open up the key to a drawer and find all this 
information. So we were going to look to buy all of those life 
rights and so on.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Norman.
    Mr. Norman. Mr. Cohen, thank you for testifying. I join 
Congressman Higgins in feeling for your family. They have no 
part in this.
    You know, I've heard all the testimony, and I'm trying to 
decide what Clay is trying to decide. Are you really sorry for 
what you did or you just got caught?
    And the thing that amazed me is that in your opening 
statement--which, let me quote, ``Last fall I pled guilty in 
Federal court to felonies for the benefit of, at the direction 
of, and in coordination with Individual 1.'' Was that the 
President?
    Mr. Cohen. Yes, sir.
    Mr. Norman. OK. Your crimes were of your own to benefit 
yourself. Go through----
    Mr. Cohen. Some of them, yes.
    Mr. Norman. No. Go through all the ones with the real 
estate, with the banks. On your HELOC loan, you failed to 
disclose more than $20 million in debt. You failed to disclose 
$70,000 in monthly payments. On your $14 million line of 
credit, you failed to disclose that you had drawn on that.
    So this was all for yourself. This wasn't for the benefit 
of President Trump. This was to benefit Michael Cohen. So 
that's my question. Did you just get caught?
    And you worked for this man for 10 years, Mr. Cohen. You 
came in here with these -- with these -- he's a conman. He's a 
cheat.
    This is the very man that -- didn't you wiretap him 
illegally? Did you not wiretap President Trump without his 
knowledge?
    Mr. Cohen. I did record Mr. Trump in a conversation, yes.
    Mr. Norman. Is that lawyer-client privilege? Is that 
something that an honest guy would do, an honest lawyer?
    Mr. Cohen. I actually never thought that this was going to 
be happening and that that recording even existed. I had 
forgotten.
    Mr. Norman. But you did it.
    Mr. Cohen. Yes, I did.
    Mr. Norman. Have you ever----
    Mr. Cohen. I had a reason for doing it.
    Mr. Norman. What was your reason?
    Mr. Cohen. Because I knew he wasn't going to pay that 
money. And David Pecker had already chewed me out on multiple 
occasions regarding other moneys that he expended.
    Mr. Norman. But this is a man that you trusted, you'd take 
a bullet for, you secretly recorded.
    Let me ask you this, Mr. Cohen. Have you done--have you 
legally or illegally recorded other clients?
    Mr. Cohen. I have recordings of people, yes.
    Mr. Norman. Legally or illegally?
    Mr. Cohen. I believe that they're legal.
    Mr. Norman. Did you tell him?
    Mr. Cohen. In New York State you don't have to do that.
    Mr. Norman. So you did didn't tell him?
    Mr. Cohen. No, I did not.
    Mr. Norman. OK.
    Mr. Cohen. Sometimes I also used the recordings for 
contemporaneous notetaking instead of writing it down. I find 
it easier.
    Mr. Norman. If the shoe were reversed, would you like your 
trusted lawyer recording you?
    Mr. Cohen. I probably would not, no.
    Mr. Norman. No, sir. It's untrustworthy. It's something 
people just would not do.
    Now, your bank loans that I just ran down, did you ever 
default on any of those loans?
    Mr. Cohen. No, sir.
    Mr. Norman. So the bank didn't take any loss?
    Mr. Cohen. No bank has -- I am not in default. I have never 
filed a bankruptcy. The HELOC you're referring to, I replaced 
that from a different HELOC, paid it off. There is--I owe no 
banks any money.
    Mr. Norman. How about your medallion taxicab. Did they--did 
you have to sell that?
    Mr. Cohen. I'm still -- well, the ones in Chicago, yes, I 
do have to sell. However, New York, the answer is no, I don't. 
And they are--the industry is going through a major, major 
correction because of ride sharing. It's changed a lot of 
things.
    Mr. Norman. The value of it has.
    Mr. Cohen. Yes, sir.
    Mr. Norman. Right.
    Has the -- so no bank -- would the banks make you a loan 
again based on your record?
    Mr. Cohen. Actually, they did. They did post the -- yes, 
the bank actually redid, and they refinanced the entire 
package----
    Mr. Norman. Currently?
    Mr. Cohen [continuing]. post this, yes.
    Mr. Norman. OK. Have they never had to do loan loss reserve 
for the projected losses?
    Mr. Cohen. I don't know what they did. But it's still the 
same amount. I didn't get the benefit of it, no, sir.
    Mr. Norman. Most likely they did. I was on an audit 
committee.
    Mr. Cohen. They may have -- they may have done that, sir. 
But that's for their own banking, not for me.
    Mr. Norman. No, it's by law. They have to -- if they 
suspect you of lying, which you admitted to, if they suspect 
you of maybe not being able to make a loan payment, they have 
to have a loan loss reserve that's 125 percent of what you -- 
if it's $20 million, they have to post in their account $20 
million plus. So they get no interest on it.
    You know who pays for that? The American public who deals 
with that bank.
    Mr. Cohen. Yes, but, sir, I'm not in default. And I'm 
current on each and every one of those medallion loans. And 
I've never owed any money to First Republic Bank. In fact, at 
the time that I had the HELOC, I had more cash sitting in that 
same bank than----
    Mr. Norman. OK. Last question. I'm out of time.
    Mr. Cohen [continuing]. than the HELOC and my mortgage 
combined.
    Mr. Norman. Have you ever been to Prague?
    Mr. Cohen. I've never been to Prague.
    Mr. Norman. Never have?
    Mr. Cohen. I've never been to the Czech Republic.
    Mr. Norman. Yield the balance of my time.
    Chairman Cummings. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you, Mr. Cohen.
    On page five of your statement, you say, and I quote, ``You 
need to know that Mr. Trump's personal lawyers reviewed and 
edited my statement to Congress about the timing of the Moscow 
Tower negotiations.''
    Who were those attorneys?
    Mr. Cohen. Jay Sekulow -- from the White House?
    Ms. Speier. Yes.
    Mr. Cohen. Jay Sekulow. I believe Abbe Lowell as well.
    Ms. Speier. And do you have a copy of your original 
statement that you can provide to the committee?
    Mr. Cohen. I can try to get that for you.
    Ms. Speier. All right. If you would do that.
    The letter of intent for the Moscow tower was in the fall 
of 2015, correct?
    Mr. Cohen. Correct.
    Ms. Speier. Was there an expiration date on that letter of 
intent?
    Mr. Cohen. There was no expiration date.
    Ms. Speier. So it could technically still be in effect 
today?
    Mr. Cohen. No, it's been terminated.
    Ms. Speier. It has been terminated?
    Mr. Cohen. Yes, ma'am.
    Ms. Speier. OK. Did Mr. Trump tell you to offer Vladimir 
Putin a free penthouse?
    Mr. Cohen. No, ma'am. That was----
    Ms. Speier. So where did that come from?
    Mr. Cohen. That was Felix Sater. It was a marketing stunt 
that he spoke about.
    Ms. Speier. So Felix Sater had suggested to you that Mr. 
Trump offer a penthouse to Mr. Putin.
    Mr. Cohen. Yes, because it would certainly drive up the 
price per square foot. No different than in any condo where 
they start listing celebrities that live in the property.
    Ms. Speier. In 2016, did you travel to Europe?
    Mr. Cohen. Yes.
    Ms. Speier. Did you meet with persons associated with the 
Moscow tower project?
    Mr. Cohen. No.
    Ms. Speier. It was for personal or----
    Mr. Cohen. Personal. My daughter was studying at Queen Mary 
in London.
    Ms. Speier. So you did not meet with any Russians?
    Mr. Cohen. No.
    Ms. Speier. There is an elevator tape that has been 
referenced as a catch and kill product. It was evidently of Mr. 
Trump and a woman, presumably Mrs. Trump. Is that correct?
    Mr. Cohen. Are we talking about in Moscow or the Trump 
Tower elevator tape?
    Ms. Speier. There's an elevator tape that went up for 
auction----
    Mr. Cohen. Yes.
    Ms. Speier [continuing]. ostensibly in 2016. Is that 
correct?
    Mr. Cohen. Yes, I've heard about this.
    Ms. Speier. And who is on that tape?
    Mr. Cohen. It's Mr. Trump with Melania.
    Ms. Speier. And what happened in that tape?
    Mr. Cohen. The story goes that he struck Melania while in 
that elevator, because there's a camera inside, which I'm not 
so sure -- actually, I'm certain it's not true. I've heard 
about that tape for years. I've known four or five different 
people, including folks from AMI, who have----
    Ms. Speier. So -- but there was some tape that went up for 
auction, correct?
    Mr. Cohen. I don't believe that auction was real, and I 
don't believe anybody -- I don't believe Mr. Trump ever struck 
Mrs. Trump ever. I don't believe it.
    Ms. Speier. And are you aware of anyone purchasing that 
tape, then?
    Mr. Cohen. I don't believe it was ever purchased.
    Ms. Speier. So you never saw this tape?
    Mr. Cohen. No, ma'am. And I know several people who went to 
go try to purchase it for catch and kill purpose. It doesn't 
exist. Mr. Trump would never--in my opinion, it's -- that's not 
something that he----
    Ms. Speier. Good to know. Good to know.
    Is there a love child?
    Mr. Cohen. There is not, to my -- to the best of my 
knowledge.
    Ms. Speier. So you would pay off someone to not report----
    Mr. Cohen. It wasn't me, ma'am. It was AMI. It was David 
Pecker.
    Ms. Speier. So he paid off someone about a love child that 
doesn't exist?
    Mr. Cohen. Correct. It was about $15,000.
    Ms. Speier. OK.
    How many times did Mr. Trump ask you to threaten an 
individual or entity on his behalf?
    Mr. Cohen. Quite a few times.
    Ms. Speier. Fifty times?
    Mr. Cohen. More?
    Ms. Speier. A hundred times?
    Mr. Cohen. More.
    Ms. Speier. Two hundred times?
    Mr. Cohen. More.
    Ms. Speier. Five hundred times?
    Mr. Cohen. Probably, over the -- over the 10 years.
    Ms. Speier. Over the 10 years, he asked you----
    Mr. Cohen. And when you say threaten, I'm talking with 
litigation or an argument with----
    Ms. Speier. Intimidation?
    Mr. Cohen [continuing]. a nasty reporter that has--is 
writing an article.
    Ms. Speier. What do you know about--let's go to your tapes. 
You said there's probably 100 tapes?
    Mr. Cohen. Voice recordings.
    Ms. Speier. Voice recordings. And will you make them 
available to the committee?
    Mr. Cohen. If you would really like them.
    Chairman Cummings. We would.
    Ms. Speier. Did Mr. Trump----
    Mr. Cohen. Don't you have to gavel that, sir?
    Sorry.
    Chairman Cummings. We would.
    Ms. Speier. Did Mr. Trump tape any conversations?
    Mr. Cohen. Not that I'm aware of, no.
    Ms. Speier. Were you involved in the $25 million settlement 
to Trump University?
    Mr. Cohen. I had a role in that, yes.
    Ms. Speier. Who paid the settlement?
    Mr. Cohen. I believe it was Mr. Trump. I don't know the 
answer to that.
    Ms. Speier. You don't know the answer, but you were 
involved in the----
    Mr. Cohen. Yes, in a different aspect.
    Ms. Speier. There's some reference to a businessman in 
Kansas being involved in that. Are you familiar with that?
    Mr. Cohen. I'm not familiar with that, no.
    Ms. Speier. All right. Finally, in my 13 seconds left, what 
do you want your children to know?
    Mr. Cohen. That I am sorry for everything, and I am sorry 
for the pain that I've caused them, and I wish I can go back in 
time.
    Ms. Speier. Thank you. I yield back.
    Chairman Cummings. The gentlelady's time has expired.
    To the members of the committee, before we go to Ms. 
Miller, for your--so that you can plan--properly plan, there's 
a vote apparently coming up in about 10 to 20 minutes. And what 
we will do is we will recess, and we will come back -- listen 
up -- 30 minutes after the last vote begins. Got that? Not it 
ends, 30 minutes after it begins. And we'll do that promptly. 
All right?
    All right. Mrs. Miller.
    Mrs. Miller. I am very disappointed to have you in front of 
this committee today. Quite frankly, this isn't the reason the 
people of West Virginia sent me to Congress. I find this 
hearing not in the best interest of the American people. This 
is another political game with the sole purpose of discrediting 
the President.
    If it was not already obvious, there are members here with 
the singular goal in Congress to impeach President Trump. To 
achieve this goal, they will waste not only precious taxpayer 
dollars, but also time in this committee and Congress as a 
whole. In fact, they will go so far as to bring a convicted 
felon in front of our committee.
    We are supposed to take what you say, Mr. Cohen, at this 
time about President Trump as the truth. But you're about to go 
to prison for lying. How can we believe anything you say? The 
answer is we can't.
    This begs the question, why are those in the majority 
holding this hearing?
    I am appalled. We could be focused on actual issues that 
are facing America, like border security, neonatal abstinence 
syndrome, or improving our Nation's crumbling infrastructure. 
Instead, the Democrats are trying to grasp at straws.
    Let's talk about this witness. From his sentencing hearing 
in the Southern District of New York, Judge Pauley stated, 
``Mr. Cohen pled guilty to a veritable smorgasbord of 
fraudulent conduct: Willful tax evasion, making false 
statements to a financial institution, illegal campaign 
contributions, and making false statements to Congress. Each of 
the crimes involved deception, and each appears to have been 
motivated by personal greed and ambition.''
    This is who we have in front of us today in our committee, 
someone who is about to be sent to prison for three years for 
evading his taxes, deceiving a financial institution, lying to 
Congress, among other counts.
    One of the most appalling facts about this hearing is that 
Mr. Cohen has used his experiences with President Trump, both 
before and after he was elected, for his own greed and profit.
    I'd like some yes-or-no answers.
    Isn't it true you tried to sell a book about your time with 
President Trump entitled ``Trump Revolution: From the Tower to 
the White House, Understanding Donald J. Trump''?
    Mr. Cohen. Yes. That happened early on when I was still 
even part, I believe, of the RNC.
    Mrs. Miller. And this book deal, which you had with Hatchet 
Books, was worth around $500,000. Isn't that correct?
    Mr. Cohen. No, more, ma'am.
    Mrs. Miller. How much more?
    Mr. Cohen. I think it was about 750.
    Mrs. Miller. Wow.
    Mr. Cohen. I did turn it down.
    Mrs. Miller. Mr. Cohen, given that you continue to profit 
publicly discussing your time with Mr. Trump, I worry that this 
committee hearing the majority has given you will only serve as 
a platform for you to continue to lie and sensationalize and 
exaggerate wherever it suits you.
    Do you plan to pursue another book deal about your 
experiences?
    Mr. Cohen. Yes.
    Mrs. Miller. I would presume this book would be a little 
different than your latest pitch. But your new angle might 
please some new fans. Anything to sell books.
    Mr. Chairman, we've canceled hearings on child separation 
and on other issues that are close to my heart for this media 
circus. What a waste of time and money for a man who has gladly 
exploited the name of the President to promote his own name and 
fill his own pockets. It pains me that we are sitting here 
adding another chapter to his book.
    Thank you. And I yield the remainder of my time to Mr. 
Jordan.
    Mr. Jordan. I thank the gentlelady for yielding.
    Earlier, Mr. Cohen, the gentlelady from California talked 
about this tape.
    Mr. Cohen. I'm sorry, sir. I can't hear you.
    Mr. Jordan. Earlier the gentlelady from California talked 
about this tape, this elevator tape, that you said does not 
exist.
    Mr. Cohen. That's correct. I do not believe it exists.
    Mr. Jordan. But is it also your testimony that the Trump 
team was willing to pay to make sure a story about a 
nonexistent tape never became public?
    Mr. Cohen. No, sir, that's not what -- that's not what I 
said.
    Mr. Jordan. They were willing to stop a false tape?
    Mr. Cohen. We looked--we learned that this tape was 
potentially on the market and that it existed. And so what we 
did is exactly what we did with all the other catch and kill. 
We looked for it. And if, in fact, that it did exist, we would 
have tried to stop it. That's what I would have done.
    Mr. Jordan. It's a false tape. Is it not?
    Mr. Cohen. But it's a false tape. I've never----
    Mr. Jordan. Got it.
    Mr. Cohen [continuing]. heard it. And I can assure you one 
thing about Mr. Trump. Many things, he would never ever do 
something like that. I don't see it.
    Chairman Cummings. Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Cohen, I'd like to ask you more about the details of 
the $130,000 payment you made to Stephanie Clifford, the adult 
film actress known as Stormy Daniels, in order to purchase her 
silence shortly before the 2016 election.
    First, according to documents filed by Federal prosecutors 
in New York, you created a shell company called Essential 
Consultants, LLC. Is that correct?
    Mr. Cohen. It's correct.
    Ms. Kelly. And you created this company for the purpose of 
making the payment to Ms. Clifford. Is that correct?
    Mr. Cohen. Amongst other things, yes.
    Ms. Kelly. You then used a home equity line of credit to 
fund the account in the name of Essential Consultants, LLC. Is 
that correct?
    Mr. Cohen. That's correct.
    Ms. Kelly. You then wired $130,000 to the attorney 
representing Ms. Clifford at that time and wrote in the memo 
field for the wire the word, quote, ``retainer.'' Is that 
correct?
    Mr. Cohen. Correct.
    Ms. Kelly. Can you tell us why you decided to use this 
complicated process to make this payment?
    Mr. Cohen. Well, starting an LLC is not a sophisticated 
means. LLC, you call up a company, you pay for it, and they 
open it for you.
    And the reason that I used the home equity line of credit 
as opposed to cash that I had in the same exact bank was I 
didn't want my wife to know about it, because she handles all 
of the banking. And I didn't want her coming to me and asking 
me what was the $130,000 for.
    And then I was going to be able to move money from one 
account to the other and to pay it off, because I didn't want 
to have to explain to her what that payment was about.
    I sent it to the IOLA account, the interest on a lawyer's 
account, to Keith Davidson in California, Ms. Daniel's 
attorney. He would hold it in escrow until such time as I 
received the executed NDA, nondisclosure agreement.
    Ms. Kelly. Did Mr. Trump know you were going through this 
process to hide the payment?
    Mr. Cohen. Yes.
    Ms. Kelly. Why not just use Mr. Trump's personal or company 
bank account to make the payment? Why was the distraction so 
important beside you not wanting your wife to know?
    Mr. Cohen. What his concern was was that there would be a 
check that has his very distinct signature onto it. And even 
after she cashed the check, all you need to do is make a 
photocopy of it and it's kind of proof positive on exactly what 
took place.
    So here the goal was to keep him far away from it as 
possible.
    Ms. Kelly. Can anyone corroborate what you have shared with 
us?
    Mr. Cohen. Absolutely.
    Ms. Kelly. And that is?
    Mr. Cohen. Keith Davidson, Allen Weisselberg, President 
Trump.
    Ms. Kelly. OK. Now, let's talk about the reimbursement.
    According to Federal prosecutors, and I quote, ``After the 
election, Cohen sought reimbursement for election-related 
expenses, including the $130,000 payment.'' Prosecutors stated 
that you, and I quote, ``presented an executive of the company 
with a copy of a bank statement reflecting the $130,000 wire 
transfer.'' Is that accurate?
    Mr. Cohen. That is accurate.
    Ms. Kelly. Do you still have a copy of that bank statement?
    Mr. Cohen. Yes. It's actually made part of the exhibit.
    Ms. Kelly. So you will provide it to the committee?
    Mr. Cohen. Yes, ma'am.
    Ms. Kelly. According to Federal prosecutors, executives at 
the company then, and I quote, ``agreed to reimburse Cohen by 
adding $130,000 and $50,000, grossing up that amount to 
$360,000 for tax purposes, and adding a $60,000 bonus such that 
Cohen would be paid $420,000 in total. Executives of the 
company decided to pay the $420,000 in monthly installments at 
$35,000 over the course of a year.'' Is that accurate?
    Mr. Cohen. That is accurate.
    Ms. Kelly. What was the purpose of grossing up the amount, 
essentially doubling what you had paid to Ms. Clifford and 
others?
    Mr. Cohen. Because if you pay $130,000 and you live in New 
York where you have a 50 percent tax bracket, in order to get 
you 130 back, you have to have 260. Otherwise, if he gave me 
back 130, I would only -- then I'd be out 65,000.
    Ms. Kelly. What was the purpose of spreading the 
reimbursements to you over the 12 monthly installments?
    Mr. Cohen. That was in order to hide what the payment was. 
I obviously wanted the money in one shot. I would have 
preferred it that way. But in order to be able to put it onto 
the books, Allen Weisselberg made the decision that it should 
be paid over the 12 months so that it would look like a 
retainer.
    Ms. Kelly. And did Mr. Trump know about this reimbursement 
method?
    Mr. Cohen. Oh, he knew about everything, yes.
    Ms. Kelly. Well, thank you, Mr. Cohen.
    So the President not only knew about the payments, he knew 
and helped to hide the payments and the reimbursements to you.
    Mr. Cohen. We discussed it. Everything had to go through 
Mr. Trump, and it had to be approved by Mr. Trump.
    Ms. Kelly. And now you're going to prison and he's----
    Mr. Cohen. And I'm going to prison, yes, ma'am.
    Ms. Kelly. I yield back.
    Chairman Cummings. Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    Ms. Kelly. Yes, I yield my time.
    Mr. Armstrong. Earlier you had said -- I'm assuming New 
York a one-party consent state. One person can record the other 
one without it being illegal?
    Mr. Cohen. Correct.
    Mr. Armstrong. But you also were a member of the New York 
Bar?
    Mr. Cohen. I was, yes.
    Mr. Armstrong. How would you rate recording clients in the 
ethical realm of being a lawyer?
    Mr. Cohen. It's not illegal, and I do----
    Mr. Armstrong. I'm not asking if it's illegal. I'm asking 
if it's ethical.
    Mr. Cohen. I don't know.
    Mr. Armstrong. OK.
    Mr. Cohen. That we'd have to leave to the judgment of the 
Bar Association.
    Mr. Armstrong. Well, I think every other lawyer in here 
knows exactly where it is on the ethical standard.
    When you said you had 100 tapes, were any of those tapes of 
other clients?
    Mr. Cohen. Yes.
    Mr. Armstrong. And I think this is pretty amazing. I really 
do. Did any of them waive privilege?
    Mr. Cohen. No.
    Mr. Armstrong. So five minutes ago, in the middle of our 
hearing on oversight, you just immediately responded that you 
would hand over tapes to this committee without any of your 
previous clients' waiving privilege.
    Mr. Cohen. I'm not the only one in possession of those 
documents. Those documents are in the hands of all----
    Mr. Armstrong. Whoever else is in charge of those documents 
is not my concern. My concern is, I know lawyers that would go 
to jail before they would violate attorney-client privilege. 
And in a matter of a second, you just said, absolutely, I will 
turn those over.
    Mr. Cohen. I'm just trying to cooperate, sir.
    Mr. Armstrong. At the expense of clients who have never 
waived privilege.
    Mr. Cohen. They're already in the hands, sir, of all of the 
agencies. I didn't ask people----
    Mr. Armstrong. What law enforcement determines to do with 
something and what you determine to do with something, the 
client privilege and attorney trust accounts are about the two 
most sacred things that you can ever do in your entire career 
as a lawyer.
    Mr. Cohen. And, by the way, sir----
    Mr. Armstrong. And in a matter of a second you completely--
--
    Mr. Cohen. And by the way, sir, and the tape with Mr. 
Trump, the reason that it is out there is because Rudy Giuliani 
waived the privilege.
    Mr. Armstrong. I'm not talking about Rudy Giuliani. I'm 
talking about you. I don't know who's on those tapes. Only you 
know who's on those tapes. There's 100 of them.
    Mr. Cohen. The other one is also subject to an ongoing----
    Mr. Armstrong. My point is, within a matter of a second, 
one second, you took no, absolutely no calculation of your role 
as those clients' counselor, the role that plays in privacy, 
and in the role that plays in the solemn vow you took when you 
passed the bar, when you signed onto the bar, until recently 
were a member of the bar, and you just immediately said, if it 
helps me out today in front of TV, yes, absolutely, Mr. 
Chairman, you can have that. And that just goes into what we're 
going to talk about next briefly.
    We talk about these indictments on tax fraud and bank fraud 
as if they are isolated incidents. But they're not isolated 
incidents of bad judgment. These were intricate, elaborate lies 
that created--that needed to be held with constant--I mean, 
just constant deceptions of banks, businesses, associates, 
accountants, potentially your family.
    You received over 2.4 million in personal loans from taxi 
company--taxi medallion company one. And those were loan 
payments for a business loan, correct.
    Mr. Cohen. No, sir.
    Mr. Armstrong. You weren't receiving----
    Mr. Cohen. Those----
    Mr. Armstrong. OK. Go ahead.
    Mr. Cohen. Those were payments that were made by the 
management company that was operating the medallions.
    Mr. Armstrong. To you.
    Mr. Cohen. To me.
    Mr. Armstrong. So and you -- those were deposited into your 
personal account or, in some instances, your wife's account.
    Mr. Cohen. It was deposited into the joint checking account 
of my wife and I that's located at the base of the building 
that we reside in.
    Mr. Armstrong. And were those disclosed on your tax 
returns?
    Mr. Cohen. They are not--they were not disclosed on my tax 
returns.
    Mr. Armstrong. And, in fact, when your accountant talked to 
you about those deposits, you told him you wouldn't pay for a 
memo that you didn't ask to be done?
    Mr. Cohen. That's inaccurate.
    Mr. Armstrong. So the sentencing court in New York has it 
wrong?
    Mr. Cohen. OK. I don't know what Mr. Getzel wrote, my 
accountant. There are a series of issues regarding his memo, 
anyway, including the fact that he's almost directed me in an 
earlier memo to commit fraud.
    But putting all that aside with Jeff Getzel, the answer to 
that is I pled guilty. All right? And I made my mistake, and 
I'm going, as I've said 100 times now.
    I'm not so sure why this singular attack on my taxes. If 
you want to look at them, I'm more than happy to show them to 
you. But every single word that's been written about me----
    Mr. Armstrong. If the chairman will give me 20 minutes, 
I've got plenty of other things to talk about.
    Mr. Cohen. Every single word that's written about me is not 
100 percent accurate.
    Mr. Armstrong. All right. I'm going to reclaim my time.
    Mr. Cohen. And that's exactly why, when it comes to the 
credibility, why I asked Mr. Davis and Mr. Monaco to please 
let's figure out how to----
    Mr. Armstrong. But that's my point with the credibility. 
These aren't isolated--there are not isolated incidents of 
attack. These were constant deceptions, whether it's rolling 
over a $20 million line of credit to a $14 million credit, you 
went through great lengths to conceal that from one bank while 
at the same time you are reducing your net income to another 
bank.
    These aren't things that happened on January 1 of 1918, 
January 1 of 1917, January 1 of 1915. These are things that 
were constantly involved on a--my question is, was it 
exhausting keeping track of all the lies that you were telling 
all these people?
    Chairman Cummings. The gentleman's time has expired.
    You may----
    Mr. Cohen. I don't have an answer for him.
    Chairman Cummings. Very well.
    Mr. DeSaulnier.
    Mr. Cohen. Thank you for continuing the narrative.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Cohen. Good luck on your road to redemption.
    Mr. Cohen. Thank you. It's going to be a long way.
    Mr. DeSaulnier. Well, the opposite of that is perdition, as 
I remember, and that's particularly hard on your children. So I 
wish you well and I wish your family well.
    Mr. Cohen, as you've sort of described your road to here, 
Mr. Cooper asked you when the moment was, or moments, when you 
decided you needed to change. It strikes me there is a 
transition that you have illuminated here. Your period of time, 
the 10 years working for somebody who you admired as a 
developer. And then when Charlottesville happened and, quite 
frankly, when the special counsel called you in, obviously, was 
a key part of it, or you wouldn't be here.
    But the in-between part I find really interesting and 
troubling, at least in terms of appearances and confidence that 
the American people would have in this institution and 
democracy, quite frankly.
    So during that period of time, I want to ask you about two 
specific, if we have enough time.
    First, the Trump Tower. So you were negotiating for this. 
As you said, it was to be the tallest building in Europe. In 
your guilty plea with the special counsel, you quote, say, it 
quotes, ``Cohen asked Individual 1" -- is that President Trump?
    Mr. Cohen. Yes.
    Mr. DeSaulnier. OK. ``--about the possibility of President 
Trump traveling to Russia in connection with the Moscow project 
and asked a senior campaign official about potential business 
travel to Russia.''
    When did this conversation happen? Do you recall?
    Mr. Cohen. Early on in the campaign.
    Mr. DeSaulnier. And who was the campaign official?
    Mr. Cohen. Corey Lewandowski.
    Mr. DeSaulnier. What did you discuss in this meeting?
    Mr. Cohen. The possibility of which dates that Mr. Trump 
would have availability if, in fact, that we were going to go 
over to Russia to take a look at the project. Unfortunately -- 
I'm sorry, sir?
    Mr. DeSaulnier. So go ahead. Sorry.
    Mr. Cohen. Unfortunately, it never came to fruition because 
we were never successful in getting the first prong of what I 
needed, which was ownership or control over a piece of 
property. And until such time, there was no reason to come up 
with a date.
    But when I first received the information request to go to 
Russia what I decided to do is I spoke to Mr. Trump about it. 
He told me to speak to Corey and see what dates might be 
available if I got the information I needed.
    Mr. DeSaulnier. So it stopped because of appearances, or 
did it stop because the parties decided not to pursue it?
    Mr. Cohen. I'm so sorry, I don't understand your question.
    Mr. DeSaulnier. So why did the pursuit of the Trump Tower 
that Mr. Trump has now said, of course, he pursued it, because 
he thought he might be going back into the development 
business, why was the reason that the deal stopped?
    Mr. Cohen. Because he won the Presidency.
    Mr. DeSaulnier. OK. So in that interim period of time, you 
must admit it looks troubling that now that we know what 
foreign influence was attempting to do, whether there was 
collusion or not, it certainly appears troubling that you were 
-- Mr. Trump was part of this negotiation at the same time, 
what we know, perhaps separately, that the Russians were 
engaged in our election.
    Mr. Cohen. Well, I don't know about them being engaged in 
the election. I can only talk for myself. Here I would say to 
Mr. Trump, in response to his question, ``What's going on with 
Russia?'' is I'm still waiting for documents. And then that 
night at a rally, he would turn around and do his battle cry of 
no Russia, no collusion, no involvement, witch hunt.
    Mr. DeSaulnier. OK. On a separate subject but somewhat 
related, on January 17 of this year The Wall Street Journal 
published a story stating that your hired John Gauger, the 
owner of a consulting company who works for Liberty University 
in Virginia, to rig at least two online polls related to Donald 
Trump.
    Did you hire him?
    Mr. Cohen. Those were back in, I believe, 2015?
    Mr. DeSaulnier. 2014.
    Mr. Cohen. 2014.
    Mr. DeSaulnier. 2014. So you did hire him?
    Mr. Cohen. Yes, I spoke with Mr. Gauger about manipulating 
these online polls.
    Mr. DeSaulnier. And did he use bots to manipulate the poll?
    Mr. Cohen. He used algorithms. And if that includes bots, 
then the answer is yes.
    Mr. DeSaulnier. Yes, that's accurate.
    Did the President have any involvement?
    Mr. Cohen. Yes.
    Mr. DeSaulnier. In directing you to do this?
    Mr. Cohen. Yes.
    Mr. DeSaulnier. What were the results of the poll?
    Mr. Cohen. Exactly where we wanted them to be. In the CNBC 
poll we came in at No. 9. And the Drudge Report, he was top of 
the Drudge Report as well, poll.
    Mr. DeSaulnier. OK.
    Mr. Cohen. Please understand also, the CNBC poll, it was 
called The Contenders, and it was the top 250 people that they 
named. And it was supposed to be the top ten most influential 
people.
    Mr. DeSaulnier. Let me just finish with earlier today you 
directed a comment to my colleagues, and I'm quoting, so 
correct me if I got this wrong. You said: The more people who 
follow Mr. Trump, the more people will be where I am.
    Is it your expectation that people in the administration 
will end up where you are?
    Mr. Cohen. Sadly, if they follow blindly, like I have, I 
think the answer is yes.
    Mr. DeSaulnier. Thank you.
    Mr. Cummings. The gentleman's time has expired.
    Mr. Steube.
    Mr. Steube. Thank you, Mr. Chairman.
    When I ran for Congress I talked about how Washington was 
broken, but I certainly did not expect the level of political 
gamesmanship, partisanship, and sheer stagnation of policies 
that would improve the lives of Americans that I'm witnessing 
today.
    It is terribly disappointing to me that this committee and 
its chairman chose to spend our time in questioning an 
individual that has zero probative value and zero credibility 
instead of spending our limited time focusing on improving the 
lives of Americans, creating jobs, or streamlining the 
functioning of our Federal Government.
    Yet here we are taking testimony from a convicted liar, and 
not someone who has just lied to his clients or family or 
friends, but testimony from an individual who deliberately and 
premeditatedly lied to this body. He lied to Congress through 
false statements and written statements. He lied to Congress 
through his testimony. He then amplified his false statements 
by releasing and repeating his lies to the public, including 
the other potential witnesses.
    Yet now we on this committee and the American people are 
expected to believe Mr. Cohen's testimony. I don't know a juror 
in America that would believe anything Mr. Cohen says given his 
past actions and lies.
    Mr. Cohen, you stood before multiple congressional 
committees before today and raised your right hand and swore an 
oath to be honest. Is that correct?
    Mr. Cohen. That is correct.
    Mr. Steube. And you lied to those congressional committees. 
Is that correct?
    Mr. Cohen. Previously?
    Mr. Steube. Correct.
    Mr. Cohen. Yes, sir.
    Mr. Steube. You stated that Trump never directed you to lie 
to Congress. Is that correct?
    Mr. Cohen. That's correct.
    Mr. Steube. Therefore, you lied to Congress on your own 
accord and then admitted to lying to Congress, correct?
    Mr. Cohen. I have already stated my piece on that. I knew 
what he wanted me to do. I was staying on party line.
    Mr. Steube. But he never directed you to lie to Congress?
    Mr. Cohen. He did not use those words, no.
    Mr. Steube. In your evidence that you provided this 
committee a mere 2 hours before the hearing started were 
payments paid made to you by Mr. Trump, correct?
    Mr. Cohen. Amongst other things, yes.
    Mr. Steube. Yet other than your testimony here today 
there's absolutely no proof that those specific payments were 
for those specific purposes. Is that correct?
    Mr. Cohen. It's my testimony that the check that I produced 
as part of this testimony, the $35,000 and then the second 
check that's signed by Allen Weisselberg and Don Trump, Jr., 
were 2 checks out of the 11 that were meant for the 
reimbursement of the hush money payment to Stormy Daniels.
    Mr. Steube. So in your testimony, on page 13, you claim, 
and I quote, ``Mr. Trump directed me to use my own personal 
funds from a home equity line of credit to avoid any money 
being tracked back to him that could negatively impact his 
campaign.'' Do you have any proof of this direction?
    Mr. Cohen. Just the payment, sir.
    Mr. Steube. So no email?
    Mr. Cohen. Mr. Trump doesn't have email.
    Mr. Steube. So no recording?
    Mr. Cohen. I do not have recordings, no.
    Mr. Steube. No text message?
    Mr. Cohen. Mr. Trump doesn't text message.
    Mr. Steube. So no direction other than your testimony today 
that that's what the payment was for?
    Mr. Cohen. And the fact that I paid on his behalf, at his 
direction, the money to Keith Davidson's IOLA account. You're 
right, there's no other documentation I have.
    Mr. Steube. So nothing that you produced as part of your 
exhibits proved that President Trump directed you in any way to 
make that payment?
    Mr. Cohen. I don't even know how to answer that, sir.
    Mr. Steube. Well, it's pretty simple. There's nothing in 
the evidence that shows, in the exhibits that you provided 
today, that show that Trump directed you to make those 
payments.
    Mr. Cohen. Other than the nondisclosure agreement that has 
been seized by government authorities and is widely shown. I 
don't believe there's anybody out there that believes that I 
just decided to pay $130,000 on his behalf.
    Mr. Steube. Well, you were his attorney for over 10 years.
    Mr. Cohen. That doesn't mean that I'd pay $130,00.
    Mr. Steube. Well, it doesn't also mean that he wasn't 
paying you for representation of counsel.
    Mr. Cohen. OK.
    Mr. Steube. How did President Trump even know you had a 
HELOC?
    Mr. Cohen. I'm so sorry, sir?
    Mr. Steube. How did President Trump even know had you a 
HELOC?
    Mr. Cohen. Because we discussed it. Because I told him the 
same thing, that I didn't want my wife to find out about it.
    And one additional. Rudy Giuliani himself came out and 
expressed that Mr. Trump reimbursed me for the money that was 
spent to pay Stormy Daniels.
    Mr. Steube. And did you tell Chris Cuomo that you had no 
access to Mr. Trump during October and November 2016?
    Mr. Cohen. I'm sorry, I don't know what you're referring 
to.
    Mr. Steube. Your interview with Chris Cuomo.
    Mr. Cohen. I would need to see the document.
    Mr. Steube. Did you also tell Chris Cuomo that you made 
these payments without telling Mr. Trump because you wanted to 
protect Mr. Trump?
    Mr. Cohen. And I was protecting Mr. Trump.
    Mr. Steube. And you told him that you made these payments 
without telling him?
    Mr. Cohen. When I said that--if that's what I said to Chris 
Cuomo, yes, that was my line.
    Mr. Steube. And if this unsupported claim was true then it 
would be part of an ongoing investigation as evidence of a 
crime and the Department of Justice would not let you discuss 
it during your testimony here today. Is that correct?
    Mr. Cohen. I don't know.
    Chairman Cummings. The gentleman's time has expired.
    Did you answer?
    Mr. Cohen. Yes, I did want to say one last thing.
    Not only did I lie to the American people, I lied to the 
First Lady, when the President called me and I was sitting in a 
car with a friend of mine and he had me speak to her and 
explain to the First Lady.
    So the answer is you're not accurate, and I don't feel good 
about any of this, and this was not my intention.
    Sorry.
    Chairman Cummings. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    I just want to put on the record, as being a Black American 
and having endured the public comments of racism from the 
sitting President, as being a Black person, I can only imagine 
what's being said in private. And to prop up one member of our 
entire race of Black people and say that that nullifies that is 
totally insulting. And in this environment of expecting a 
President to be inclusive and to look at his administration 
speaks volumes.
    So I have some questions. I want to talk to you about this 
intimidation of witness. Mr. Cohen, you were initially 
scheduled to testify before the House Oversight Committee on 
February the 7th, but your legal team delayed your testimony, 
quoting ongoing threats against your family from the President 
and attorney Giuliani. Is that correct?
    Mr. Cohen. Yes, ma'am.
    Mrs. Lawrence. And then, on November 29, after you admitted 
that the President's negotiations over a real estate project in 
Russia continued well through the summer before the 2016 
election, President Trump called you, quote, ``a weak person'' 
and accused you of lying.
    And then, on December 16, 2018, after you disclosed that it 
was the President who directed you to arrange hush money 
payments to Stormy Daniels and Karen McDougal to conceal his 
extramarital affairs, he called you, the President of the 
United States, a rat.
    Mr. Cohen, why do you feel or believe that the President is 
repeatedly attacking you? You are stating that you feel 
intimidated, asking us to protect you, following your 
cooperation with law enforcement.
    Mr. Cohen. When you have access to 60-plus million people 
that follow you on social media and you have the ability within 
which to spark some action by individuals that follow him, and 
from his own words that he can walk down Fifth Avenue, shoot 
someone, and get away with it, it's never comfortable when the 
President of the United States----
    Mrs. Lawrence. What do you think he can do to you?
    Mr. Cohen. A lot. And it is not just him. It's those people 
that follow him and his rhetoric.
    Mrs. Lawrence. What is a lot?
    Mr. Cohen. I don't know. I don't walk with my wife if we go 
to a restaurant or we go somewhere, I don't walk with my 
children, I make them go before me, because I have fear. And it 
is the same fear that I had before when he initially decided to 
drop that tweet in my cell phone.
    I receive some, and I'm sure you'll understand, I receive 
some tweets, I receive some Facebook Messenger, all sorts of 
social media attacks upon me, whether it's to private direct 
message, that I have had to turn over to Secret Service, 
because they are the most vile, disgusting statements that 
anyone can ever receive. And when it starts to affect your 
children, that's when it really affects you.
    Mrs. Lawrence. On January 20, 2019, Mr. Giuliani called 
your father-in-law, quote, ``a criminal'' and said that he may 
have ties to organized crime.
    Mr. Cohen, do you believe that the President and Mr. 
Giuliani publicly targeted your father-in-law as an effort to 
intimidate you? Can you elaborate, why is your father-in-law 
being pulled into this?
    Mr. Cohen. I don't know the answer to that. My father-in-
law was in the clothing business, came to this country because 
in 1972-73 the expulsion of Jews from the Ukraine. He came here 
to this country. He worked hard, and he is now enjoying his 
retirement.
    Never in my life did I think that Mr. Trump would do 
something so disgraceful, and he is attacking him because he 
knows I care about my family. And to hurt me, he is trying to 
hurt them.
    Interestingly enough, my father-in-law's biggest 
investments happen to be in a Trump property. So it just 
doesn't make any sense to me.
    Mrs. Lawrence. I want to be clear, any efforts to prevent a 
witness from testifying in front of Congress is against the 
law. I want to be real clear about that. And as the chairman 
has said, retaliating against witnesses and threatening their 
family and members is a textbook mob tactic that does not 
benefit the President of the United States or this country.
    And I want to be on the record, this hearing is not about 
discrediting the President. It is about the oath of office that 
we take as Members of Congress to have checks and balances and 
to meet the laws and the policies of this country to serve.
    Thank you, and I yield back.
    Chairman Cummings. Mr. Roy.
    Mr. Roy. Mr. Cohen, I, too, want to offer my heartfelt 
thoughts for your family and what they're going through. I know 
it's tough. And for your time here today. I know it's tough for 
you to stand here in front of this committee.
    The chairman suggested you volunteered to come here. You 
testified that you were asked to come here. Is it correct you 
were asked to come here, yes or no?
    Mr. Cohen. Yes.
    Mr. Roy. The combined total of the crimes for which you 
were sentenced would bring a maximum of 70 years, yes or no?
    Mr. Cohen. Yes.
    Mr. Roy. Yet you are going to prison for three years, yes 
or no?
    Mr. Cohen. Yes.
    Mr. Roy. The prosecutors of the Southern District of New 
York say: To secure loans, Cohen falsely understated the amount 
of debt he was carrying and omitted information from his 
personal financial statements to induce a bank to lend on 
incomplete information. You told my colleague here today that 
you did not committee bank fraud.
    Not parsing different statutes, which I understand could be 
only for clarify, are you or are you not guilty of making false 
statements to a financial institution, yes or no?
    Mr. Cohen. Yes, I pled guilty.
    Mr. Roy. You said clearly to Mr. Cloud and Mr. Jordan that 
the Southern District of New York lawyers were being untruthful 
in characterizing your desire to work in the administration. Do 
you say again that the lawyers of the Southern District of New 
York are being untruthful in making that characterization, yes 
or no?
    Mr. Cohen. I'm saying that's not accurate.
    Mr. Roy. OK. So you're saying they're being untruthful.
    Mr. Cohen. I'm not using the word untruthful, that's yours. 
I'm saying that that's not accurate. I did not want a role or a 
title in the administration.
    Mr. Roy. I'm sure the lawyers----
    Mr. Cohen. I got the title that I wanted.
    Mr. Roy. I'm sure the lawyers at the SDNY appreciate that 
distinction.
    Question, you testified today you have never been to Prague 
and have never been to the Czech Republic. Do you stand behind 
that statement?
    Mr. Cohen. Yes, I do.
    Mr. Roy. I offer into the record an article in known 
conservative news magazine Mother Jones by David Corn in which 
he says he reviewed his notes from a phone call with Mr. Cohen, 
and Mr. Cohen said, quote, ``I haven't been to Prague in 14 
years. I was in Prague for one afternoon 14 years ago,'' end 
quote.
    Question, you, as my friend Mr. Armstrong rightly inquired, 
offered to the committee taped information involving clients 
with the bat of an eye. Do you stand behind that, yes or no?
    Mr. Cohen. I'm sorry, I don't understand. You said it so 
fast.
    Mr. Roy. You, as my friend Mr. Armstrong rightly inquired, 
offered to this committee taped information involving your 
clients with the bat of an eye. Do you stand behind that offer?
    Mr. Cohen. If the chairman asks me, I'll take it under 
advisement now, and it is not a problem in terms of attorney-
client privilege, yes, I will turn it over.
    Mr. Roy. You, as my friend Mr. Meadows pointed out, misled 
this committee even today in a written submission that 
contradicted your testimony. You have suggested you are going 
to review that. Are you going to review it in our next break to 
correct the record, yes or no?
    Mr. Cohen. Yes.
    Mr. Roy. Question, you helped out the President's campaign 
or were involved in the campaign as a representative, as a 
spokesman, even in your words today. It was your idea for the 
campaign dating back to 2011. Is that accurate, yes or no?
    Mr. Cohen. Yes.
    Mr. Roy. 2011 is a year that sticks in my head, for it's 
the year my daughter was born, and it was the year I was 
diagnosed with cancer. I was not then pushing for Donald Trump 
to be President. I was fighting cancer.
    Even in 2016, I was publicly backing a certain Republican 
from Texas. Some might guess who it was. But you, you were all 
in. And you either wanted Donald Trump to be your President 
because it would be good for the country or you did it for your 
own personal advancement or both. Sort of the two options.
    Real Americans in my district and across the country wanted 
the President to be President not in any way because he's 
perfect, but rather because they are sick and tired of this 
hellhole. They supported the President because they are sick 
and tired of the games that we are seeing here today. They are 
sick and tired of politicians who refuse to secure the border, 
balance our budget, restore healthcare freedom, and then get 
the hell out of their way so they can lead their life. They are 
mystified that we amass about $100 million of debt per hour, 
which means we have blown through $300, $400, $450 million 
during this charade in amassing debt--$450 million. They're 
sick and tired of a Democrat Party that willfully ignores 
cartel-driven asylum crisis on our border that endangers 
American citizens and the migrants who seek to come here.
    Just yesterday in Eagle Pass, Texas, Border Patrol agents 
arrested an MS-13 gang member. In McAllen, Texas, Federal 
authorities are offering a reward for a man tied to Mexico's 
Gulf Cartel for his alleged roles in various murders, 
kidnappings, and home invasions in south Texas. A mass Honduran 
migrant rush at the Texas border forced brief closure of the 
Laredo port.
    This is this week. This is what we're ignoring. This is not 
what we are doing for the American people while we engage in 
this charade. This is not what the American people send us here 
to do. This is an embarrassment for our country.
    I talked to my beautiful wife back in Dripping Springs, 
Texas, just before the hearing. I said, ``Don't bother 
watching.'' She said, as I roughly expected, ``Don't worry, I 
won't. I have more important things to do.'' And she, like the 
rest of the American people, have a hell of a lot more 
important things to do than to watch this. I said, ``Amen, 
darling.''
    I can't help but think that that is what the majority of 
the American people are thinking while watching this 
unbelievable circus.
    I yield back.
    Chairman Cummings. Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman.
    I have got a lot to do, as well. I have got houses and 
schools to help rebuild in the Virgin Islands, expansion of 
voting rights, educational opportunities, criminal justice 
reform. Thank God the Democratic majority can walk and chew gum 
at the same time. So we're here with you right now.
    Mr. Cohen, you learned well in the 10 years that you worked 
with Donald Trump. What was your position with the GOP in the 
-- up to eight months ago?
    Mr. Cohen. I was vice chair of the RNC Finance Committee.
    Ms. Plaskett. You were vice chair of finance of the 
Republican National Committee, right?
    Mr. Cohen. Correct.
    Ms. Plaskett. OK.
    Mr. Cohen. I do want to say, I was a Democrat until Steve 
Wynn found out I was a Democrat and made me switch parties.
    Ms. Plaskett. That would be the smart thing to do.
    Mr. Cohen. He said it wasn't right for a Democrat to be the 
vice chair.
    Ms. Plaskett. Good. Let's get to--I only have a little bit 
of time.
    On behalf of the many Members here who have expressed to 
your family our apologies to your family, but I want to 
apologize for the inappropriate comments and tweets that have 
been made by other Members of this body. And as a former 
prosecutor and as former counsel on House Ethics, I think that 
at the very least there should be a referral to the Ethics 
Committee of witness intimidation or tampering under U.S.C. 
1512 of my colleague Matt Gaetz, and it may be possibly him 
being referred for a criminal prosecution. So I want to put 
that on the record.
    On May 2, 2018, the President's personal attorney, Rudy 
Giuliani, who was his personal attorney like you, appeared on 
FOX News and referred to the President's reimbursement to you 
for the $130,000 payment for Stephanie Clifford as part of a 
retainer.
    And on May 3, 2018, one day after Mr. Giuliani's 
appearance, the President tweeted, and I quote, ``Mr. Cohen, an 
attorney, received a monthly retainer not from the campaign and 
having nothing to do with the campaign, from which he entered 
into through reimbursement a private contract between two 
parties known as a nondisclosure agreement or NDA.''
    The Office of Government Ethics, which is the agency which 
the Federal Government with responsibility over what the 
President needs to report publicly about his assets, was 
puzzled by this, it seems, and they were skeptical that a 
retainer was actually in place and asked to see the retainer 
agreement on call of May 8 with the President.
    The President's personal counsel, Sheri Dillon, replied 
that she would, and I quote, ``not permit OGE staff to read the 
agreement because it is privileged.'' Ms. Dillon would not even 
let OGE staff come to her office to review the retainer 
agreement.
    Mr. Cohen, in a court filing made in August of last year 
Federal prosecutors stated that, quote, ``In truth and in fact, 
there was no such retainer agreement.'' Mr. Cohen, did you ever 
have a retainer agreement in place with the President for the 
payment to Ms. Clifford?
    Mr. Cohen. No.
    Ms. Plaskett. So was Mr. Giuliani's statement inaccurate?
    Mr. Cohen. Yes.
    Ms. Plaskett. Was Ms. Dillon's statement about the retainer 
agreement inaccurate?
    Mr. Cohen. I'm sorry, Ms. Dillon's statement is?
    Ms. Plaskett. About the retainer agreement, is it 
inaccurate?
    Mr. Cohen. And her statement is what?
    Ms. Plaskett. And her statement to them was, quote, ``not 
to permit OGE staff to read the agreement because it is 
privileged.''
    Mr. Cohen. There was no agreement.
    Ms. Plaskett. And is the President's tweet or his statement 
accurate?
    Mr. Cohen. And I'm sorry, one more time?
    Ms. Plaskett. And his statement was, Mr. Cohen, an 
attorney, received a monthly retainer not from the campaign and 
having nothing to do with the campaign from which he entered 
into through a reimbursement.
    Mr. Cohen. That's not accurate.
    Ms. Plaskett. You have mentioned some individuals to my 
colleague from New York, Mr. Connolly, and also in your 
testimony about Mr. Weisselberg and other individuals, Ms. 
Rhona. Who are those individuals? Are they with The Trump 
Organization?
    Mr. Cohen. They are.
    Ms. Plaskett. Are there other people that we should be 
meeting with?
    Mr. Cohen. So Allen Weisselberg is the chief financial 
officer in The Trump Organization.
    Ms. Plaskett. You've got to quickly give us as many names 
as we can so we can get to them.
    Mr. Cohen. Yes, ma'am.
    Ms. Plaskett. Is Ms. Rhona, what is Ms. Rhona's----
    Mr. Cohen. Rhona Graff is the--Mr. Trump's executive 
assistant.
    Ms. Plaskett. And would she be able to corroborate many of 
the statements that you have made here?
    Mr. Cohen. Yes. She was--her office is directly next to 
his, and she's involved in a lot that went on.
    Ms. Plaskett. OK. Mr. Cohen, when the President's lawyers 
were having the discussions with the Office of Government 
Ethics in 2018 did they reach out to you to talk with you about 
these payments?
    Mr. Cohen. No, ma'am.
    Ms. Plaskett. And what did you--did you share anything with 
them otherwise in any other conversation?
    Mr. Cohen. I do not recall, no.
    Ms. Plaskett. Can the committee obtain more information 
about these facts by obtaining testimony and documents from the 
White House, The Trump Organization, and the President's 
attorneys?
    Mr. Cohen. I believe so.
    Ms. Plaskett. Mr. Chair, I think that those are the 
individuals that we should be speaking with. And I yield back 
at this time.
    Chairman Cummings. The committee will now stand in recess 
again. We will come back -- listen up -- 35 minutes, 35 minutes 
after the last vote begins.
    So for Mr. Cohen, Mr. Cohen, we are talking about probably 
about an hour or so.
    Mr. Cohen. Thank you so much.
    [Recess.]
    Chairman Cummings. Ladies and gentlemen, we will come to 
order.
    Mr. Cohen, I want to finalize this issue relating to your 
truth in testimony form. The form requires you to list your 
contracts or payments originating from a foreign government, 
not from all foreign entities.
    We said we would give you a chance to consult with your 
attorneys. Have you done that, and do you have any additional 
information?
    Mr. Cohen. So my four attorneys continue to believe, as 
they did before, that the language of the truth in testimony 
form, which I was given and signed just right before this 
hearing and which requires disclosure of any contracts or 
payments from foreign governments in the last two years, did 
not apply to my work for BTA Bank, which is a Kazakh-owned 
entity.
    They advised that had entities been intended for disclosure 
that word would have been in the disclosure definition. 
However, if the committee's counsel has a different view, that 
I should disclose my contract with BTA Bank, we'd be willing to 
do that.
    Chairman Cummings. All right. Now----
    Mr. Meadows. Mr. Chairman?
    Chairman Cummings. Let me finish.
    Mr. Meadows. Sure.
    Chairman Cummings. I want to understand clearly. You sought 
the advice of your counsel. Is that right?
    Mr. Cohen. That's correct.
    Chairman Cummings. And your counsel advised you to say what 
you just said. Is that right?
    Mr. Cohen. That's correct.
    Chairman Cummings. And you know that to be the truth. Is 
that right?
    Mr. Cohen. Yes, sir.
    Chairman Cummings. I will yield to the gentleman from North 
Carolina.
    Mr. Meadows. I thank the chairman for his courtesy.
    Mr. Chairman, instead of making points of order and going 
back and forth on this, perhaps a way to solve this is for the 
chairman to request Mr. Cohen give to this committee all the 
foreign payments that he has received over the last two years, 
whether they're an entity or a government. Because we have a 
strong belief, Mr. Chairman, there's over $900,000 that came 
from the Government of Kazakhstan on behalf of Mr. Cohen, and 
it is either the truth, the whole truth, or nothing but the 
truth.
    And the rules, Mr. Chairman, really look at foreign 
payments that come from or with foreign governments. And the 
bank he is talking about is owned 81 percent by the Kazakhstan 
Government.
    Chairman Cummings. Reclaiming my time, reclaiming my time, 
and then we're going to move on.
    What I will take -- first of all, let me be clear, I said 
to Mr. Cohen that if he came in here and lied I would nail him 
to the cross.
    Didn't I, did I tell you that?
    Mr. Cohen. Yes, you did more than once.
    Chairman Cummings. All right. So if there's any ambiguity I 
want that to be cleared up.
    I have no problem in working with you to make sure that's 
straightened out, because I don't want it to be a thing where 
he thinks one thing, we think one thing. And we can clear that 
up, all right?
    All right. We have a number of members that have been 
waiting.
    Mr. Jordan. But just on that subject -- thank you, Mr. 
Chairman.
    Chairman Cummings. I yield.
    Mr. Jordan. I don't think we should limit to just it the 
BTA Bank which has the affiliation with Kazakhstan. I think we 
should also look at Korea Aerospace Industries, one of his 
other clients, and any other client that's foreign that may 
have some connection to that respective country's government. I 
hope him and his attorneys look at all those and we get the 
form exactly right as Mr. Meadows wants.
    Chairman Cummings. Reclaiming my time. We will take that 
certainly under advisement. I am a man of my word. We will do--
we will work with you and see what we can do to come up with 
that. I don't think that it's an unreasonable request.
    Mr. Khanna. Hello? Mr. Khanna.
    Mr. Khanna. Yes.
    Mr. Cohen, I want to focus my questions on the smoking gun 
document you have provided this committee. This document is 
compelling evidence of Federal and State crimes, including 
financial fraud.
    You provided this committee with a check from President 
Donald J. Trump's revocable trust account, which is marked as 
exhibit 5B. It is a check for $35,000, and it is dated March 
17, 2017, after the President took office. It is right now on 
the screen. Do you see it, sir?
    Mr. Cohen. Yes, sir.
    Mr. Khanna. To be clear, the Trump revocable trust is the 
trust the President set up to hold his assets after he became 
President. Is that correct?
    Mr. Cohen. I believe so.
    Mr. Khanna. Do you know why you were paid from the trust as 
opposed to the President's personal account?
    Mr. Cohen. I don't know the answer to that.
    Mr. Khanna. Did you think it was odd that he paid you once 
from his personal account and then he's paying you through the 
scheme of a trust?
    Mr. Cohen. I'll be honest, I was just happy to get the 
check.
    Mr. Khanna. Today you testified that the check was signed 
by Donald Trump, Jr., and The Trump Organization CFO, Allen 
Weisselberg. Is that correct?
    Mr. Cohen. That is correct.
    Mr. Khanna. According to the criminal charges against you, 
you sent monthly invoices containing false information to an 
individual identified as executive one. Weisselberg is 
Executive 1, correct?
    Mr. Cohen. Yes.
    Mr. Khanna. The criminal charge against you then states 
that Executive 1 forwarded your invoice to someone referred to 
as Executive 2. Presumably Donald Trump, Jr., who is signing 
this check, is Executive 2, correct?
    Mr. Cohen. I believe so.
    Mr. Khanna. As Federal prosecutors laid out in their 
criminal charges, payments like this check resulted in numerous 
false statements in the books and records of The Trump 
Organization. And it's important for the American public to 
understand there's nothing to do with collusion, this is 
financial fraud, garden variety financial fraud. It was 
disguised as a payment for legal services to you, but this was 
not a payment for legal services, was it, Mr. Cohen?
    Mr. Cohen. No, sir.
    Mr. Khanna. It could give rise to serious State and Federal 
criminal liability if a corporation is cooking its books.
    Based on your testimony today, Donald Trump, Jr., and Allen 
Weisselberg directed this payment to you and approved this 
payment. Is that right?
    Mr. Cohen. Mr. Trump initially acknowledged the obligation, 
the debt. Myself and Allen Weisselberg went back to his office, 
and I was instructed by Allen at the time that we were going to 
do this over 12 installments. And what he decided to do then 
was to have me send an invoice, in which case they can have a 
check cut. And then, yes, the answer would be yes to your 
followup.
    Mr. Khanna. And Donald Trump, Jr., obviously signed off on 
this?
    Mr. Cohen. Yes. Well, it would either be Eric Trump, Donald 
Trump, Jr., and/or Allen Weisselberg, but always Allen 
Weisselberg on the check.
    Mr. Khanna. And you think Executive 2 is Donald Trump, Jr.?
    Mr. Cohen. Yes.
    Mr. Khanna. They knew that this payment was false and 
illegal, correct?
    Mr. Cohen. I can't make that conclusion.
    Mr. Khanna. You told Representative Kelly that the 
President was aware of this scheme. Is that correct?
    Mr. Cohen. That's correct.
    Mr. Khanna. I just want the American public to understand 
the explosive nature of your testimony and this document. Are 
you telling us, Mr. Cohen, that the President directed 
transpection in conspiracy with Allen Weisselberg and his son, 
Donald Trump, Jr., as part of a civil -- criminal -- as part of 
a criminal conspiracy of financial fraud? Is that your 
testimony today?
    Mr. Cohen. Yes.
    Mr. Khanna. And do you know if this criminal financial 
scheme that the President, Allen Weisselberg, and Donald Trump, 
Jr., are involved in is being investigated by the Southern 
District of New York?
    Mr. Cohen. I'd rather not discuss that question because it 
could be part of an investigation that's currently ongoing.
    Mr. Khanna. But I just want the American public to 
understand that solely apart from Bob Mueller's investigation 
there is garden variety financial fraud, and your allegation 
and the explosive smoking gun document suggests that the 
President, his son, and his CFO may be involved in a criminal 
conspiracy. And isn't it true, Mr. Cohen, that this criminal 
conspiracy that involves four people, that there's only one 
person so far who has suffered the repercussions, and that's 
why you're in jail?
    Mr. Cohen. Will be going to jail, yes.
    Mr. Khanna. There are three other people, though, who were 
equally involved in this conspiracy.
    Mr. Cohen. Yes.
    Mr. Khanna. Is that true?
    Mr. Cohen. It is true.
    Mr. Khanna. Thank you, Mr. Cohen.
    I yield back my time.
    Chairman Cummings. Thank you very much.
    Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chair.
    Mr. Cohen, I'm going to tackle the President's tax returns.
    During the 2016 campaign you said you personally wouldn't, 
quote, ``allow him to release those returns until the audits 
are over,'' unquote.
    For the record, nothing prevents individuals from sharing 
their own tax returns even while under audit by the IRS. Mr. 
Cohen, do you know whether President Trump's tax returns were 
really under audit by the IRS in 2016?
    Mr. Cohen. I don't know the answer. I asked for a copy of 
the audit so that I could use it in terms of my statements to 
the press, and I was never able to obtain one.
    Mr. Gomez. OK. So do you have any inside knowledge about 
what was in the President's tax returns that he refused to 
release?
    Mr. Cohen. I do not.
    Mr. Gomez. Can you give us any insight into what the real 
reason is that the President has refused to release his tax 
returns?
    Mr. Cohen. The statements that he had said to me is that 
what he didn't want was to have an entire group of think tanks 
that are tax experts run through his tax return and start 
ripping it to pieces and then he'll end up in an audit and 
he'll ultimately have taxable consequences, penalties, and so 
on.
    Mr. Gomez. So that's an interesting point, that basically 
he said he didn't want to release his tax returns because he 
might end up in an audit. So could you presume from that 
statement that he wasn't under audit?
    Mr. Cohen. I presume that he is not under audit.
    Mr. Gomez. And the reason why I bring this up, because I'm 
also the only Democrat on this committee that also serves on 
the Committee of Ways and Means. That's the chief tax-writing 
committee in the House of Representatives, and it is the only 
committee in the House of Representatives that has jurisdiction 
to request an American's tax return, and that includes the 
President of the United States.
    My constituents need to know whether the President has 
financial ties that are causing him to protect his own bottom 
line rather than the best interests of this country. Can he be 
blackmailed because of his financial and business ventures, 
including by a foreign government?
    And I know the opposition, the first thing they're going to 
ask or say is that he released his financial disclosure form. 
But I believe that there's other things we can learn from his 
taxes.
    Do you have any idea what we can learn in his tax returns 
if we actually--we got our hands on them?
    Mr. Cohen. No, I have actually--I have seen them, I just 
have never gone through them. They're quite long.
    Mr. Gomez. Quite long.
    One of the things I also find ironic is the way they're 
kind of attacking you is to undermine your credibility is--one 
of the ways--is by saying that you committed bank fraud and tax 
evasion. And the reason why it is a big deal is that it really 
goes down to a person's character when it comes to taxes. But 
yet, the Republican minority has never asked to see his taxes, 
right? Something that for 40 years, Democrats and Republicans 
alike, have released their tax returns to prove to the American 
people that they didn't have financial interests that would be 
leverageable by a foreign government, but this minority refuses 
to ask for his tax returns.
    I also want to kind of go on. I'm noticing a pattern, I'm 
noticing a pattern about the President and those in his inner 
circle. Special Counsel Robert Mueller's team has indicted or 
received guilty pleas from 34 people and three companies that 
we know of, the latest being long-term Trump adviser Roger 
Stone. That group includes six former Trump advisers.
    It appears that the President has a fondness for entrusting 
those who will, one, lie for him, two, break the law for him, 
three, cheat the system for him. Essentially he wants to 
surround himself with people who are just like him. Would you 
agree with that statement?
    Mr. Cohen. From the facts and circumstances, it appears so.
    Mr. Gomez. Mr. Cohen, the American people have a lot of 
questions when it comes to this President and his conduct, when 
he went to Helsinki and he bowed before Vladimir Putin, and 
nobody can really understand why he acts the way he acts. And 
we believe that the way we get those answers is really looking 
at everybody that surrounds him, who he has been associated 
with, and his tax returns, because that is the only way that we 
can get down to the bottom line.
    Thank you, and I yield back.
    Chairman Cummings. Thank you.
    Mr. Meadows. Mr. Chairman? Mr. Chairman, I have a unanimous 
consent request.
    Chairman Cummings. All right. Go ahead.
    Mr. Meadows. I ask unanimous consent that we read into--or 
for the record a tweet from Dr. Darrell Scott, which says, 
``Michael Cohen asked, no, begged me repeatedly, to ask POTUS 
to give him a job in the administration. He is still lying 
under oath.'' I ask unanimous consent.
    Chairman Cummings. Without objection.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. I have one more from Bo Dietl: ``Getting sick 
watching these hearings. I know Michael Cohen personally for 
many years and he told me several times that he was very angry 
and upset that he didn't get a post in the White House and that 
he,'' quote, ``'would do what he has to do now to protect his 
family,' '' close quote. I ask that be----
    Chairman Cummings. Without objection.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Mr. Chairman?
    Mr. Meadows. I thank you.
    Mr. Jordan. Mr. Chairman, two quick ones.
    Chairman Cummings. And then, if we have got other ones, 
we're going to do you, Mr. Ranking Member, and then we'll do 
the other ones they send, because I have things, too, that I 
want to get in.
    Mr. Jordan. I ask unanimous consent that an article in 
Salon magazines written by Stanley Brand, former House counsel 
to Tip O'Neill, title of the article is, ``Oversight committee 
session with Michael Cohen looks like an illegitimate show 
hearing.''
    Chairman Cummings. Without objection, so ordered.

    [The article referenced above is available at: https://
theconversation.com/oversight-committee-session-with-michael-
cohen-looks-like-an-illegitimate-show-hearing-112253 , 
reprinted in Salon Magazine]

    Mr. Jordan. I ask unanimous consent that a letter that Mr. 
Meadows and I sent to you, the chairman, requesting that you 
call Deputy Attorney General Rod Rosenstein to testify at this 
hearing also be part of the record. Thank you, Mr. Chairman.
    Chairman Cummings. It is part of the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Mr. Chairman, can I respond?
    Chairman Cummings. Just one second, all right?
    The article that Mr. Brand, I just want to deal with this 
one right away. When we saw that article, Mr. Ranking Member, 
we knew that it was inaccurate. I mean, just on basics, I mean, 
that the case is that Mr. Brand's views are definitely 
distinguishable for what's going on here.
    And so we got Irvin B. Nathan, former general counsel of 
the House from 2007 to 2010, and he says in short, the 
committee has ample jurisdiction and responsibility to hear and 
consider the upcoming voluntary testimony of Mr. Cohen. That's 
dated February 25, 2019.
    And I want to enter that into the record. Without 
objection, so ordered. Where are we?
    Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    Mr. Cohen, I would like to quickly pick up on some previous 
lines of questioning before getting into my own. So I may go a 
little quickly to get it all in in five minutes.
    First, my colleague from Vermont had asked you several 
questions about AMI, the parent company of the National 
Enquirer, and in that you mentioned a treasure trove, a, quote, 
treasurer trove of documents in David Pecker's office relating 
to information assembled from all these catch and kill 
operations against people who potentially had damaging 
information on the President. You also mentioned that the 
President was very concerned about the whereabouts of these 
documents and who possessed them.
    Does that treasure trove of documents still exist?
    Mr. Cohen. I don't know. I had asked David Pecker for them.
    Ms. Ocasio-Cortez. So you would say the person who knows 
the whereabouts of these documents would be David Pecker?
    Mr. Cohen. David Pecker, Barry Levine, or Dylan Howard.
    Ms. Ocasio-Cortez. OK. Thank you.
    Second, I want to ask a little bit about your conversation 
with my colleague from Missouri about asset inflation. To your 
knowledge, did the President ever provide inflated assets to an 
insurance company?
    Mr. Cohen. Yes.
    Ms. Ocasio-Cortez. Who else knows that the President did 
this?
    Mr. Cohen. Allen Weisselberg, Ron Lieberman, and Matthew 
Calamari.
    Ms. Ocasio-Cortez. And where would the committee find more 
information on this? Do you think we need to review his 
financial statements and his tax returns in order to compare 
them?
    Mr. Cohen. Yes, and you would find it at The Trump Org.
    Ms. Ocasio-Cortez. Thank you very much.
    The last thing here. The Trump Golf organization currently 
has a golf course in my home borough of the Bronx, Trump Links. 
I drive past it every day going between The Bronx and Queens. 
In fact, The Washington Post reported on the Trump Links Bronx 
course in an article entitled ``Taxpayers Built This New York 
Golf Course and Trump Reaps the Rewards.''
    That article is where many New Yorkers and people in the 
country learned that taxpayers spent $127 million to build 
Trump Links in a, quote, ``generous deal allowing President 
Trump to keep almost every dollar that flows in on a golf 
course built with public funds.'' And this doesn't seem to be 
the only time the President has benefited at the expense of the 
public.
    Mr. Cohen, I want to ask you about your assertion that the 
President may have improperly devalued his assets to avoid 
paying taxes. According to an August 21, 2016, report by The 
Washington Post, while the President claimed in financial 
disclosure forms that Trump National Golf Club in Jupiter, 
Florida, was worth more than $50 million, he had reported 
otherwise to local tax authorities that the course was worth, 
quote, ``no more than $5 million.''
    Mr. Cohen, do you know whether this specific report is 
accurate?
    Mr. Cohen. It's identical to what he did at Trump National 
Golf Club at Briar Cliff Manor.
    Ms. Ocasio-Cortez. To your knowledge, was the President 
interested in reducing his local real estate bills, tax bills?
    Mr. Cohen. Yes.
    Ms. Ocasio-Cortez. And how did he do that?
    Mr. Cohen. What you do is you deflate the value of the 
asset, and then you put in a request to the tax department for 
a deduction.
    Ms. Ocasio-Cortez. Thank you.
    Now, in October 2018, The New York Times revealed that, 
quote, ``President Trump participated in dubious tax schemes 
during the 1990's, including instances of outright fraud that 
greatly increased the fortune he received from his parents.'' 
It further stated for Mr. Trump, quote, ``He also helped 
formulate a strategy to undervalue his parents' real estate 
holdings by hundreds of millions of dollars on tax returns, 
sharply reducing his tax bill when those properties were 
transferred to him and his siblings.''
    Mr. Cohen, do you know whether that specific report is 
accurate?
    Mr. Cohen. I don't. I wasn't there in the 1990's.
    Ms. Ocasio-Cortez. Who would know the answer to those 
questions?
    Mr. Cohen. Allen Weisselberg.
    Ms. Ocasio-Cortez. And would it help for the committee to 
obtain Federal and State tax returns from the President and his 
company to address that discrepancy?
    Mr. Cohen. I believe so.
    Ms. Ocasio-Cortez. Thank you very much. I yield the rest of 
my time to the chair.
    Chairman Cummings. Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman.
    One more time, Mr. Chairman, I just want to thank you for 
your leadership and the way in which you comport yourself. And 
I know there are some that would have you believe that the more 
you say something the more true it is, but, in fact, this 
committee, thanks to your leadership and our Democratic 
majority, has been doing the work of the American people. 
Before this committee alone we looked at the issue of making 
election day a Federal holiday, reducing drug pricing, and 
pursued subpoenas to reunite families, and just recently, 
before we returned here, tried to pass a universal background 
check gun bill.
    So we are doing the business of the American people, 
including today. It has been said that the best sunlight--
sunlight is said to be the best of disinfectants. Electric 
light is the most efficient policeman. Well, let there be 
light, because the point of oversight is for us to pursue the 
trust, to pursue the truth and justice for the American people, 
to understand if lies, deceit, and corruption are threatening 
American democracy and indeed our safety.
    Mr. Chairman, charities should not be abused as personal 
piggy banks. It is both against the law and extremely unfair to 
charities that play by the rules. A line of questioning that we 
have not yet addressed and have been glaringly absent in 
tackling is that of the abuses of the Trump Foundation.
    Now, the President's charitable foundation agreed to 
dissolve in response to an ongoing investigation and lawsuit by 
the New York attorney general. The New York attorney general 
found what it called, quote, ``clear and repeated violations of 
State and Federal law, including, quote, repeated and willful 
self-dealing by the Trump administration''--my apologies, by 
the foundation.
    If I understand your opening statement correctly, in mid-
2013 you arranged for a straw purchaser to bid $60,000 for a 
portrait of Mr. Trump painted by the artist William Quigley at 
a charity auction. Is that correct?
    Mr. Cohen. That's correct.
    Ms. Pressley. Why would the President want to bid up the 
price of something that he was ultimately paying for?
    Mr. Cohen. It was all about ego.
    Ms. Pressley. How was it paid for?
    Mr. Cohen. I believe it was paid for by a check from the 
trust.
    Ms. Pressley. An abuse. And again, you know, this is not a 
partisan pursuit here. I think ultimately what we're 
demonstrating is patriotism. This is about what is right and 
just for the American people.
    Did the straw purchaser purchase the painting and then the 
foundation funds reimbursed the straw purchaser? Can you 
explain the mechanics of that payment?
    Mr. Cohen. I'm not involved with the foundation.
    Ms. Pressley. OK. Did the President know what was 
happening?
    Mr. Cohen. Oh, yes.
    Ms. Pressley. And how did you know he knew what was 
happening?
    Mr. Cohen. Because he tasked me to find the straw bidder to 
ensure that his painting, which was going last in the auction, 
would go for the highest amount of any of the paintings that 
had been put on the auction block for the day.
    Ms. Pressley. And what happened to the painting?
    Mr. Cohen. I believe it's in one of the clubs.
    Ms. Pressley. Okay.
    According to the New York attorney general, in March 2014 
Mr. Trump again used the foundation to pay $10,000 for the 
winning bid on another portrait of Mr. Trump that ended up as 
decor in one of his golf courses in Miami.
    Mr. Cohen, are you familiar with that transaction?
    Mr. Cohen. Yes.
    Ms. Pressley. Are you aware of any other instances where 
the Trump Foundation was used to benefit the Trump family?
    Mr. Cohen. Yes.
    Ms. Pressley. Could you elaborate?
    Mr. Cohen. So there was a contract that I ended up creating 
on Mr. Trump's behalf for a Ukrainian oligarch by the name of 
Victor Pinchuk, and it was that Mr. Trump was asked to come and 
to participate in what was the Ukrainian-American economic 
forum.
    Unfortunately, he wasn't able to go, but I was able to 
negotiate 15 minutes by Skype where they would have a camera, 
very much like the television camera, very much like that one, 
and they would translate Mr. Trump to the questioner and then 
he would respond back.
    And I negotiated a fee of $150,000 for 15 minutes. I was 
directed by Mr. Trump to have the contract done in the name of 
the Donald J. Trump Foundation, as opposed to Donald J. Trump 
for services rendered.
    Ms. Pressley. Thank you.
    Any other abuses of the foundation that you would like to 
share? Again, it is against the law and again extremely unfair 
to charities that are playing by the rules.
    Mr. Cohen. Not at this time, but if I think of one I'll 
pass it along.
    Ms. Pressley. OK. And then for the balance of my time, 
would you agree that someone could deny rental units to African 
Americans, lead the birther movement, refer to the diaspora as 
shithole countries, and refer to White supremacists as fine 
people, have a Black friend, and still be racist?
    Mr. Cohen. Yes.
    Ms. Pressley. I agree.
    Chairman Cummings. The gentlelady's time has expired. You 
may answer the question.
    Mr. Cohen. I did. Yes.
    Mr. Meadows. Mr. Chairman, I have two unanimous consent. 
Since we're finishing up, before we get done I want to go 
ahead.
    Chairman Cummings. Okay. Just give me one second.
    Mr. Meadows. Yes, sir.
    Chairman Cummings. I wanted to get to Ms. Tlaib and then 
I'll come to you, OK? They have been waiting here all day.
    Ms. Tlaib.
    Ms. Tlaib. Thank you, Mr. Chairman.
    Thank you, all of you, for centering this committee on our 
sole purpose, is exposing the truth. And some of my colleagues 
can't handle the truth, and this is unfortunate because it's 
the center of what is protecting our country right now.
    The people at home are frustrated, Mr. Cohen, and they want 
criminal schemes to stop, especially those from the Oval 
Office.
    Mr. Cohen, I am upset and know that my residents feel the 
same way that a man you worked for for the past 10 years is 
using the most powerful position in the world to hurt our 
country solely for personal gain. We are upset that some of our 
colleagues here are so disconnected of what it means to have 
this President of the United States sending checks to cover 
bribe payments, not hush payments, bribe payments you made on 
his behalf, one in 2017 of March and another August 2017 after 
he was sworn in as President.
    They are upset that while my colleagues are trying to 
discredit your testimony by some of your own unlawful acts and 
lies, that they are disconnected with the fact that you were 
the personal lawyer for this President of the United States, 
that this President chose you as his legal counsel.
    My stance has always been the same, Mr. Chairman, based on 
the facts, not on future reports that we're all waiting on. My 
residents back home don't need a collusion clause with a 
foreign government to know this President, Individual 1, has 
disregarded the law of the land, the United States 
Constitution, and that he has misused his pardon powers.
    In the sentencing memo, Mr. Cohen, filed by the Federal 
prosecutors in New York in December of last year they stated, 
quote, ``In particular, and as Cohen himself has now admitted 
with respect to both payments, he acted in coordination with 
and at the direction of Individual 1.''
    Mr. Cohen, as you know, to President Donald J. Trump brand 
comes first, not the American people. Based on what you know 
now, based on what we know now, is that Individual 1 used his 
money, businesses, and platform to enrich himself, his brand, 
and in the process directed you, Mr. Cohen to commit multiple 
felonies, and you covered it up, correct?
    Mr. Cohen. That's correct.
    Ms. Tlaib. You called it protecting his brand, correct?
    Mr. Cohen. And him, as well.
    Ms. Tlaib. Mr. Cohen, with this, do you think the President 
of the United States is making decisions in the best interests 
of the American people?
    Mr. Cohen. No, I don't.
    Ms. Tlaib. Especially those you said that he used horrible 
words about, like African Americans, Muslim Americans, and 
immigrants?
    Mr. Cohen. Yes.
    Ms. Tlaib. Just to make a note, Mr. Chairman, just because 
someone has a person of color, a Black person working for them, 
does not mean they aren't racist. And it is insensitive that 
some would even say -- the fact that someone would actually use 
a prop, a Black woman in this Chamber, in this committee, is 
alone racist in itself.
    Donald Trump is setting a precedent----
    Mr. Meadows. Mr. Chairman, I ask that her words be taken 
down.
    Ms. Tlaib. Donald Trump is setting a precedent -- I reclaim 
my time.
    Mr. Meadows. Mr. Chairman----
    Ms. Tlaib. Donald Trump is setting a precedent----
    Mr. Meadows. Mr. Chairman----
    Ms. Tlaib [continuing]. that the highest office can be 
attained through illegal activity----
    Mr. Meadows. Mr. Chairman, the rules are clear.
    Ms. Tlaib [continuing]. cover up, and hold on to business 
assets to break campaign finance laws and constitutional 
clauses.
    What we have here, Mr. Chairman, is criminal conduct in the 
pursuit of the highest public office by Mr. Cohen and 
Individual 1. I hope that the gravity of this situation hits 
everyone in this body and in Congress and across this country.
    Thank you, Mr. Chairman. I yield the rest of my time.
    Mr. Meadows. Mr. Chairman, I ask that her words, when she 
is referring to an individual Member of this body, be taken 
down and stricken from the record. I'm sure she didn't intend 
to do this. But if anyone knows my record as it relates, it 
should be you, Mr. Chairman.
    Mr. Jordan. Mr. Chairman, I would like -- I want the words 
read back.
    Chairman Cummings. No, no.
    Mr. Jordan. We want to know exactly what she said about my 
colleague.
    Chairman Cummings. Excuse me.
    Would you like to rephrase that statement, Ms. Tlaib?
    Ms. Tlaib. Thank you, Mr. Chairman. I can actually read it 
from here.
    Just to make a note, Mr. Chairman, that just because 
someone has a person of color, a Black person working for them, 
does not mean they aren't racist. And it is insensitive that 
someone would even say racist -- say it is racist in itself and 
to use a Black woman as a prop to prove it otherwise.
    And I can submit this for the record. If a colleague is 
thinking that that's what I'm saying, I'm just saying that's 
what I believe to have happened. And as a person of color in 
this committee that's how I felt at that moment, and I wanted 
to express that.
    But I am not calling the gentleman, Mr. Meadows, a racist 
for doing so. I'm saying that in itself it is a racist act.
    Mr. Meadows. Well, I hope not, Mr. Chairman, because I need 
to be clear on this particular -- Mr. Chairman----
    Chairman Cummings. Mr. Meadows, wait a minute.
    Mr. Meadows. I have defended you of -- with false----
    Chairman Cummings. Mr. Meadows, I'm the chair.
    Mr. Meadows. Yes, sir, you are.
    Chairman Cummings. Thank you. I will clear this up.
    Now, Ms. Tlaib, is it--I want to make sure I understand. 
You did not -- you were not intending to call Mr. Meadows a 
racist. Is that right?
    Ms. Tlaib. No, Mr. Chairman, I do not call Mr. Meadows a 
racist.
    Chairman Cummings. Wait a minute. Hold on.
    Ms. Tlaib. I am trying as a person of color, Mr. Chairman, 
just to express myself and how I felt at that moment. And so 
just for the record, that's what was my intention.
    Chairman Cummings. All right.
    Is that all right, Mr. Meadows?
    Mr. Meadows. Mr. Chairman, there's nothing more personal to 
me than my relationship -- my nieces and nephews are people of 
color. Not many people know that. You know that, Mr. Chairman. 
And to indicate that I asked someone who is a personal friend 
of the Trump family, who has worked for him, who knows this 
particular individual, that she is coming in to be a prop? It 
is racist to suggest that I asked her to come in here for that 
reason.
    Mr. President--the President's own person, she is a family 
member, she loves this family. She came in because she felt 
like the President of the United States was getting falsely 
accused.
    And, Mr. Chairman, you and I have a personal relationship 
that's not based on color, and to even go down this direction 
is wrong, Mr. Chairman.
    Chairman Cummings. First of all, I want to thank the 
gentleman for what you have stated. If there's anyone who is 
sensitive with regard to race it is me, son of former 
sharecroppers that were basically slaves. So I get it.
    I listened very carefully to Ms. Tlaib, and I think, and I 
don't want--I'm not going to put words in her mouth, but I 
think she said that she was not calling you a racist. And I 
thought that we could clarify that.
    Because, Mr. Meadows, you know, and of all the people on 
this committee I have said it and got in trouble for it, that 
you're one of my best friends. I know that shocks a lot of 
people.
    Mr. Meadows. And likewise, Mr. Chairman.
    Chairman Cummings. Yes. But you are. And I would--and I 
could see and feel your pain. I feel it. And so--and I don't 
think Ms. Tlaib intended to cause you that, that kind of pain 
and that kind of frustration.
    Did you have a statement, Ms. Tlaib? I'm going to yield to 
you. We can just straighten this up.
    Ms. Tlaib. No. Thank you, Mr. Chairman.
    And to my colleague, Mr. Meadows, that was not my 
intention, and I do apologize if that's what it sounded like. 
But I said someone in general. And as everybody knows in this 
Chamber, I'm pretty direct. So if I wanted to say that I would 
have, but that's not what I said.
    And thank you, Mr. Chairman, for allowing me to clarify.
    But again, I said someone. And again, I was not referring 
to you at all as a racist.
    Mr. Meadows. Well, I thank the gentlewoman for her 
comments. I thank the chairman for working to clarify this, and 
I appreciate the chairman's intervening.
    Chairman Cummings. Now, to the gentleman, first of all, 
thank you for allowing us to resolve that.
    The gentleman had asked a little bit earlier----
    Mr. Meadows. I will withdraw my request.
    Chairman Cummings. Oh, you don't want to do the unanimous 
consent?
    Mr. Meadows. I need the unanimous consent, but I think I 
need to officially withdraw my request that it be stricken from 
the record.
    Chairman Cummings. OK, withdraw it. You did it?
    Mr. Meadows. I did.
    Chairman Cummings. All right. Sounds good.
    Now I will recognize you for your unanimous consent. I 
think you want to put in the record some documents.
    Mr. Meadows. Yes, thank you, Mr. Chairman.
    I ask unanimous consent that we put forth in the record the 
Vanity Fair article which indicates that Michael Cohen must be 
the most gifted consultant in America, outlining his insights 
into government healthcare and policy and real estate, 
suggesting that he is not--it is not a real company, just like 
he is not a lawyer.
    Chairman Cummings. Without objection, so ordered.
    [The information referred to follows:]

    [The article referenced above is available at: https://
www.vanityfair.com/news/2018/05/michael-cohen-must-be-the-most-
gifted-consultant-in-america]

    Mr. Meadows. Thank you.
    I ask unanimous consent that the L.A. Times article of July 
16, 2018, actually be put in the record, which outlines the 
$1.2 million payment and their misgivings thereafter.
    Chairman Cummings. Without objection, so ordered.

    [The article referenced above is available at:https://
www.latimes.com/business/hiltzik/la-fi-hiltzik-novartis-cohen-
20180716-story.html.]

    Chairman Cummings. Any other unanimous consent requests?
    Mr.Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I ask unanimous consent to make the February 9, 2019, 
Washington Post profile of Michael Cohen, titled ``Michael 
Cohen's Secret Agenda,'' part of the record. This story shows 
Cohen to be a selfish manipulator who is all about himself. It 
even has a false anecdote about how he once claimed to deliver 
his own son, his own baby.
    Chairman Cummings. Without objection, so ordered.
    [The article may be found at:https://
www.washingtonpost.com/graphics/2019/politics/michael-cohens-
secret-agenda-as-trumps-fixer/?utm--term=.b39beefbdfce ]

    Mr. Hice. Thank you, Mr. Chairman.
    I ask unanimous consent to make the May 9, 2018, Washington 
Post article, ``South Korean Firm Paid Michael Cohen $150,000 
as it Sought Contract from U.S. Government,'' as part of the 
record. The article reported Korea Aerospace Industries paid a 
shell company run by Cohen.
    Chairman Cummings. Without objection, so ordered.
    [The article may be found at: https://
www.washingtonpost.com/investigations/south-korean-firm-paid-
michael-cohen-150000-as-it-sought-contract-from-us-government/
2018/05/09/0ae31788-53b7-11e8-abd8-265bd07a9859--
story.html?utm--term=.f63ad297b92d.]
    Mr. Hice. Thank you, Mr. Chairman.
    I ask unanimous consent to make Michael Cohen's sentencing 
statement to the Southern District of New York part of the 
record. The statement establishes that Michael Cohen continues 
to falsely blame his crimes on blind loyalty to the President, 
but only Cohen is to blame for his many false statements to 
financial institutions and the IRS.
    Chairman Cummings. Without objection, so ordered.
    [The information referred to follows:]
                  Michael Cohen - Sentencing Statement

    Thank you, your Honor.
    I stand before your Honor humbly and painfully aware that we are 
here today for one reason: Because of my actions that I pied guilty to 
on August 21, and as well on November 29.
    I take full responsibility for each act that I pied guilty to, the 
personal ones to me and those involving the President of the United 
States of America. Viktor Frankl in his book, "Man's Search for 
Meaning," he wrote, "There are forces beyond your control that can take 
away everything you possess except one thing, your freedom to choose 
how you will respond to the situation."
    Your Honor, this may seem hard to believe, but today is one of the 
most meaningful days of my life. The irony is today is the day I am 
getting my freedom back as you sit at the bench and you contemplate my 
fate.
    I have been living in a personal and mental incarceration ever 
since the fateful day that I accepted the offer to work for a famous 
real estate mogul whose business acumen I truly admired. In fact, I now 
know that there is little to be admired. I want to be clear. I blame 
myself for the conduct which has brought me here today, and it was my 
own weakness, and a blind loyalty to this man that led me to choose a 
path of darkness over light. It is for these reasons I chose to 
participate in the elicit act of the President rather than to listen to 
my own inner voice which should have warned me that the campaign 
finance violations that I later pied guilty to were insidious.
    Recently, the President Tweeted a statement calling me weak, and he 
was correct, but for a much different reason than he was implying. It 
was because time and time again I felt it was my duty to cover up his 
dirty deeds rather than to listen to my own inner voice and my moral 
compass. My weakness can be characterized as a blind loyalty to Donald 
Trump, and I was weak for not having the strength to question and to 
refuse his demands. I have already spent years living a personal and 
mental incarceration, which no matter what is decided today, owning 
this mistake will free me to be once more the person I really am.
    Your Honor, I love my family more than anything in the world: My 
dad who is here today, my mom, my in-laws, siblings, love of my life, 
my wife Laura, my pride and joy, my daughter Samantha, my son, Jake. 
There is no sentence that could supersede the suffering that I live 
with on a daily basis, knowing that my actions have brought undeserved 
pain and shame upon my family. I deserve that pain. They do not.
    I also stand before my children, for them to see their father 
taking responsibility for his mistakes, mistakes that have forced them 
to bear a shameful spotlight which they have done nothing to deserve, 
and this breaks my heart. For me, the greatest punishment has been 
seeing the unbearable pain that my actions and my associations have 
brought to my entire family. My mom, my dad, this isn't what they 
deserve to see in their older age, especially when as a child they 
emphasized to all of us the difference between right and wrong. And I'm 
sorry.
    I believed during this process that there were only two things I 
could do to minimize the pain to my family: Admit my guilt and move 
these proceedings along. This is why I did not enter into a cooperation 
agreement. I have elected to be sentenced without asking for 
adjournment. I have given information during countless hours of 
meetings with prosecutors that have been cited as substantial, 
meaningful and credible. I have chosen this unorthodox path because the 
faster I am sentenced, the sooner I can return to my family, be the 
father I want to be, the husband I want to be, and a productive member 
of society again. I do not need a cooperation agreement to be in place 
to do the right thing. And I will continue to cooperate with 
government, offering as much information as I truthfully possess.
    I stand behind my statement that I made to George Stephanopoulos, 
that my wife, my daughter, my son have my first loyalty and always 
will. I put family and country first. My departure as a loyal soldier 
to the President bears a very hefty price.
    For months now the President of the United States, one of the most 
powerful men in the world, publicly mocks me, calling me a rat and a 
liar, and insists that the Court sentence me to the absolute maximum 
time in prison. Not only is this improper; it creates a false sense 
that the President can weigh in on the outcome of judicial proceedings 
that implicate him. Despite being vilified by the press and inundated 
with character assassinations over the past almost two years, I still 
stand today, and I am committed to proving my integrity and ensuring 
that history will not remember me as the villain of his story. I now 
know that every action I take in the future has to be well thought out 
and with honorable intention because I wish to leave no room for future 
mistakes in my life.
    And so I beseech your Honor to consider this path that I am 
currently taking when sentencing me today. And I want to apologize to 
my entire family for what my actions have put them through. My family 
has suffered immeasurably in the home and the world outside. I know I 
have let them all down, and it will be my life's work to make it right, 
and to become the best version of myself.
    Most all, I want to apologize to the people of the United States. 
You deserve to know the truth and lying to you was unjust. I want to 
thank you, your Honor, for all the time I'm sure you've committed to 
this matter and the consideration that you have given to my future. 
Again, I want to thank my family, my friends, many who are here today, 
who are with me, especially all the people who wrote letters on my 
behalf. In addition, I would like to thank the tens of thousands of 
strangers who despite not knowing me at all, not knowing me personally 
have shown kindness and empathy in writing letters to me and offering 
support and prayer. And I thank you, your Honor, I am truly sorry, and 
I promise I will be better.

    Mr. Hice. I ask unanimous consent to make the August 20, 
2018, CNN article, ``Fed Scrutinizing Michael Cohen's Former 
Accountant and Bank Loans,'' part of the record. Cohen's 
accountant was subpoenaed to appear before a grand jury and 
required a lawyer. In his sentencing memo prosecutors said 
Cohen attempted to blame his tax evasion on his accountant.
    Chairman Cummings. Without objection, so ordered.

    [The article referenced above is available at: https://
www.cnn.com/2018/08/07/politics/michael-cohen-accountant-
subpoena/index.html.]

    Mr. Hice. Two more real quickly.
    Chairman Cummings. Sure.
    Mr. Hice. I ask unanimous consent to make the February 26, 
2019, order filed by the Appellate Division of the State of New 
York regarding disciplinary proceedings against Michael Cohen 
part of the record. This order, which proactively applies 
starting February 28, establishes Cohen committed a serious 
crime and ceased being an attorney when he was convicted of 
lying to Congress.
    Chairman Cummings. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. And finally, Mr. Chairman, I ask unanimous 
consent to make the July 26, 2018, Washington Post article, 
``Michael Cohen Secretly Recorded Trump: Does That Make Him a 
Bad Lawyer,'' part of the record. The article describes 
potential ethical violations of a lawyer, Cohen, recording his 
client, Trump, without the client's knowledge.
    Chairman Cummings. Without objection, so ordered.
    [The article may be found on: https://
www.washingtonpost.com/news/the-fix/wp/2018/07/25/michael-
cohen-secretly-recorded-trump-does-that-make-him-a-bad-lawyer/
?utm--term=.a8b7b4b17413.]
    Chairman Cummings. Mr. Norman.
    Mr. Norman. Thank you, Mr. Chairman.
    I ask unanimous consent to make the January 18, 2019, 
Huffington Post article, ``11 Tweets from the Fake Fan Account 
'Stud' Michael Cohen Paid to Fawn Over Him,'' part of the 
record. The account is described as a place for women who love 
and support Michael Cohen. ``Strong, pit bull, sex symbol, no 
nonsense, business oriented, ready to make a difference!"
    Chairman Cummings. Without objection, so ordered.

    [The article referenced above is available at: https://
www.huffpost.com/entry/michael-cohen-women-for-cohen-tweets--
n--5c41a28ee4b0bfa693c22b39.]

    Chairman Cummings. Mr. Roy.
    Mr. Roy. Thank you, Mr. Chairman.
    I would ask unanimous consent to make the April 20, 2018, 
article in Mother Jones titled ``Michael Cohen Says He Has 
Never Been to Prague, He Told Me a Different Story'' part of 
the record.
    Chairman Cummings. Without objection, so ordered.

    [The article referencedabove is available at: https://
www.motherjones.com/politics/2018/04/michael-cohen-says-hes-
never-been-to-prague-he-told-me-a-different-story/.]

    Mr. Roy. Thank you, sir.
    Chairman Cummings. Very well.
    Mr. Cohen, I have some concluding remarks, but before I do 
that do you have anything you would like to say?
    Mr. Cohen. Yes, yes, Mr. Chairman, I would. I have some 
closing remarks I would like to say myself. Is this an 
appropriate time?
    Chairman Cummings. You can do it now.
    Mr. Cohen. Thank you.
    So first I want to thank you, Chairman, because I 
appreciate the opportunity to share some final thoughts.
    I have acknowledged I have made my own mistakes, and I have 
owned up to them publicly and under oath, but silence and 
complicity in the face of the daily destruction of our basic 
norms and civility to one another will not be one of them.
    I did things and I acted improperly, at times at Mr. 
Trump's behest. I blindly followed his demands. My loyalty to 
Mr. Trump has cost me everything, my family's happiness, 
friendships, my law license, my company, my livelihood, my 
honor, my reputation, and soon my freedom, and I will not sit 
back, say nothing and allow him to do the same to the country.
    Indeed, given my experience working for Mr. Trump, I fear 
that if he loses the election in 2020, that there will never be 
a peaceful transition of power, and this is why I agreed to 
appear before you today.
    In closing, I would like to say directly to the President: 
We honor our veterans even in the rain. You tell the truth even 
when it doesn't aggrandize you. You respect the law and our 
incredible law enforcement agents. You don't villainize them. 
You don't disparage generals, gold star families, prisoners of 
war, and other heroes who had the courage to fight for this 
country.
    You don't attack the media and those who question what you 
don't like or what you don't want them to say. And you take 
responsibility for your own dirty deeds. You don't use your 
power of your bully pulpit to destroy the credibility of those 
who speak out against you.
    You don't separate families from one another or demonize 
those looking to America for a better life. You don't vilify 
people based on the God they pray to, and you don't cuddle up 
to our adversaries at the expense of our allies. And, finally, 
you don't shut down the government before Christmas and New 
Year's just to simply appease your base. This behavior is 
churlish. It denigrates the office of the President, and it's 
simply un-American, and it's not you.
    So to those who support the President and his rhetoric, as 
I once did, I pray the country doesn't make the same mistakes 
that I have made, or pay the heavy price that my family and I 
are paying. And I thank you very much for this additional time, 
Chairman.
    Chairman Cummings. Thank you very much. The ranking member 
has a closing statement.
    Mr. Jordan. Thank you, Mr. Chairman. We know Mr. Cohen has 
been dishonest in the past--that's why he's going to prison in 
two months--but there are things today that he said during the 
several hours of questioning that just don't add up either. He 
said he never defrauded any bank. He was having a conversation 
questioning from Mr. Comer. Obviously, that's not true, because 
he's going to prison for that very offense.
    He said today he was a good lawyer who understood the need 
to represent his client--his client with legal advice, but in 
his written testimony, he said he never bothered to consider 
whether payments to women for improper--whether payments to 
women were improper, much less the right thing to do.
    He attested in his signed truth in testimony form, that he 
did not have any reportable contracts with foreign-government 
entities. Earlier he admitted to having consulting agreements 
with at least two foreign entities owned, in part, by foreign 
governments BTA Bank of Kazakhstan and Korea Aerospace 
Industries of South Korea.
    He said to Chairman Cummings that Donald Trump directed him 
and the Trump Organization CFO, Allen Weisselberg, to, quote, 
``go back to his office and figure out how to make a $130,000 
payment,'' but in his testimony, he says, Mr. Trump directed me 
to use my own personal funds from the home equity line of 
credit to avoid any money being traced back to him that could 
negatively impact the campaign.
    And in response to a question about him paying to set up 
the fake Twitter account, @WomenForCohen, that he didn't direct 
the commission of that Twitter account. He says, I didn't set 
that up, and it was done by a young lady that works for the 
firm, when, in fact, he did ask the IT firm, RedFinch, to set 
it up, according to the owner of RedFinch. And, finally, he 
said he didn't want a job with the administration, even though 
the attorneys with the Southern District of New York stated 
that this was a fact. When asked about this, they said, I 
wouldn't call them liars, but that statement is not accurate.
    Mr. Chairman, I think maybe more importantly is what we 
should have been doing today. Mr. Meadows and I sent you a 
letter asking us--asking you to have Mr. Rosenstein here. I 
think it's important to know that last week, when you announced 
that Mr. Cohen was coming this week, just happened to be the 
very same week that we learned the Deputy Attorney General of 
the United States was thinking about wearing a wire to record 
the Commander in Chief, was actually contemplating, talking to 
cabinet members and invoking the 25th Amendment.
    That's what we should be focused on, not this sad display 
we've had to go through the last several hours. And, again, 
it's not my words. You can take the words of the former general 
counsel for the House of Representatives under Tip O'Neill.
    So I hope we've learned some things here today. But, Mr. 
Chairman, as I said earlier, your first big hearing, the first 
announced witness of the 116th Congress, is a gentleman who is 
going to prison in two months for lying to Congress. I don't 
think that's what we should be focused on. I yield back.
    Chairman Cummings. Thank you very much.
    You know, I've sat here and I've listened to all of this, 
and it's very painful. It's very painful. You made a lot of 
mistakes, Mr. Cohen, and you've admitted that. And, you know, 
one of the saddest parts of this whole thing is that some very 
innocent people are hurting, too--and you acknowledged that--
and that's your family. And so you come here today and you--
deep in my heart, I have to--you know, when I practiced law, I 
represented a lot of lawyers who got in trouble, and you come 
saying, I have made my mistakes, but now I want to change my 
life. And, you know, if we--if we as a Nation, did not give 
people an opportunity, after they made mistakes, to change 
their lives, a whole lot of people would not do very well.
    I don't know where you go from here. As I sat here and I 
listened to both sides, I just felt as if--and--and, you know, 
people are now using my words, that they took from me, that 
didn't give me any credit, we're better than this. We are so 
much--we really are. As a country, we are so much better than 
this.
    And, you know, I told you, and, and, and, for some reason, 
Mr. Cohen, I tell my--my children, I say, when bad things 
happen to you, do not ask the question, Why did it happen to 
me? Ask the question, Why did it happen for me? I don't know 
why this is happening for you, but it is my hope that a small 
part of it is for our country to be better. If I hear you 
correctly, it sounds like you're crying out for a new normal, 
for us getting back to normal. It sounds to me like you want to 
make sure that our democracy stays intact. When I had the one 
meeting I had with President Trump, I said to him, the greatest 
gift that you and I, Mr. President, can give to our children, 
is making sure that we give them a democracy that is intact, a 
democracy better than the one that we came upon, and I'm hoping 
that the things you said today will help us begin to get back 
there.
    You know, I mean, come on now, I mean, when you got, 
according to The Washington Post, our President has made at 
least 8,718--8,718 false or misleading statements. That's 
stunning. That's not what we teach our children. I don't teach 
mine that. And for whatever reason, you--it sounds like you got 
caught up in it. You got caught up in it. You got caught up in 
it. And some kind of way, I hope that you will--I know that 
it's painful going to prison. I know--I know it's got to be 
painful being called a rat.
    And let me--let me explain. A lot of people don't know the 
significance of that, but I live in the inner city of 
Baltimore, all right? And when you call somebody a rat, that's 
one of the worse things you can call them, because when they go 
to prison, that means a snitch. I'm just saying. And so the 
President called you a rat. We're better than that. We really 
are.
    And I'm hoping that all of us can get back to this 
democracy that we want and that we should be passing on our 
children, so that they can do better than what we did.
    And so you wonder whether people believe you. I don't know. 
I don't know whether they believe you. But the fact is that you 
come, you have your head down, and this has got to be one of 
the hardest things that you could do.
    Let me tell you the picture that really, really pained me. 
You were leaving the prison--you were leaving the courthouse, 
and I guess it's your daughter had braces or something on. Man, 
that thing--man, that thing hurt me. As a father of two 
daughters, it hurt me. And I can imagine how it must feel for 
you.
    But I'm just saying to you, I want to, first of all, thank 
you. I know that this has been hard. I know that you face a 
lot. I know that you are worried about your family, but this is 
a part of your destiny. And hopefully this portion of your 
destiny will lead to a better--a better--a better Michael 
Cohen, a better Donald Trump, a better United States of 
America, and a better world. And I mean that from the depths of 
my heart.
    When we're dancing with the angels, the question will be 
asked, in 2019, what did we do to make sure we kept our 
democracy intact? Did we stand on the sidelines and say 
nothing? Did we play games? And I'm tired of these statements 
saying--people come in here and say, Oh, oh, this is the first 
hearing. It is not the first hearing. The first hearing with 
regard to prescription drugs. Remember? A little girl, a lady 
sat there, Ms. Worsham, her daughter died because she could not 
get $333 a month in insulin. That was our first hearing.
    Second hearing, H.R. 1, voting rights, corruption in 
government. Come on now. We can do more than one thing, and we 
have got to get back to normal. With that, this meeting is 
adjourned.
    [Whereupon, at 5:20 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
